<html>
<title> - OVERVIEW OF THE FEDERAL R&D BUDGET FOR FISCAL YEAR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                              OVERVIEW OF
                         THE FEDERAL R&D BUDGET
                          FOR FISCAL YEAR 2004

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2003

                               __________

                            Serial No. 108-1

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                     U.S GOVERNMENT PRINTING OFFICE     
84-816PS                    WASHINGTON : 2003

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001





                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                            C O N T E N T S

                           February 13, 2003

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    16

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    16
    Written Statement............................................    18

Prepared Statement by Representative Nick Smith, Member, 
  Committee on Science, U.S. House of Representatives............    19

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    19

                               Witnesses:

John H. Marburger, III, Science Advisor to the President; 
  Director, Office of Science and Technology Policy
    Oral Statement...............................................    20
    Written Statement............................................    23
    Biography....................................................    28

Samuel W. Bodman, Deputy Secretary, U.S. Department of Commerce
    Oral Statement...............................................    29
    Written Statement............................................    32
    Biography....................................................    39

Rita R. Colwell, Director, National Science Foundation
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    45

Robert G. Card, Under Secretary for Energy, Science, and 
  Environment, U.S. Department of Energy
    Oral Statement...............................................    46
    Written Statement............................................    47
    Biography....................................................    58

Discussion.......................................................    59

             Appendix 1: Answers to Post-Hearing Questions

John H. Marburger, III, Science Advisor to the President; 
  Director, Office of Science and Technology Policy..............    86

Samuel W. Bodman, Deputy Secretary, U.S. Department of Commerce..    95

Rita R. Colwell, Director, National Science Foundation...........   106

Robert G. Card, Under Secretary for Energy, Science, and 
  Environment, U.S. Department of Energy.........................   118


        OVERVIEW OF THE FEDERAL R&D BUDGET FOR FISCAL YEAR 2004

                              ----------                              


                      THURSDAY, FEBRUARY 13, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.
                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Overview of the Federal R&D

                      Budget for Fiscal Year 2004

                      thursday, february 13, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, February 13, 2003, the House Science Committee will 
hold a hearing to consider President Bush's fiscal year 2004 budget 
request for research and development. Four Administration witnesses 
will review the proposed budget in the context of the President's 
overall priorities in science and technology. The Science Committee 
will hold a separate hearing on February 27 on the budget request for 
the National Aeronautics and Space Administration. The Subcommittee on 
Environment, Technology and Standards will hold a hearing later this 
year on the budget request for research and development at the 
Environmental Protection Agency.

2. Witnesses

    The Committee will hear testimony from the following four 
witnesses:

Dr. John Marburger is the Director of the Office of Science and 
Technology Policy (OSTP), the White House science office. Prior to 
joining OSTP, Dr. Marburger served as President of the State University 
of New York at Stony Brook and as Director of the Brookhaven National 
Laboratory.

Dr. Samuel W. Bodman is the Deputy Secretary of the Department of 
Commerce. Prior to joining the department, Dr. Bodman--an engineer by 
training--has served as Chairman and CEO of Cabot Corporation, 
President and CEO of Fidelity Investments, and as an Associate 
Professor of Chemical Engineering at Massachusetts Institute of 
Technology.

Dr. Rita R. Colwell is the Director of the National Science Foundation 
(NSF). Before joining the Foundation, Dr. Colwell served as President 
of the University of Maryland Biotechnology Institute and Professor of 
Microbiology at the University Maryland. She was also a member of the 
National Science Board from 1984 to 1990.

Mr. Robert Card is the Under Secretary of Energy for Energy, Science 
and Environment. Prior to joining the Department of Energy (DOE), Mr. 
Card served as President and CEO of Kaiser-Hill Company, LLC, where 
oversaw the cleanup and closure of the Rocky Flats nuclear production 
facility. Before that, he served as Director and Senior Vice President 
of CH2M Hill Companies, Ltd., an international engineering consulting 
group.

3. Background

    On February 3, 2003, President Bush delivered his Fiscal Year 2004 
(FY04) Federal Budget submission to Congress, proposing $2.2 trillion 
in outlays, an estimated 19.7 percent of gross domestic product, and 
$1.9 trillion in receipts. The research and development budget (R&D) 
budget proposes significant increases for development related to 
defense and homeland security, but only modest or no increases in the 
major research accounts.
    Other than Defense and Military Construction, Congress has not 
passed appropriations bills for FY03, making meaningful year-to-year 
budget comparisons difficult. In the case of the National Science 
Foundation (NSF), the FY04 request represents a nine percent increase 
over the FY03 request, but the FY03 appropriations are likely to be 
significantly higher than the FY03 request (the FY04 request represents 
only a 1.1 percent increase over the House appropriations mark, for 
example). At $5.5 billion, the FY04 request for NSF falls well short of 
the $6.4 billion authorized by Congress last year.
    Despite the confusing lack of a proper baseline, one trend is 
clearly discernible in the R&D proposal: the budget request includes 
significant increases for security and defense development, 
particularly for missile defense and tactical air systems development 
in the Department of Defense (DOD), but the request decreases basic and 
applied research associated with those programs. The new Department of 
Homeland Security (DHS) is set to become a major new research funding 
agency with a requested FY04 R&D budget of nearly $1 billion--a 32 
percent increase over the FY03 R&D request for those programs that are 
transferred to DHS. The new R&D money at DHS will be focused on 
development activities related to protection against chemical, 
biological, and nuclear threats. Basic research associated with those 
programs is not increased. Moreover, basic and applied research at DOD 
(6.1, 6.2, and 6.3 accounts) is reduced from the levels enacted last 
year.
    The Federal Science and Technology (FS&T) budget--a subcategory of 
R&D spending that emphasizes basic and applied research--remains 
essentially flat. Support for research in the physical sciences, long 
an area of concern for the Science Committee, is increased at the 
National Science Foundation (NSF), but the request for the Department 
of Energy's (DOE) Office of Science, the single largest civilian source 
of research support for physical science, is flat for the third year in 
a row.
    The following highlights flag those areas of greatest interest to 
the Science Committee:

Defense and Security R&D: development activities in both DOD and DHS 
are up sharply from last year's request, but basic and applied defense 
and security research are decreased relative to the FY03 request.

Balance of the Research Portfolio: growth in the National Institutes of 
Health (NIH) research budget slows to two percent in the President's 
budget after five consecutive years of double digit increases. 
Nonetheless, at $27.9 billion, the request for NIH is larger than the 
request for all other civilian science and technology research.

Physical Science Research: while physical science at NSF receives 
increases this year, the budget request for DOE's Office of Science, 
which funds more physical science research than any other civilian 
agency, is flat for the third year in a row.

The National Science Foundation (NSF): the budget requests $5.48 
billion for NSF in FY04, an increase of $453 million (nine percent) 
over the FY03 request. This is, however, just one percent and four 
percent, respectively, above the currently pending House and Senate 
appropriations bills, and falls far short of the $6.4 billion 
authorized by Congress last year for FY04.

The Advanced Technology Program (ATP): the President's budget 
effectively eliminates ATP, providing only enough money to close out 
the program.

The Manufacturing Extension Partnership (MEP): the request reduces the 
MEP budget by 78 percent over what was enacted in FY02 and ends support 
for all MEP state centers with the exception of two centers that are 
fewer than six years old.

The National Sea Grant Program: last year, the Administration proposed 
to transfer Sea Grant to the National Science Foundation and zeroed out 
the Sea Grant budget line in the FY03 request for the National Oceanic 
and Atmospheric Administration (NOAA). In response, the Science 
Committee led a successful effort to reauthorize and strengthen the 
program. The Administration has determined that the Committee's enacted 
reforms address their concerns and has requested $57.4 million for the 
National Sea Grant Program at NOAA.

The President's Management Agenda: for the FY04 budget request, the 
Administration has expanded its effort to better link agency 
performance with budget decision-making through use of the Program 
Assessment Rating Tool (PART). The relationship between the PART 
ratings and the budget request is unclear, however. For example, the 
Manufacturing Extension Partnership (MEP) at the National Institute of 
Standards and Technology (NIST) was rated as ``moderately effective,'' 
but the program is all but eliminated in the FY04 request.

Climate Change Research: the budget requests $182 million for the 
interagency Climate Change Research Initiative (CCRI), up from the $40 
million requested for FY03, but much of the $142 million increase 
appears to represent reclassification of ongoing research. CCRI is 
intended to target critical scientific uncertainties and deliver 
results in 3-5 years. A draft strategic plan for the initiative was 
released late last year. It is not clear from the budget submission, 
however, to what extent CCRI efforts will be guided by the strategic 
plan.

Climate Change Technology Development: the DOE FY04 budget requests 
$1.6 billion for climate change technology research and development, an 
increase of five percent from FY02 enacted level. The increase reflects 
an increase in carbon sequestration research related to utility sector 
emissions and an accounting change that now treats ongoing nuclear 
spending in the climate totals. As in FY03, the budget also requests 
$40 million for a competitive solicitation for the National Climate 
Change Technology Initiative. However, DOE has not yet produced the 
government-wide climate change spending review promised by the 
department last year or developed a comprehensive plan (or process for 
developing a plan) to guide this spending.

A. Interagency Research Activities

National Nanotechnology Initiative (NNI): NNI, which involves 10 
federal agencies continues to be a high priority for the 
Administration. The budget requests $849 million for NNI in FY04, an 
increase of $75 million, or 9.7 percent, over the FY03 request.

Networking and Information Technology R&D Initiative (NITRD): NITRD 
also remains a high priority for the Administration. The budget 
requests $2.2 billion for NITRD in FY04, a six percent increase over 
the FY03 request.

U.S. Global Change Research Program (USGCRP): climate change research 
is level funded in the President's request at $1.75 billion. A 
significant effort is underway, led by the National Oceanic and 
Atmospheric Administration (NOAA), to rationalize and reprioritize 
research in this area. While USGCRP is flat funded for FY04, the 
Committee expects that some reallocation will occur within this 
program.

Homeland Security: the budget requests an estimated $3.2 billion across 
all agencies for homeland security R&D in FY 2004, including $1 billion 
for R&D in the new Department of Homeland Security (DHS). Focused 
primarily on development, the DHS R&D request represents an estimated 
32 percent increase over the FY03 R&D activities transferred into the 
department.

The National Earthquake Hazards Reduction Program (NEHRP): NEHRP is a 
multi-agency program funded by the Federal Emergency Management Agency 
(FEMA), NSF, the U.S. Geological Survey (USGS), and the National 
Institute of Standards and Technology (NIST). The President's overall 
FY04 request for NEHRP is not clearly discernible in the budget 
submission, but $45, $46, and $2.5 million is requested, respectively, 
for NSF, USGS, and NIST. These amounts are roughly flat compared to the 
FY02 enacted level.
    Budget charts for NNI, NITRD, and USGCRP are given in section 5 at 
the end of this charter.

B. National Science Foundation (NSF)

    The National Science Foundation is the primary source of federal 
funding for non-medical basic research conducted at colleges and 
universities and serves as a catalyst for mathematics, science, 
engineering and technology education reform at all levels. The 
Foundation continues to receive high marks under the President's 
Management Reform Agenda. This year the Foundation received the only 
two ``green lights'' from the Office of Management and Budget (OMB)--
one for financial management and the other for e-government.
    NSF's FY04 budget request is $5.48 billion, an increase of 9.0 
percent, or $453 million over the FY03 request. After adjusting for 
last year's unsuccessful proposal to transfer several programs from 
other agencies into NSF, the agency's proposed increase is actually 
10.6 percent.\1\ This is, however, just one percent and four percent 
above the levels provided in the currently pending House and Senate FY 
'03 appropriations bills, respectively.
---------------------------------------------------------------------------
    \1\ The President's FY03 NSF budget request included $76 million in 
programs proposed to be transferred from other agencies. None of these 
transfers were approved by the Congress and the Administration has not 
included them within the FY04 budget request.
---------------------------------------------------------------------------
Issues/Questions Raised by the FY04 Request for NSF

Budget Baseline: P.L. 107-368, the National Science Foundation 
Authorization of 2002 authorized the doubling of NSF over five years. 
In keeping with this legislation, the President has proposed 
significant increases for NSF over the FY03 budget request. Will the 
Administration support a significant increase for the Foundation above 
the final FY03 appropriated amount when that becomes the baseline?

Major Research Equipment and Facilities: the FY04 budget document 
provides detailed information regarding the projected life cycle costs 
of major research user facilities and for the first time provides a 
priority list for new starts. The budget does not, however, describe 
the criteria used to establish these priorities as required by P.L. 
107-368.

Cyber security: cyber security research increases by 133 percent from 
$15 million to $35 million. This amount, however, is significantly 
lower than the $105 million authorized by Congress for FY04 in P.L. 
107-305, the Cyber Security Research and Development Act.

Education and Human Resources: funding for NSF's education programs 
increases by 3.3 percent over the FY03 budget request. The Math and 
Science Partnership program is funded at $200 million. The Noyce 
Scholarship Program and the Tech Talent programs are funded at $4 
million and $7 million, respectively.

Homeland Defense: the NSF budget includes programs on addressing 
security needs for information technology systems ($35 million), on 
understanding the ecology and spread of infectious diseases ($10 
million), on sequencing the genomes of microorganisms ($15 million), 
including potentially harmful microbes (such as anthrax), on 
information security and assurance workforce development ($16 million), 
on data mining, and on sensors and sensor networks.

Program Assessment Rating Tool (PART): for the FY04 budget request, the 
Administration has expanded its effort to better link agency 
performance with budget decision-making through use of the Program 
Assessment Rating Tool (PART). Two NSF programs were selected for PART 
evaluations in this budget: the Geosciences Directorate, and the 
``Tools'' aspect of the NSF budget.
    The Geosciences Directorate received a rating of ``Moderately 
Effective.'' The assessment indicated that, while the purpose of the 
program is very clear, NSF's goals are too broad to be useful in 
monitoring the effectiveness of the directorate. The assessment also 
noted that it is particularly difficult to establish annual performance 
measures for basic research and that, since primary budget decisions 
are not made at the directorate level, the administration will likely 
not use directorates as a category for future PART assessments.
    The NSF Tools component of the budget--the portion of the NSF 
budget that funds research equipment and infrastructure--received a 
rating of ``Effective.'' The assessment found that the program uses an 
efficient peer review award process and regularly conducts independent 
program evaluations to support further program improvements. The 
assessment did note, however, that NSF's priority setting process for 
large facilities is not readily transparent, and that the budget will 
provide a rank ordering of all large facility construction projects as 
well as information on how the projects were selected, approved, and 
prioritized.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

C. Department of Homeland Security (DHS)

    The budget requests $1 billion\2\ for R&D in DHS, a 32 percent 
increase over the FY03 request, and significantly greater than the $266 
million appropriated for these activities in FY02. The primary focus of 
the DHS effort will be on development ($663 million, or 66 percent), 
while the amount requested for basic research, $47 million, is 
unchanged from the FY03 request.
---------------------------------------------------------------------------
    \2\ The $1001 million for DHS R&D includes some (less than $100 
million) non-counterterrorism R&D from existing programs in agencies 
(like the Coast Guard) that are being transferred into DHS.
---------------------------------------------------------------------------
    The budget requests $803 million for the activities carried out by 
the Under Secretary for Science and Technology (S&T), an increase of 
$242 million (43 percent) over the FY03 request for these activities. 
Also, within the S&T Under Secretariat, the Homeland Security Advanced 
Research Projects Agency (HSARPA) will direct $350 million in new 
funding toward engaging the private sector and others in the 
development of innovative, high-payoff capabilities in high-priority 
operational areas, like protecting critical infrastructure and securing 
our borders. These funds would be divided among the activities 
described in the budget chart that follows, but the specific breakdown 
remains unclear.
    A base for the activities of the S&T Under Secretariat will be 
formed by a transfer of programs from the Department of Energy, 
scheduled to occur March 1, 2003. The $83 million of programs being 
transferred include R&D work on countering chemical, biological, 
nuclear, and radiological threats, nuclear smuggling detection 
activities, nuclear assessment programs, and the environmental 
measurements laboratory. Methods for coordinating the DHS S&T programs 
with programs that remain at DOE and with programs at other R&D 
agencies (especially NIH) remain to be defined.
    The budget requests an estimated $200 million for R&D in DHS 
outside of the S&T Under Secretariat. For example, $65 million is 
requested for the Transportation Security Administration for R&D 
directed toward developing better screening technology and threat 
detection methods for protection of aircraft and passengers.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

Other Agencies
    Approximately $2.3 billion is proposed for R&D programs for 
combating terrorism in departments and agencies outside of DHS. The 
bulk of this funding, $1.6 billion, is for biodefense programs at NIH. 
The remaining funds would support ongoing efforts in nuclear/
radiological materials detection, cyber security, aviation security, 
workforce development, and other areas that are spread throughout the 
government.
Issues/Questions Raised by the FY04 Request for DHS

Homeland Security Advanced Research Projects Agency (HSARPA): the 
roughly $800 million requested for science and technology at DHS 
includes $350 million for HSARPA, a homeland security technology 
development agency created by the Act that established the department 
and modeled on the Defense Advanced Research Projects Agency (DARPA). 
The budget documents do not indicate, however, how HSARPA will 
contribute to the programs listed in the budget chart above and how the 
balance will be struck between the internal and external research 
programs of the S&T Under Secretariat.

Cyber security R&D: through hearings and legislation, the Science 
Committee has identified cyber security R&D as a high-level domestic 
security concern, yet nowhere in budget request for DHS is cyber 
security R&D explicitly discussed.

D. National Institute of Standards and Technology (NIST)

NIST's Laboratory Programs
    The budget requests $388 million for NIST's laboratories in FY04. 
This request would fund a wide range of research conducted at NIST's 
laboratories in Gaithersburg, Maryland and Boulder, Colorado. The 
request represents a slight decrease relative to the FY03 request, but 
the FY03 request contained a one-time $35 million increase for 
specialized equipment. The FY04 request is approximately $30 million 
higher than the average of the pending FY03 House and Senate 
appropriations marks, and it is $58 million more than the FY02 enacted 
level. Accordingly, several of the NIST laboratories would increase in 
both staff and funding should this budget be enacted.
Construction
    The Administration has requested a significant increase to fund 
construction at NIST facilities, most of which would go toward 
reconstructing the aging facilities in Boulder, Colorado. As part of 
the Committee's oversight activities last year, Congressman Ehlers led 
a Congressional delegation to review these facilities and found that 
they were badly in need of renovation and repair.
Advanced Technology Program (ATP) and Manufacturing Extension 
        Partnership (MEP)
    Both ATP and MEP are largely extramural (outside of the 
laboratories) grant programs (ATP provides nearly $15 million for 
intramural research at NIST labs) administered by NIST. The goal of ATP 
is to provide grants in order to ``bridge the gap between the research 
laboratory and the marketplace'' through partnerships with the private 
sector. ATP seeks to develop pre-competitive, emerging, and high-risk 
technologies that promise significant commercial payoffs and widespread 
benefits for the Nation. MEP funds state and regional centers that help 
small U.S. manufacturers adopt advanced manufacturing technologies, 
techniques, and business best practices.
    The President's budget proposes to effectively eliminate the 
Advanced Technology Program (ATP) at NIST, providing $27 million to 
cover closeout costs compared with $184.5 million enacted in FY02. 
Likewise, the request ends support for all Manufacturing Extension 
Partnership (MEP) state centers with the exception of two that are less 
than six years old--the Indiana Business Modernization and Technology 
Corporation and TECHSolve, in Southwest Ohio. The $12.6 million request 
will maintain staff in Gaithersburg to serve in a consulting role for 
the state centers. The Administration's justification for this 
reduction is that when Congress created the MEP program it originally 
intended that the centers would be self-supporting. In 1994, however, 
Congress amended the original MEP statute to allow for ongoing support 
of state centers, not to exceed one-third of a center's total funding.
    While there is a long history of controversy surrounding NIST's 
technology programs, the Administration has indicated that both 
programs perform and are managed well. It justified cutting these 
programs on the basis that higher-priority programs required funding, 
and the need for these programs wasn't clear given private sector 
activity in these areas.
Issues/Questions Raised by the FY04 Request for NIST

Advanced Technology Program (ATP): the budget request effectively 
eliminates ATP, but this program supports approximately $15 million of 
research at the NIST laboratories. If Congress accedes to the 
President's request, how will the laboratory research funds from ATP be 
replaced?

Manufacturing Extension Partnership (MEP): MEP received a ``moderately 
effective'' rating in the Program Assessment Rating Tool (PART) 
process, yet the budget request eliminates funding for all but two 
state MEP centers. How was the PART rating used in determining the 
request level for MEP?

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

E. National Oceanic and Atmospheric Administration (NOAA)

    The FY04 budget requests $3.3 billion for NOAA, an increase of $190 
million (6 percent) over the FY03 request. The majority of this 
increase is allocated to restored funding for the Sea Grant program 
within NOAA (the FY03 request transferred the program to the National 
Science Foundation), climate change activities, and for the next 
generation polar satellite program (NPOESS).
Climate Change
    NOAA's FY 04 budget request includes a $17 million increase in 
climate change research and observations. Most of the increase is to 
support the President's Climate Change Research Initiative (CCRI), 
which focuses on priority areas such as ocean observations ($10.3 
million), aerosol research ($3 million), and computer modeling ($8.5 
million). In addition, NOAA redefined about $7 million from its current 
climate change budget to be part of the CCRI program for a total of $42 
million. NOAA's total climate change research, observations and 
services spending across its line offices is $296 million.
National Weather Service Improvements
    NOAA requests a net increase of $28 million for a total request of 
$820 million for the National Weather Service. Most of the increase is 
for construction of a new center for weather and climate prediction 
($10.4 million). There is also a $5.5 million request for an All 
Hazards Warning Network. NOAA will automate the collection and 
dissemination of civil-emergency messages over NOAA Weather Radio, 
which currently broadcast emergency weather alerts.
Satellite Data Management
    The Committee continues to be concerned with NOAA's ability to 
fully utilize and manage the data coming from its weather satellites. 
NOAA is requesting a total of $150 million for these activities, a $4 
million increase. These systems are crucial to improving weather 
forecasting models and climate research. NOAA is also requesting a $40 
million increase, for a total of $277 million, for the next generation 
polar satellite program, which is jointly funded by the Air Force. NOAA 
recently awarded a $4 billion contract for the program, which is 
expected to be operational in 2012. The Committee will continue to work 
with the General Accounting Office (GAO) to ensure the program remains 
on budget and fulfills the stated requirements.
Issues/Questions Raised by the FY04 Request for NOAA

Satellite Data Management: the budget requests a total of $150 million 
for satellite data management, a $4 million increase over the FY03 
request. Is this level of effort sufficient to assure proper handling 
and archiving of the enormous data streams that will be generated by 
new weather satellites?

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

F. Department of Energy (DOE)

    The FY04 request for civilian research--$5.4 billion--represents a 
decrease of 1.2 percent from FY02 enacted levels. The top priorities 
for energy and science programs include nuclear energy, carbon 
sequestration, and hydrogen R&D. While funding for the Office of 
Nuclear Energy is increased, the Office of Science, the Office of 
Energy Efficiency and Renewable Energy, and the Office of Fossil 
Energy\7\ are essentially flat funded from the FY03 request levels.
---------------------------------------------------------------------------
    \7\ The apparent eight percent FE increase from FY03 to FY04 
reflects reduced use of previously appropriated clean coal technology 
funds--actual spending is flat compared to FY03 request and declines 
ten percent compared to the FY02 enacted funding.
---------------------------------------------------------------------------
    The President's hydrogen initiative, announced in the State of the 
Union speech, is the highest profile of several new initiatives at DOE. 
The initiative, funded at $272 million in the FY04 request, would 
expand the focus of the FreedomCAR program from vehicle technology to 
hydrogen production, storage, and transport. Most of the $272 million 
appears to be offset by cuts in energy efficiency programs. Overall, 
the Administration's new hydrogen initiative, including FreedomCAR and 
the new fuels and infrastructure focus, is projected to require $1.7 
billion over the next five years. Of this amount, DOE estimates that 
$720 million would be new money. A major issue in the hydrogen research 
effort will be how much the R&D effort should focus on so called 
``bridge'' technologies which rely on using hydrogen from fossil fuels 
such as coal and natural gas as opposed to long-term efforts to develop 
cleaner, renewable sources of hydrogen.
    The budget requests an increase of 41 percent (to $62 million) for 
research on carbon sequestration in the utility sector, but funding for 
biological carbon sequestration ($7 million) and research on the 
potential environmental impact of utility sector carbon sequestration 
($8.5 million) are flat funded in FY04.
    Another recent presidential announcement is the decision to rejoin 
the International Thermonuclear Experimental Reactor (ITER) project, 
the international effort to develop a prototype fusion energy reactor 
at an estimated cost of $5 billion over eight years. While the exact 
nature of the U.S. participation is subject to negotiation, the FY04 
request includes $12 million for ITER, which could rise substantially 
in future years depending on the level of the U.S. overall commitment 
and the pace of the effort.
Issues/Questions Raised by the FY04 Request for DOE

Physical Science Research: the budget request for DOE's Office of 
Science, which funds more physical science research than any other 
civilian agency, is flat for the third year in a row.

Hydrogen R&D: the budget requests a significant increase for R&D on 
infrastructure for hydrogen as a fuel for transportation, but these 
increases appear to be offset by cuts in energy efficiency R&D, the 
area of research that likely has the most rapid payoff in terms of 
reducing our dependence on imported energy.

Climate Change Technology: the budget requests $40 million for the 
President's National Climate Change Technology Initiative, but there 
are few details on how these funds will be spent.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

4. Witnesses Questions

    Witnesses have been asked to:

        1. LReview the R&D budget request in the context of the 
        Administration's overall priorities in science and technology.

        2. LDescribe the mechanisms that the Administration uses to 
        determine priorities across scientific disciplines.

        3. LDescribe the mechanisms the Administration uses to 
        coordinate its scientific research and technical development 
        activities with other federal agencies.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    Chairman Boehlert. Good morning. It is a pleasure to 
welcome everyone here today for the opening of the fiscal year 
2004 budget season for research and development. I think I can 
speak for everyone when I say that I hope it doesn't last as 
long as the fiscal year 2003 season has. It hasn't been a 
pretty process, to say the least, but the critic William Dean 
Howells once said that what Americans want is a tragedy with a 
happy ending. And that seems to be a pretty good description of 
the fiscal year 2003 appropriations process when it comes to 
R&D.
    While we're just beginning to get the full picture now, we 
do know, for example, that the National Institutes of Health 
and the National Science Foundation faired quite well, 
receiving sizable increases despite tight budgetary constraint. 
Everybody applaud here.
    The 11 percent or so increase for NSF raises a fundamental 
question about how to read the Administration's fiscal year 
2004 request. Are we to focus on the fact that it includes a 
nine percent increase for NSF, a major show of support in this 
budget, or are we to focus on the proposed dollar amount, which 
with the new appropriation numbers, represents an increase 
slightly above inflation. Because the Congress has so delayed 
making its spending decisions for this year, it's virtually 
impossible to know how to interpret the Administration's 
proposal for next year. I hope we can begin to sort that out 
today. If nothing else, the appropriations delay may give the 
Administration time to reconsider some of its budget proposals. 
And I am sure that process is taking place as we meet.
    There are many positive aspects of the budget request, like 
the new laboratory money for the National Institutes of 
Standards and Technology and reasonable increases for the 
National Oceanographic and Atmospheric Administration and a 
healthy increase for the National Nanotechnology Initiative, 
something that we are enamored with. But there is much to cause 
distress as well like the virtual elimination of the Advanced 
Technology Program and the Manufacturing Extension Partnership 
and flat funding for the Department of Energy Office of 
Science.
    I may have said this last year as well, but the concern 
expressed for the physical sciences in the budget reminds me a 
little bit of the joke about the will that said to Joe, ``I 
said I would mention you in my will. Hello, Joe.'' Sympathy 
won't fund labs. There are also many areas of the budget that 
look promising, but where there is still a lot to learn. Those 
areas include Homeland Security. And I have just been advised 
yesterday by the Speaker that I will be on that Committee, 
also, where we still don't have a clear picture of what science 
and technology work will be funded in the new department or 
where it will be carried out. The President's Hydrogen 
Initiative, which appears to be an excellent focus of research 
but where many questions about its agenda and funding remain 
and climate change where, so far, well-intended Presidential 
Initiatives haven't quite lived up to their billing.
    So we have plenty of questions to pursue today. I think we 
have before us a budget that demonstrates a genuine desire on 
the part of the Administration to give research and development 
its due. I think all of us will have to work hard if those 
desires are to be fulfilled, some of them in ways that the 
Administration was not able to imagine.
    [The prepared statement of Chairman Boehlert follows:]
          Prepared Statement of Chairman Sherwood L. Boehlert
    It's a pleasure to welcome everyone here today for the opening of 
the fiscal year 2004 budget season for R&D. I think I can speak for 
everyone when I say that I hope it doesn't last as long as the fiscal 
'03 season has. It hasn't been a pretty process, to say the least.
    But the critic William Dean Howells once said that what Americans 
want is a tragedy with a happy ending. And that seems to be a pretty 
good description of the fiscal '03 appropriations process when it comes 
to R&D. While we're just beginning to get the full picture, we do know, 
for example, that the National Institutes of Health and the National 
Science Foundation (NSF) fared quite well, receiving sizable increases 
despite tight budgetary constraints.
    But the 11 percent or so increase for NSF raises a fundamental 
question about how to read the Administrations fiscal 04 request. Are 
we to focus on the fact that it includes a nine percent increase for 
NSF--a major show of support in this budget? Or are we to focus on the 
proposed dollar amount, which, with the new appropriations numbers, 
represents an increase that barely keeps up with inflation?
    Because the Congress has so delayed making its spending decisions 
for this year, it's virtually impossible to know how to interpret the 
Administration's proposal for next year. I hope we can begin to sort 
that out today.
    If nothing else, the appropriations delay may give the 
Administration time to reconsider some of its budget proposals. There 
are many positive aspects of the budget request--like new laboratory 
money for the National Institute of Standards and Technology (NIST) and 
reasonable increases for the National Oceanographic and Atmospheric 
Administration (NOAA) and a healthy increase for the National 
Nanotechnology Initiative.
    But there's much to cause distress as well--like the virtual 
elimination of the Advanced Technology Program (ATP) and the 
Manufacturing Extension Program (MEP), and flat funding for the 
Department of Energy (DOE) Office of Science. I may have said this last 
year as well, but the concern expressed for the physical sciences in 
the budget reminds me a little bit of the old joke about the will that 
said, ``To Joe, who I said I would mention in my will, `hello, Joe.' '' 
Sympathy won't fund labs.
    There are also many areas of the budget that look promising, but 
where there's still a lot to learn. Those areas include Homeland 
Security, where we still don't have a clear picture of what science and 
technology work will be funded in the new Department or where it will 
be carried out; the President's hydrogen initiative, which appears to 
be an excellent focus of research, but where many questions about its 
agenda and funding remain; and climate change, where, so far, well 
intended Presidential initiatives haven't quite lived up to their 
billing.
    So we have plenty of questions to pursue today. I think we have 
before us a budget that demonstrates a genuine desire on the part of 
the Administration to give research and development its due. I think 
all of us will have to work hard if those desires are to be fulfilled, 
some of them in ways that the Administration was not able to imagine.

    Chairman Boehlert. The Chair is pleased to call on the 
Ranking Member and distinguished gentleman from Texas, Mr. 
Hall.
    Mr. Hall. Mr. Chairman, thank you very much and thanks for 
your jokes. Back when I was a judge, they used to say, ``Give 
me a fair trial and turn me loose.'' I join you in welcoming 
this very distinguished panel. This will be the Committee's 
initial review of the President's fiscal year 2004 budget 
request for federal R&D programs, along with the associated 
policy issues raised by the budget allocations. The Chairman 
has scheduled a separate hearing later this month for the 
review of the NASA report and any revisions made necessary in 
the aftermath--understandably made necessary in the aftermath 
of the tragic loss of the Columbia.
    Because of the drawn out fiscal year 2003 appropriations 
process, we are in an unusual situation, unusual position of 
having no funding numbers for the current fiscal year with 
which to compare the request before us. Consequently, I expect 
there will be differing interpretations of the impact that this 
budget request will have on the Nation's R&D enterprise. Nor 
would I be surprised if the Administration's suggestions--the 
revisions that they have to set forth to the request once 
fiscal year 2003 appropriations are approved. So we will have 
to wait and see on that. However on balance, I think R&D fares 
fairly well in a difficult budget year.
    I suspect that most observers are not surprised to see the 
heavy focus on the request on R&D for national defense and 
homeland security. I hope Dr. Marburger can tell us more about 
how the increased funding for the new Department of Homeland 
Security is going to be spent.
    Of particular interest to me is how its research activities 
are going to be coordinated with the relevant activities of the 
other R&D agencies. I also hope to learn more about the 
Administration's evolving policies for balancing the 
requirements of openness and information that the public seems 
to always want to that dissemination and the conduct of 
scientific research with the needs for national security. It is 
something you have got to look there at both and keep both in 
the computer.
    Along with many of my colleagues, I have been concerned 
about the decline of research financing for the physical 
sciences and engineering relative to the biomedical sciences. 
While I support and did support the funding increase NIH has 
received, a lot of the scientists have pointed out that related 
fields with advances in basic understanding in such fields as 
physics, chemistry, and mathematics are very important at this 
time and in this day.
    And so I am pleased, I think, to see the increased 
attention in the budget proposal to the need for strengthening 
research in the physical sciences and engineering, although the 
message of the budget is mixed, I think, in this regard. Maybe 
this panel can help us. It is unclear to me why DOD's basic and 
applied research activities, which are a major source of 
support for research in the physical sciences and engineering, 
fared so poorly in this budget. Also, I note that phasing down 
construction of the Spallation Neutron Source has freed funding 
for proposed new research activities by the DOE Office of 
Science. Nevertheless, the total funding level for the Office 
would remain flat for the third year in a row.
    Relative to other energy R&D activities, I still remain 
concerned that funding for oil and gas development programs 
continues to be cut while domestic production continues to 
decline at an ever-increasing-rate and industry research 
programs have been largely closed out. And the Senate struck 
out on passing the Energy Bill last session, as they struck out 
on the passing of a lot of things that were in conference. If 
the Federal Government doesn't step into the breach, then I 
don't know how we can expect to minimize our dependence on 
foreign oil in the next 10 years. And that is important. That 
is the long range, but I don't know how we are going to 
tolerate it even for the next year. We depend on them for, 
what, 50 or 60 percent of our oil when we have plenty right 
here at home. We have plenty in ANWR. If we would pass the 
drilling of the depths of the ocean to take us past the 5,700 
feet that we can drill now, we could certainly do without all 
of the reliance on a bunch of OPEC hijackers that don't like 
us.
    And with that, Mr. Chairman, I thank you for calling this 
hearing, and I thank you for having these witnesses and 
appearing before the Committee today. And I look forward to our 
discussions.
    [The prepared statement of Mr. Hall follows:]
                  Prepared Statement of Ralph M. Hall
    I want to join Chairman Boehlert in welcoming our distinguished 
panel of witnesses to this morning's hearing. This will be the 
Committee's initial review of the President's fiscal year 2004 budget 
request for federal R&D programs, along with the associated policy 
issues raised by the budget allocations. The Chairman has scheduled a 
separate hearing later this month to review the NASA request and any 
revisions made necessary in the aftermath of the tragic loss of the 
shuttle Columbia.
    Because of the drawn out FY 2003 appropriations process, we are in 
the unusual position of having no funding numbers for the current 
fiscal year with which to compare the request before us. Consequently, 
I expect there will be differing interpretations of the impact this 
budget request will have on the Nation's R&D enterprise. Nor would I be 
surprised if the Administration suggests revisions to the request once 
FY 2003 appropriations are approved. However on balance, I believe R&D 
fares fairly well in a difficult budget year.
    I suspect that most observers are not surprised to see the heavy 
focus in the request on R&D for national defense and homeland security. 
I hope Dr. Marburger can tell us more about how the increased funding 
for the new Department of Homeland Security will be spent.
    Of particular interest to me is how its research activities will be 
coordinated with the relevant activities of the other R&D agencies. I 
also hope to learn more about the Administration's evolving policies 
for balancing the requirements of openness and information 
dissemination in the conduct of scientific research with the needs of 
national security.
    Along with many of my colleagues, I have been concerned about the 
decline in research funding for the physical sciences and engineering 
relative to the biomedical sciences. While I supported the funding 
increases NIH has received, many scientists have pointed out the 
connection between progress in the health-related fields with advances 
in basic understanding in such fields as physics, chemistry and 
mathematics.
    Therefore, I am pleased to see increased attention in the budget 
proposal to the need for strengthening research in the physical 
sciences and engineering, although the message of the budget is mixed 
in this regard. It is unclear to me why DOD's basic and applied 
research activities, which are a major source of support for research 
in the physical sciences and engineering, fare so poorly in this 
budget. Also, I note that phasing down construction of the Spallation 
Neutron Source has freed funding for proposed new research activities 
by the DOE Office of Science. Nevertheless, the total funding level for 
the Office would remain flat for the third year in a row.
    Relative to other energy R&D activities, I remain concerned that 
funding for oil and gas development programs continues to be cut while 
domestic production continues to decline at an ever increasing rate and 
industry research programs have been largely closed out. If the Federal 
Government doesn't step into breach, then how can we expect to minimize 
our dependence on foreign oil in the next 10 years?
    Finally, I would like to explore with our witnesses the rationale 
and justification for the plan to phase out funding for the 
Manufacturing Extension Partnership Program. This program has received 
strong support from the National Association of Manufacturers, the 
National Governors Association, and thousands of small manufacturers 
across the Nation. We should carefully weigh the arguments that would 
justify this action.
    I want to thank Chairman Boehlert for calling this hearing and all 
our witnesses for appearing before the Committee today. And I look 
forward to our discussions.

    Chairman Boehlert. Thank you very much, Mr. Hall. Our panel 
today is consisting of very distinguished Americans who are 
dedicated in their public service and are in very demanding 
jobs: Dr. John H. Marburger, Director of the Office of Science 
and Technology and Policy; Dr. Samuel W. Bodman, Deputy 
Secretary, U.S. Department of Commerce; Dr. Rita R. Colwell, 
Director of the National Science Foundation; and Mr. Robert G. 
Card, Under Secretary for Energy, Science, and Environment at 
the U.S. Department of Energy. Please enlighten us. Dr. 
Marburger, you start.
    [The prepared statement of Mr. Smith follows:]
            Prepared Statement of Representative Nick Smith
    Our Science Committee had a very productive 107th Congress, with 
the President signing eighteen Committee initiatives into law, 
including legislation I was fortunate that strengthens research and 
education efforts and dramatically increases authorization for research 
funding at the National Science Foundation. The Committee's agenda for 
the 108th Congress will be busy also, and hopefully, just as 
productive. I am looking forward to working with Chairman Boehlert and 
Ranking Member Hall to help continue the Committee's record of success.
    The new priorities of security for this country and the 
reorganization that occurred with the creation of the Department of 
Homeland Security make interpretation and analysis of the budget 
challenging. With regard to the overall budget picture, though, one 
thing is abundantly clear: we must do a better job of prioritizing our 
needs and our wants, and ultimately make some tough decisions to reign 
in spending. NSF spending for FY04 will not have the increase that we 
had in FY03. While the war on terror and the associated defense 
spending increases are necessary, we need to conduct a critical 
reevaluation of the remainder of non-defense discretionary spending. 
This means the research community must also examine ways the taxpayer 
might get more bang for their buck (if you will).
    With regard to research and development, I believe the President's 
budget provides less than appropriate support for the Federal 
Government's science agencies, even with the bleak budget outlook. NSF 
funding should not be less than the average for discretionary spending. 
The suggested nine percent increase, which is 3.2 percent after 
adjusting for the final FY03 appropriation level, is 14 percent below 
the authorized level. However, I believe the R&D budget appropriately 
focuses on the most important research issues of the day, such as 
defense, homeland security, the physical sciences, and nanotechnology.
    A significant amount of this new focus on physical sciences 
research will be directed to the National Science Foundation. As 
Chairman of the Research Subcommittee and a longtime supporter of the 
need to achieve a better balance between funding of the math and 
physical sciences and that of the biomedical sciences. As the only 
agency in government to receive a ``green light'' from OMB--two green 
lights as a matter of fact--NSF has shown itself to be a model of well-
managed government. There is, of course, always room for improvement.
    While I understand that my NSF authorizing legislation did not 
become law until very late in the Administration's budget planning 
process, I commend Director Colwell for her efforts to begin to meet 
several of the requirements of the bill in this budget, including those 
provisions related to the Major Research Equipment account. I am 
interested in working with NSF to see several other Committee 
priorities come to fruition, such as the Plant Genome and Gene 
Expression Centers and the Centers for Research on learning in Math and 
Science.
    I would like to thank the witnesses for appearing before us today 
to discuss this issue, and I am looking forward to a productive 
discussion as we begin to move ahead in the budget process.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the President's FY04 Budget for Research and 
Development. Today's hearing serves as an opportunity for oversight of 
certain departmental programs. As you are aware, a number of trends 
spotted in last year's budget submission are seen again in the FY03 
budget, including reversal of the trend toward parity in defense and 
non-defense R&D, the marginal increase in the National Science 
Foundation budget, and targeting of cooperative government-industry 
programs for cuts.
    There are a number of new initiatives that build upon the current 
direction in scientific research, as well as a number of previous 
initiatives that have been introduced in a new format. However, I was 
disappointed to see that the Administration's budget increased the NSF 
budget below the 15 percent increase needed to meet the 5-year budget 
doubling called for in the NSF authorization statute enacted last year 
and cut many important Department of Energy programs.
    The Department of Energy's Fossil Energy Research and Development 
program impacts my congressional district because the coal industry is 
of great importance to the economy and livelihood of my constituents in 
Southern Illinois. As you may know, this area is rich in high-sulfur 
coal. The shifting of production to low-sulfur coal has cost many of my 
constituents high-paying jobs. Implementing the coal research program, 
which includes the clean coal technology program, is significant to my 
district, and I look forward to learning more about planned spending in 
this area.
    I was displeased to see the Advanced Technology Program and the 
Manufacturing Extension Partnership Center were both eliminated in the 
President's budget. These programs help businesses increase 
competitiveness, efficiency and productivity--exactly what our economy 
needs to get back on track.
    Finally, I am pleased to see an increase over the current 
appropriation for Renewable Energy Resources. Non-fossil energy sources 
including ethanol, solar power, and wind energy are extremely important 
initiatives and I believe we should dedicate more resources toward 
these programs.
    I welcome our panel of witnesses and look forward to their 
testimony.

STATEMENT OF DR. JOHN H. MARBURGER, III, SCIENCE ADVISOR TO THE 
  PRESIDENT; DIRECTOR, OFFICE OF SCIENCE TECHNOLOGY AND POLICY

    Dr. Marburger.* Thank you, Mr. Chairman and Members of the 
Committee. It is a pleasure to meet with you today to discuss 
the President's federal research and development budget for 
fiscal year 2004.
    I thank you for your bipartisan and enduring support of our 
country's research and engineering enterprise and look forward 
to continuing that positive relationship in the future.
    In that connection, Congressman Hall, you referred to 
issues of science and openness and security. I know we had some 
questions from you that we had hoped to answer prior to this 
hearing. These are important questions, and we certainly want 
to be responsive on that issue, and I will answer your 
questions today.
    Mr. Hall. They were due the 7th, and we really needed them 
for this hearing. And we would appreciate if you would answer 
them, and I would have appreciated it if you had answered them. 
Thank you for the explanation.
    Dr. Marburger. Understood. We have been busy. The 
President's budget focuses on winning the war on terrorism, 
securing the homeland, and strengthening the economy. The 
President's budget requests another record high level of 
funding for R&D: 123 billion or a seven percent increase over 
the 2003 request. This budget is about priorities, and it 
should be noted that six* and a half billion of the R&D 
increase is in Department of Defense development activities, 
reflecting the President's commitment to bolster our national 
defense and to win the war against terrorism.
    Within the remaining increase, priorities have been 
established, and I will go through them briefly in my oral 
statement, but much more detail can be found in my written 
testimony, which I would ask be made part of the record at this 
time.
    Chairman Boehlert. All statements, in their entirety, are 
part of the official record.
    Dr. Marburger. And I should mention, before I get into the 
details, and in the absence of a final '03 appropriation, the 
figures that I will refer to when I talk about percentage 
increases and decreases over last year, used the President's 
'03 request as a base. We don't have another base to refer to, 
and that is what those percentages will mean.
    In preparing this budget, the Administration has taken 
advice from the numerous planning and advisory bodies that 
exist to guide science priorities, including the President's 
Council of Advisors on Science and Technology and the 
Committees formed under the National Science and Technology 
Council. We also heard and responded to concerns raised in this 
very Committee room, and we thank members of this committee for 
their interest in advocacy for science and technology.
    So let me briefly highlight the various R&D agency budget 
just to get us started and the interagency initiatives within 
this committee's jurisdiction. First, the National Science 
Foundation, which Mr. Chairman, you mentioned. The '04 budget 
request would increase the overall NSF budget by $453 million, 
or about nine percent relative to the '03 request. The 
investment for physical science at NSF would increase by $100 
million, or 13 percent. In addition, in this budget proposal, 
individual awards for graduate stipends in science and 
engineering are increased from $25,000 to $30,000 annually, and 
the total number of awards is increased. I think this is an 
important initiative.
    Within the Department of Energy, there are several exciting 
new presidential research initiatives announced recently, 
including the $1.2 billion Hydrogen Fuels Initiative and the 
President's commitment for the U.S. to enter into negotiations 
to participate in building the international thermonuclear 
experimental reactor ITER. It is an exciting program.
    The DOE budget provides $5.2 billion for federal science 
and technology at DOE, a three percent increase from the '03 
request. The request for the Office of Science provides $3.3 
billion, which includes planned reductions in construction 
funding for the Spallation Neutron Source. So while the overall 
growth of the Office of Science budget is only--is 1.7 percent, 
$55 million over the '03 request, when you consider the amount 
of funding previously committed to SNS construction that is now 
being redirected toward research investments in the Office of 
Science, the real increase for research spending there would be 
$140.5 million or 4.6 percent.
    In NASA, the President's request represents a total funding 
increase of nine percent and nearly 9.2 billion dollars for 
Federal Science and Technology programs. The Federal Science 
and Technology category is a category recommended by the 
National Academy that excludes most development activities and 
gives a more accurate picture of the basic research.
    I understand the Committee has a separate hearing planned 
for NASA, so I won't go into more detail here, but we are happy 
to address questions as they come up.
    The Department of Commerce budget provides $851 million for 
Federal Science and Technology programs, including $57 million 
for NOAA's Sea Grant Program, which has been reformed to move 
increasingly toward merit-based research funding.
    In the Environmental Protection Agency, the budget provides 
$776 million in Federal Science and Technology category. While 
the '04 EPA figure appears to be decreased slightly from the 
President's request from last year, that request actually 
included a one-time expenditure for the Anthrax clean up at the 
Hart Building. And if you back out this funding, the '04 
request actually equates to about a $30 million* increase in 
EPA's science and technology budget.
    Also, responding to concerns raised by this committee and 
others about the adequacy of science at EPA, the Agency has 
approved a science advisor to improve science integration and 
coordination across the Agency.
    Within the Department of Transportation, the request 
provides $606 million for Federal Science and Technology at 
DOT, an increase of 11 percent, including $100 million for the 
Federal Aviation Administration to maintain its focus on safety 
and environmental research.
    Department of Homeland Security, because it is a new 
department with significant federal R&D responsibility, it is 
important to mention that this department will house a science 
and technology directorate that will support the conduct of R&D 
for developing countermeasures to chemical, biological, 
radiological, and nuclear weapons and other terrorist threats. 
The President's request for direct activities within this 
directorate is $803 million. There is obviously a substantial 
amount of coordination with research in other agencies that is 
going to be required there.
    There are important interagency initiatives: Combating 
Terrorism. The President has proposed $3.2 billion in R&D 
funding for homeland security across agencies. Over $900 
million is requested in '04 for combating terrorism research 
and development in the new department, including the $803 
million that I mentioned before. Networking and Information 
Technology, we provide $2.2 billion in this request for that 
initiative, a six percent increase over last year's budget. The 
largest increase is proposed for the Department of Health and 
Human Services, recognition of the importance of 
bioinformatics, which would increase by $67 million or 18 
percent in that--in HHS.
    The National Nanotechnology Initiative provides for $792 
million* for that initiative, a 6.7 percent increase over '03 
request levels. The DOE's Office of Science almost triples its 
investment in new nanoscale science research centers. That is 
using the money available from the SNS [Spallation Neutron 
Source] construction roll-off, including construction on three* 
new nanoscience research centers, bringing the total number of 
funded centers to five.
    Climate change: last year, to advance climate change 
science objectives, President Bush created the Climate Change 
Research Initiative, which we have heard a lot about. This 
program involves 12 federal agencies. While the combined 
funding for that program, for the research program, remains 
level with 2003, the funds identified for the CCRI Initiative 
are increased to $182 million as compared with 40 million in 
the previous request.
    Math and science education: the improvement of pre-K 
through 12 math and science education remains a major 
Administration priority that is reflected in the budgets of the 
National Science Foundation, the Department of Education, and 
the National Institute of Child Health and Human Development. 
Special emphasis is placed on the successful development and 
implementation of evidence-based educational programs and 
practices as called for in the No Child Left Behind Act of 
2002.
    Mr. Chairman, this is a good budget for science. I think 
that there is an unambiguous message here that this 
Administration supports basic research and physical science 
research, and I urge the Committee to support it. I look 
forward to answering your questions.
    * Dr. Marburger's oral statement contained some references 
to numbers that should have been corrected to be consistent 
with the more accurate numbers in his written testimony. See 
Dr. Marburger's written statement for correct figures.
    [The prepared statement of Dr. Marburger follows:]
              Prepared Statement of John H. Marburger, III
    Mr. Chairman and Members of the Committee, it's a pleasure to meet 
with you today to discuss the President's federal research and 
development budget for fiscal year 2004.
    As I testified last year, I am committed to maintaining a close and 
productive relationship with this committee. I applaud your bipartisan 
and enduring support of our country's research and engineering 
enterprise, and look forward to continuing our relationship as we make 
important choices together to optimize the federal R&D investment.
    The President's budget focuses on winning the war on terrorism, 
securing the homeland, and strengthening the economy. Considering the 
context of an uncertain economic environment and growing federal 
deficit, any increase in discretionary spending is difficult to justify 
to the American people. However, the President's budget requests 
another record high level of funding for R&D: $123 billion or a seven 
percent increase over the 2003 request. Over $5.9 billion of the 
increase is in Department of Defense development activities, reflecting 
the President's commitment to bolster our national defense and homeland 
capabilities.
    This increase in R&D spending is evidence of the great importance 
the Administration places on science and technology in addressing our 
country's present and future challenges. The President's budget also 
continues to emphasize improved management and performance to maintain 
excellence and sustain our national leadership in science and 
technology.
    In my statement I will review the broad goals of the President's 
budget and a provide detail on federal research priorities that cut 
across multiple agencies and research disciplines. I should point out 
that, in the absence of a final FY 2003 budget, the figures reflected 
in terms of percentage increases for comparison purposes use the 
President's FY 2003 budget as a base.

THE PRESIDENT'S FY 2004 R&D BUDGET

    Our President has a strong commitment to research and discovery in 
the national interest. When earlier this month we endured the tragic 
loss of the space shuttle Columbia, the President was unequivocal in 
his promise that, despite setbacks, the journey of discovery would go 
on. He said:

        LThis cause of exploration and discovery is not an option we 
        choose; it is a desire written in the human heart. We are that 
        part of creation which seeks to understand all creation.

    The programs in the federal R&D budget represent some extraordinary 
new vistas of science with the potential to revolutionize our 
understanding and our capabilities. We cannot fund everything we'd 
like, but we will fund those exciting and high priority initiatives 
that keep this dream of discovery alive, and we will set the stage for 
the next generation scientists and engineers to take up new challenges 
that we cannot even imagine.
    In preparing this budget, the Administration has taken advice from 
the numerous planning and advisory bodies that exist to guide science 
priorities. For example, the budget begins to respond to 
recommendations by the President's Council of Advisors on Science and 
Technology (PCAST) and others about needs in physical science and 
engineering. The budget also reflects an extensive process of 
consultation between the federal agencies, OMB, and OSTP, to thoroughly 
understand agency programs and priorities, interagency collaborations, 
and directions for the future. The National Science and Technology 
Council (NSTC), which I will discuss later in my testimony, provided a 
valuable mechanism to facilitate this interagency coordination. This 
process resulted in guidance to agencies issued by OSTP and OMB last 
May, concerning their program planning, evaluation, and budget 
preparation, and culminating in the budget you see before you today.
    The result is a budget that includes a strong emphasis on basic 
research across the agencies. Basic research is the source of 
tomorrow's discoveries and new capabilities, and this long-term 
research will fuel further gains in economic productivity, quality of 
life, and national security. Included in the budget, and emphasized in 
my comments today, is the budget category Federal Science & Technology 
(FS&T). This category, introduced in response to a recommendation of 
the National Academy of Sciences, excludes most of the development 
activities in the federal R&D budget, including Department of Defense 
development, thereby only highlighting those activities devoted 
specifically to the creation of new knowledge and technologies.
    The budget includes an increase in emphasis on the physical 
sciences. The physical sciences not only spur understanding of the 
universe, they are the theoretical foundation for a host of new and 
promising technologies. Physical science research also offers education 
and training opportunities vital for a technologically advanced 
society.
    The budget also highlights investments in important research 
conducted by multiple federal agencies in a coordinated fashion. 
Increasingly, the cutting edge of research is not cleanly confined to a 
specific science discipline, but spans a variety of disciplines or 
applications. Well-managed interagency collaboration takes advantage of 
the vast pool of capabilities represented across the Federal Government 
while minimizing new organizational structures. The high-priority 
multi-agency R&D initiatives for FY 2004 are: combating terrorism R&D, 
network and information technology, nanotechnology, climate change 
research and technology and education research.

AGENCY BUDGET HIGHLIGHTS

    The Office of Science and Technology Policy (OSTP) has primary 
responsibility in the White House to coordinate interagency research 
initiatives, so I will concentrate my testimony on those initiatives 
and give only brief highlights of the budgets of several agencies 
within this committee's jurisdiction.
National Science Foundation (NSF):
    The proposal would increase the overall NSF budget by $453 million, 
or about nine percent relative to the FY 2003 Presidential request.

        <bullet> LThe budget invests heavily in the physical sciences: 
        NSF physical science investments would increase by $100 
        million, or 13 percent. Fundamental discoveries in the physical 
        sciences are needed to spur progress in other areas, such as 
        health research, energy, agriculture and the environment.

        <bullet> LThe 2004 budget continues a multi-year effort to 
        improve attraction and retention of U.S. students into science 
        and engineering careers by increasing annual graduate student 
        fellowship and training stipends from $25,000 to $30,000 and 
        increasing the number of awards. Reducing the financial burden 
        graduate students face can have a significant impact on their 
        choice of science or engineering as a career.

        <bullet> LThe Major Research Equipment and Facility 
        Construction program will receive a 60 percent increase to a 
        total of $202 million in 2004. Simultaneously, NSF is taking a 
        close look at their investments and priorities in research 
        infrastructure, and has, for the first time, provided the 
        Congress with a rank ordering of its approved large facility 
        construction projects and a discussion of how these projects 
        were selected, approved and prioritized.
Department of Energy (DOE):
    The budget provides $5.2 billion for federal science and technology 
at the DOE, a three percent increase from the 2003 request. The FY 2004 
budget for DOE reflects the phasing down of construction funding for 
the Spallation Neutron Source, enabling additional funding to be 
redirected toward research.

        <bullet> LThe recently announced $1.2 billion Hydrogen Fuel 
        Initiative includes $720 million in new funding proposed over 
        the next five years to develop the technologies and 
        infrastructure needed to produce, store and distribute hydrogen 
        fuel for use in fuel cell vehicles and electricity generation.

        <bullet> LThe budget includes $12 million to support the 
        President's recently announced commitment for the U.S. to enter 
        into negotiations with international parties to participate in 
        building ITER, the next milestone on the path towards 
        developing fusion as a commercially viable energy source.

        <bullet> LThe budget proposes $3.3 billion for DOE's science 
        programs, an increase of $55 million over 2003. This includes 
        increased emphasis on support for physical sciences research, 
        including nearly tripling the investment in new centers for 
        nanoscale science research.
National Aeronautics and Space Administration (NASA):
    The President's request for NASA represents a total funding 
increase of nine percent for R&D and nearly $9.2 billion for FS&T 
programs, a five percent increase.

        <bullet> LThe President's commitment to space exploration is 
        evident in this budget, which was conceived before the tragic 
        loss of the Columbia astronauts. Total funding for NASA is 
        proposed to increase 3.1 percent overall. The Shuttle budget, 
        after taking into account the transition to full cost 
        accounting, receives nearly a five percent increase over 2003.

        <bullet> LIncluded in the $4 billion in space science programs 
        are several initiatives to increase the scientific and 
        educational outcomes of future planetary missions, such as a 
        new $31 million investment in optical communications technology 
        and a $279 million investment in Project Prometheus, to include 
        the development of propulsion systems that will enable 
        exploration of our solar system's most distant planets.
Department of Commerce:
    The budget provides $851 million for FS&T programs, an increase of 
one percent.

        <bullet> LThe budget provides increased funding for National 
        Institute of Standards and Technology (NIST) laboratories' 
        upgrades, maintenance and repairs, and an increase of over $10 
        million for homeland security standards development related to 
        biometric identification, threat detection, and high-rise 
        safety.

        <bullet> LThe Advanced Technology Program (ATP) is terminated 
        consistent with the Administration's emphasis on shifting 
        resources to reflect changing needs. Funding is provided for 
        administrative costs and close-out. Additionally, the budget 
        maintains the 2003 policy of limiting federal funding for the 
        Manufacturing Extension Partnership (MEP).

        <bullet> LThe budget provides $57 million for NOAA's Sea Grant 
        College Program, which is working to move increasingly towards 
        merit-based funding of research.
Environmental Protection Agency (EPA):
    The budget provides $776 million in the FS&T budget for EPA, 
essentially maintaining funding at the level requested in the FY 2003 
Budget.

        <bullet> LThe EPA budget supports significant efforts to 
        continue to improve the scientific base in support of policy 
        and regulations through: improvement of the use of science by 
        the regional offices; ongoing efforts to attract and maintain a 
        high-quality, diverse scientific workforce; and assessments to 
        ensure the quality and consistency of science.

        <bullet> LResponding to concerns about the adequacy of its 
        science, EPA has appointed an agency Science Advisor to improve 
        environmental science integration and coordination at EPA.

        <bullet> LThe President's Budget provides nearly a four-fold 
        increase in funding to improve the Integrated Risk Information 
        System (IRIS), a database which contains toxicity information 
        of chemicals. IRIS is used by other federal agencies, states, 
        and international officials to help assess the potential health 
        risks of chemicals and to develop regulations.
Department of Transportation (DOT):
    The budget provides $606 million for FS&T at the DOT, an increase 
of 11 percent.

        <bullet> LThe National Highway Traffic Safety Administration is 
        provided an increase of $14 million for R&D in crash 
        worthiness, crash avoidance, and data analysis to help reduce 
        highway fatalities and injuries.

        <bullet> LThe budget provides $100 million for the Federal 
        Aviation Administration to maintain its focus on safety and 
        environmental research.
Department of Homeland Security (DHS):
    Finally, because it is a new department with significant federal 
R&D responsibility, it is important to mention that the Department of 
Homeland Security will house a science and technology directorate that 
will support the conduct of R&D for developing countermeasures to 
chemical, biological and radiological and nuclear weapons and other 
terrorist threats. The 2004 request for direct activities of the S&T 
Directorate is $803 million.

INTERAGENCY INITIATIVES

    Beyond the individual agency initiatives, the President's budget 
outlines priority areas of research involving multiple agency 
participation. Last May, OMB Director Mitch Daniels and I sent out an 
FY 2004 budget-planning memo to agencies to provide guidance and focus 
for these budget priorities. National R&D priorities set forth in the 
guidance memo include: R&D for Combating Terrorism, Networking and 
Information Technology, Nanotechnology, Climate Change, Molecular Life 
Processes and Education.
    A mechanism for coordinating interagency initiatives lies within 
the President's National Science and Technology Council (NSTC), and my 
office has responsibility for the day-to-day operations of the NSTC. 
This Cabinet-level Council is the principal means for the President to 
coordinate science, space, and technology, bringing together the 
diverse parts of the federal research and development enterprise. The 
Council prepares research and development strategies that are 
coordinated across federal agencies to form an investment package aimed 
at accomplishing multiple national goals. The following describe high 
priority interagency initiatives the NSTC helps to coordinate:

Combating Terrorism--Last month the Department of Homeland Security 
opened its doors for business. Standing up the new Department is a 
massive undertaking and one of the highest priorities of this 
Administration. The President has proposed $3.2 billion in research and 
development funding for homeland security and combating terrorism 
across the Federal Government. Over $900 million is requested for 
combating terrorism research and development in the new department, 
including $803 million in the S&T directorate. This investment will be 
focused on robust research, development, testing, evaluation and 
systems procurement to ensure both evolutionary and revolutionary 
capabilities.
    The National Science and Technology Council's Committee on Homeland 
and National Security will work with the Homeland Security Council, the 
National Security Council, the Office of Management and Budget, the 
Department of Homeland Security and other relevant departments and 
agencies to identify priorities for and facilitate planning of homeland 
and national security R&D. The coordinated federal effort will 
emphasize:

        <bullet> LStrategies to combat weapons of mass destruction, 
        including radiological and nuclear countermeasures and 
        biological agent detection, diagnostics, therapeutics, and 
        forensics;

        <bullet> LInformation analysis;

        <bullet> LSocial, behavioral, and educational aspects of 
        combating terrorism;

        <bullet> LBorder entry/exit technologies; and

        <bullet> LDeveloping standards relevant to both homeland and 
        national security.

Networking and Information Technology--The President's 2004 budget 
provides $2.2 billion for the Networking and Information Technology R&D 
Program (NITRD). This is a six percent increase over last year's 
budget. The largest increase above 2003 NITRD funding levels is 
proposed for the Department of Health and Human Services, which would 
increase by $67 million, or 18 percent. The increased life sciences 
budget reflects the growing importance of bioinformatics R&D--efforts 
at the intersection between biology and information technology--in 
furthering biomedical research. NSF maintains the largest share of 
NITRD program funding and the budget proposes a $45 million, or seven 
percent, increase.
    Agencies involved in developing or using high end computing are 
engaged in planning activities coordinated through the National Science 
and Technology Council's Committee on Technology. In 2004, NITRD 
research emphases include:

        <bullet> LNetwork ``trust'' (security, reliability, and 
        privacy);

        <bullet> LHigh-assurance software and systems;

        <bullet> LMicro- and embedded-sensor technologies;

        <bullet> LRevolutionary architectures to reduce the cost, size, 
        and power requirement of high end computing platforms; and

        <bullet> LSocial and economic impacts of information 
        technology.

National Nanotechnology Initiative--The President's 2004 budget 
provides $849 million for the multi-agency National Nanotechnology 
Initiative (NNI). This is a 9.8 percent increase over 2003 levels. The 
Office of Science at the Department of Energy almost triples its 
investment in new nanoscale science research centers, with a proposed 
increase of $63 million to begin design and construction on four new 
nano-science research centers, bringing the total number of funded 
nano-centers to five. NSF continues to have the largest share of 
federal nanotechnology funding, reflecting the broad mission of NSF in 
supporting fundamental research across disciplines, and the budget for 
NIH nanotechnology activities is increased by almost eight percent. 
Altogether, 10 federal agencies cooperate in the nanotechnology 
initiative with activities coordinated through the National Science and 
Technology Council's Committee on Technology. The NNI strategy for 2004 
involves further investment in fundamental research across the range of 
scientific and engineering disciplines through investments in 
investigator-led activities at colleges and universities, centers of 
excellence, and supporting infrastructure.
    Responding to a recent National Research Council recommendation, 
next month the President's Council of Advisors for Science and 
Technology (PCAST) will begin conducting an ongoing, external review of 
the NNI aimed at strengthening the program and helping to identify and 
measure progress toward strategic goals.

Climate Change--Last year, to advance climate change science 
objectives, President Bush created the Climate Change Research 
Initiative (CCRI). The CCRI was combined with the existing U.S. Global 
Change Research Program (USGCRP) to create the Climate Change Science 
Program (CCSP), an interagency research effort involving 12 federal 
agencies. While funding for the combined CCSP remains level with 2003, 
the funds identified for CCRI is increased to $182 million as compared 
with $40 million in FY 2003. The CCRI investment will develop resources 
to support policy-making, provide computer resources for climate 
modeling for decision support studies, and enhance observations and 
data management for a climate observing system. The increase for CCRI 
is the result of a process that has focused on managing GCRP funding 
more effectively and refocusing some research toward CCRI goals. A 
draft strategic plan for the CCSP has been produced and vetted through 
the science community using a multi-day public workshop held in 
December 2002 and in an open comment period. The response was 
overwhelmingly in support of the new management approach to the federal 
program on climate change. A final strategic plan, relying on the 
extensive analysis and commentary resulting from the workshop, will be 
produced this spring and will guide the future activities of the 
program.
    $40 million is identified for the National Climate Change 
Technology Initiative (NCCTI) Competitive Solicitation program--an 
innovative approach for funding technology research and development to 
reduce, avoid or sequester greenhouse gases. In 2004, government-wide 
spending on climate change technologies will be reviewed, and priority 
programs for emphasis in the NCCTI will be identified.

Math and Science Education--No Child Left Behind--The improvement of 
pre-K-12 math and science education remains a major Administration 
priority, with special emphasis on the successful development and 
implementation of evidence-based educational programs and practices, as 
called for in the No Child Left Behind Act of 2002. The President's 
2004 budget request includes support for two such programs involving 
the federal research agencies: the Math and Science Partnership (MSP) 
Program and the Interagency Education Research Initiative (IERI). The 
MSP request for NSF is $200 million, and for the Department of 
Education is $12.5 million. The program funds new and ongoing 
partnerships between institutions of higher education and local school 
districts. This program also will fund teacher training summer 
institutes for more intense immersion into mathematics and science 
content areas.
    The funding request for the IERI remains level with the President's 
2003 budget request. The goal of the IERI is to improve pre-K-12 
student learning and achievement in reading, math and science by 
conducting research on the scaling of educational practices that have 
already demonstrated their effectiveness in studies conducted with a 
limited number of students or classrooms. Currently the NSF, the 
Department of Education, and the National Institute of Child Health and 
Human Development (NICHD) participate in IERI.
    Additionally, the 2004 budget includes a $10 million increase in 
research, development, and dissemination funding for the Department of 
Education's new ``Institute of Education Sciences''--from $175 to $185 
million.
    Recognizing the need for better coordination of educational 
activities between the federal research agencies, the National Science 
and Technology Council's Committee on Science has formed a Subcommittee 
on Education. This subcommittee will advise on best practices and will 
develop strategies to move agency programs away from fragmentation and 
duplication of effort towards a coordinated, complimentary set of 
individual agency and interagency programs.

MANAGING THE FEDERAL RESEARCH BUDGET

    Equal in importance to the spending on the federal research budget 
is the management of this investment. In addition to providing funding 
coordination, the NSTC will also be reviewing management aspects of 
research including:

        <bullet> LAnalysis and recommendations concerning the 
        requirements for federal investment in major research 
        facilities and infrastructure, and the best management 
        practices to determine priorities and allocate funding; and

        <bullet> LAn investigation of the changing business model for 
        research, and recommendations for modernizing the management 
        and funding of federal research programs in response to this 
        changing research environment.

    The FY 2004 budget emphasizes increased return on investment by 
improvements in management, performance and results of the research 
programs. Working together and with the federal research agencies, OMB 
and OSTP are developing, implementing, and continuing to improve 
investment criteria for research programs across the government. 
Explicit R&D investment criteria have been developed to improve R&D 
program management, better inform R&D program funding decisions, and 
ultimately increase public understanding of the possible benefits and 
effectiveness of the federal investment in R&D. In 2004, all R&D 
program managers must demonstrate the extent to which their programs 
meet the following three tests:

        <bullet> LRelevance: R&D programs must be able to articulate 
        why the investment is important, relevant, and appropriate. 
        This must include complete planning with clear goals and 
        priorities, clearly articulated societal benefits, and the 
        mechanisms used for reviewing and determining the relevance of 
        proposed and existing programs.

        <bullet> LQuality: R&D programs must justify how funds will be 
        allocated to ensure quality. Agencies must maximize quality 
        through clearly stated, defensible methods for awarding a 
        significant majority of their funding. Programs must assess and 
        report on the quality of current and past R&D.

        <bullet> LPerformance: R&D programs must be able to monitor and 
        document how well the investments are performing. This includes 
        tracking and reporting annually on objectives and milestones 
        for relevant programs, and defining appropriate measures of 
        performance, output, and outcome.

    As a result of implementing these criteria, and consistent with the 
Government Performance and Results Act, the Administration strives to 
ensure that every dollar is invested as effectively as possible. Based 
on lessons learned and other feedback, the Administration will continue 
to improve the R&D investment criteria and their implementation towards 
more effective management of the federal R&D portfolio.

CONCLUSION

    Mr. Chairman and Members of the Committee, I believe this is a good 
budget for science and technology. I hope I have conveyed to you the 
extent of this Administration's commitment to advancing science and 
technology in the Nation's interest.
    I look forward to our work together as we move towards implementing 
a national science and technology strategy that will draw from the best 
in industry, academia, the non-profit sector, and all levels of 
government. The programs that we discuss today will help us protect our 
citizens and our national interests, advance knowledge, promote 
education, and preserve the dream of exploration and discovery. I would 
be pleased to respond to questions about this budget.
                  Biography for John H. Marburger, III
    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D. Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at from the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of from the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    While on leave from Stony Brook, Marburger carried out the mandates 
of the Department of Energy to improve management practice at 
Brookhaven National Laboratory. His company, Brookhaven Science 
Associates, continued to produce excellent science at the lab while 
achieving ISO14001 certification of the lab's environmental management 
system, and winning back the confidence and support of the community.
    Chairman Boehlert. Thank you very much, Dr. Marburger. Dr. 
Bodman.

   STATEMENT OF DR. SAMUEL W. BODMAN, DEPUTY SECRETARY, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Bodman. Chairman Boehlert, Ranking Member Hall, ladies 
and gentlemen of the Committee, I am very happy and privileged 
to be here today to talk to you about the Commerce Department's 
budget with specific reference to NOAA and the technology 
administration. And I do so with enthusiasm, because we believe 
that this budget recognizes the importance of innovation in our 
economy, and the importance of innovation to our security and 
to our health and to our environment. We are very pleased and 
enthused about what we have to talk to you about this morning.
    Before I get into the details of it, I felt that I would be 
remiss if I did not acknowledge at the outset the terrible loss 
that was suffered by the Federal Science community just 12 days 
ago with the loss of the Columbia Shuttle. Those astronauts 
were very courageous men and women who were devoted and 
dedicated to creating new knowledge. And I know that we all 
keep them in our minds and hearts, they and their families, as 
we go about our day-to-day lives here in Washington. My 
colleagues at NOAA and NIST work very closely at NASA, and so I 
can tell you that our broader Commerce family feels this loss 
very keenly.
    The Commerce Department's budget request totals $5.4 
billion, which is a five percent increase over the current 
year's request. Of this, the NOAA portion is $3.3 billion, or a 
six percent increase. TA's budget request is $505 million, a 12 
percent decrease, but it includes $382 million, or a 10 percent 
increase for the core programs, the research programs, if you 
will, at the National Institute of Standards and Technology.
    Just as Dr. Marburger has done, I have--and it was referred 
to by the Chairman, we have used the '03 budget request of the 
President as the baseline for these percentages.
    Given the four percent or so constraint on the growth of 
all non-military budgets, we believe that these are very fair 
and reasonable budget requests and resource levels for the 
programs for which we are responsible. Further, I should 
mention that within these overall figures, we have 
significantly redirected our spending. That is to say we have 
accomplished a redirection by emphasizing four key priorities 
that are listed at the bottom of the slide before you: one, 
fostering our nation's economic growth; two, securing our 
homeland; three, upgrading our facilities with particular 
reference to the safety of those facilities so that we can meet 
our future mission and goals; and fourthly, to implement the 
Administration's Climate Change Research Initiative. These were 
the four things that we set out when I visited with OMB with 
the budget proposals.
    In developing the request, Secretary Evans and I have taken 
the President's directive to focus on our top priorities, and 
this is necessitated that we make some very tough choices. I am 
going to run through the request, and I will point out some of 
the key elements in the some of the areas where we felt we had 
to make choices that I am sure are not going to be universally 
popular.
    First, on NOAA, we request $3.3 billion, $190 million, or 
six percent above the current year's request. These funds will 
allow NOAA to advance our understanding of marine and 
atmospheric resources, and in so doing to help sustain this 
country's economic vitality and our environmental health. Our 
request supports all of the department's key priorities. For 
example, it requests--it reflects a total of $65 million, or a 
$7.7 million increase for homeland security efforts within 
NOAA, which will include an upgrade of the NOAA weather radio 
operation to become an all-hazard warning network, in other 
words to utilize the network that now exists and make it 
applicable to a wider range of threats to our homeland.
    The request also includes funding for climate research, a 
topic of particular interest to this committee, I gauge from 
last year's meeting. And I would like to spend a few minutes on 
this particular subject.
    One of the highlights of our request is $17 million 
increase proposed for NOAA's climate research. The $296 million 
total request includes research funding under the U.S. Global 
Climate Research Program. That figure of commerce is ticketed 
at $94 million or down $6 million from last year. The new 
Climate Change Research Initiative, which was the initiative 
proposed by the President, has $41.6 million and is up $23 
million, $23.5 million on a year over year basis. Among other 
things, NOAA will use these funds to enhance our ocean 
observation systems and augment our carbon monitoring 
capabilities.
    The USGCRP, the Global Climate Change Research Program, has 
been--was established over a decade ago, and this committee, I 
know, has followed it. And it has been the foundation of the 
Federal Government's multi-agency Climate and Global Change 
Research Program. The President's new CCRI builds on the past 
efforts of the GCRP with the ultimate goal of reducing present 
uncertainties and developing the necessary modeling 
capabilities to improve public policy-making.
    As you know, our government's Climate Change Research 
Program is very large and very complex. It spans 13 federal 
agencies. Through enhanced coordination, a new interagency 
management framework has been created under the leadership of a 
Cabinet-level Committee headed by Secretary Evans and Secretary 
Abraham.
    [Slide]
    On the chart before you, that is what we call the Gray 
Committee. We have carefully thought out the random selection 
of colors by the original people who prepared this chart. So 
the Gray Committee is the Cabinet-level Committee that oversees 
all of our efforts.
    The blue box represents the interagency working group that 
is shared by Under Secretary Card and myself. This group meets 
bimonthly, and it discusses tradeoffs between science and 
technology. That is something that Dr. Marburger was very eager 
to see us do and that we were able to run this on a more 
integrated basis than had been the case before. We make policy 
recommendations to the Cabinet-level Committee.
    The agency of science and technology efforts are 
coordinated individually and monitored closely by their 
respective program offices represented here in green at the 
bottom of the chart. The Commerce Department, under the 
direction of Assistant Secretary Jim Mahoney, coordinates the 
science side and our colleagues at Energy manage the technology 
side, shown on the right side at the bottom.
    [Slide]
    This next slide gives you a feel for the complexities 
involved in this working with 13 agencies. It shows the 
breakdown of funding across various contributing agencies. Even 
this time of--in this time of difficult budget decisions, the 
President is committed to fully funding climate research. He 
knows that we must use the tools of science to reduce 
uncertainties about our climate systems and in turn improve our 
decision-making.
    As you can see, and as Dr. Marburger has pointed out, some 
funds are moving from USGCRP to the CCRI. The point here is to 
shift resources to a more focused, coordinated and integrated 
goal of the CCRI, namely to produce first science then 
observations, then lastly, some public policy making tools that 
will enable us to meet the goal of managing this problem more 
effectively in the future. We also will be continuing to fund 
the--those portions of the GCRP that will have payoffs in 
future years. Total CCRI funding would increase from $40 
million to over $180 million, as has been mentioned by Dr. 
Marburger.
    Turning now to TA and to NIST, we request $505 million for 
TA, including $8 million for the Office of Technology Policy 
and $497 million for NIST. For more than a century, NIST has 
conducted world-class measurement and standards research to 
enhance our nation's productivity and improve our quality of 
life. And they have done it very well.
    Of the NIST request, $382 million is for the laboratory 
programs. While on paper, this appears to be a decrease of some 
$2 million, it is actually an increase of $33 million for the 
core NIST research efforts, because last year's request 
included a one-time funding for the equipment for the Advanced 
Measurement Laboratory, the construction of which is being 
completed this fiscal year. Among other things, this request 
will allow NIST to apply lessons learned from the investigation 
of the World Trade Center collapse, to develop improved 
building codes, and to make building occupants and emergency 
responders safety--safer than they have been.
    As I mentioned at the start, we have had to make some tough 
choices. Consistent with the President's emphasis on high-
priority programs, this request focuses on NIST's core mission 
efforts rather than on its extramural programs. The Advanced 
Technology Program and the Manufacturing Extension Program both 
fall outside, in my view, of the core mission of this 
department. While these programs have been shown to be 
effective, and there are many supporters of them, we believe 
that the investment of our limited resources in the laboratory 
programs that we have and that we are responsible for will have 
the greatest impact on fostering innovation and economic growth 
in our country.
    I would also like to mention that we are in the process of 
developing a plan to enhance the effectiveness of the 
Department's contribution to the reinvigoration of America's 
high-tech industries. The convergence of technology and 
telecommunications is a reality in today's global economy. 
Recognizing this and in order to best coordinate the 
Department's efforts on behalf of these important industries, 
we are working on a proposal to bring the National 
Telecommunications and Information Administration, NTIA, and 
the e-commerce policy functions of our International Trade 
Administration, ITA, into the Technology Administration so that 
we would have a single--be able to speak with a single voice.
    We noted these changes will require Congressional approval 
and we look forward to working with you and your staff as we 
move forward with the development of the specifics of this 
modernization program.
    [The prepared statement of Dr. Bodman follows:]
        Prepared Statement of Deputy Secretary Samuel W. Bodman
    In his remarks at the presentation last summer of the National 
Medals of Science and National Medals of Technology, President Bush 
reaffirmed this Administration's commitment to science and technology 
by stating:

        LWe'll continue to support science and technology because 
        innovation makes America stronger. . .. Innovation helps our 
        economy grow, and helps people find work. Innovation 
        strengthens our national defense and our homeland security. . 
        ..

    Therefore, Chairman Boehlert, Ranking Member Hall, and Members of 
the Committee, it gives me great pleasure to have this opportunity to 
testify on the President's Fiscal Year (FY) 2004 Budget request for 
science and technology programs within the Department of Commerce's 
National Oceanic and Atmospheric Administration (NOAA) and Technology 
Administration (TA). I am pleased to share with you the Department's 
budget priorities for the upcoming fiscal year.
    The FY 2004 President's Budget request for NOAA is $3.326 billion 
in total discretionary budget authority. The FY 2004 President's Budget 
request for TA is $504.8 million in total discretionary budget 
authority, which includes $496.8 million for the National Institute of 
Standards and Technology (NIST). The Department's entire budget request 
of $5.4 billion supports the President's budget plan to focus resources 
on several core services, including:

        <bullet> Lfostering the Nation's economic growth;

        <bullet> Lsecuring our homeland and enhancing public safety;

        <bullet> Lupgrading the Department's facilities, 
        infrastructure, and safety; and

        <bullet> Limplementing the Administration's Climate Change 
        Research Initiative to reduce present uncertainties in climate 
        science so that we may make more knowledgeable policy 
        decisions.

    To enhance these services, resources have been shifted from various 
lower priority programs. I have spent much of the past year listening 
to leaders in technology industries describe the ways the Federal 
Government can better foster innovation in the private sector. 
Secretary Evans and I also have been consulting closely with leaders of 
other federal science and technology agencies to ensure the 
Department's resources are directed to the areas where we can have the 
biggest impact and best coordination to meet national needs. The 
Administration has made tough choices. However, the Department has an 
ambitious agenda to use our science and technology resources, and I 
will specifically highlight the priorities that involve NOAA and TA.
    But before I do that, I would be remiss if I did not acknowledge 
the terrible and tragic loss of the shuttle Columbia and its crew just 
12 days ago. The seven astronauts who perished aboard the shuttle were 
courageous and brilliant men and women dedicated to forever pushing 
back the boundaries of our scientific understanding. I should point out 
that NASA and NOAA have a long history as partners in the development 
of our environmental satellite systems. As part of our routine support 
to the NASA shuttle program and satellite launches, NOAA's National 
Environmental Satellite, Data, and Information Service (NESDIS) and 
National Weather Service (NWS) provide specialized services, including 
space-based observations and weather forecasts. In addition, NOAA's NWS 
transmitted emergency broadcasts in Texas and Louisiana via the NOAA 
Weather Radio. NOAA will continue to provide high resolution weather 
data and satellite services as needed for the Columbia shuttle 
investigation.

Fostering Economic Growth. Economic growth is a central theme for the 
FY 2004 President's Budget. The Administration firmly believes that the 
Government's job is to remove obstacles that inhibit faster economic 
growth and innovation. President Bush is fond of saying that Government 
does not create wealth, people do--so, our job is to create the right 
environment for businesses to flourish and prosper. America leads the 
world in developing and commercializing new ideas. This is critical to 
our economic security, national security and homeland security. To 
continue the Nation's leadership in science and technology in the 21st 
Century, the Administration is requesting funding for NIST to support 
economic growth by enhancing programs, such as those involving 
nanotechnology, quantum computing, and health care quality assurance. 
In addition, the Administration's FY 2004 request supports NOAA's 
efforts to promote economic growth by improving the efficiency of 
maritime shipping and through developing forecast products that can be 
used to support economic decisions.

Homeland Security. The Administration is, of course, committed to 
protecting the Nation. We have a responsibility to protect our country 
from great dangers and to provide all Americans with a safe and secure 
place to live. Our strong national science and technology base is a key 
to homeland security and a crucial advantage in the war on terrorism. 
To contribute to this goal, the Department requests funding for NIST to 
provide the measurements and standards infrastructure necessary to 
provide for homeland security. The resources will fund the development 
and dissemination of standards for safety and security of buildings, 
for biometric identification systems, and for radiation detection 
systems and radiation-based security systems. The homeland security 
budget request for NOAA supports upgrading the NOAA weather radio 
operation to an All Hazards Warning Network, as well as the improvement 
of physical security at 149 NWS facilities.

Facilities, Infrastructure, Safety, and Human Capital. As I expressed 
last year when I testified before this committee, Secretary Evans and I 
consider the safety and security of Commerce Department employees--
around the country and around the world--to be one of our most 
important responsibilities. The Department will focus on safety issues 
by instituting a new Occupational Safety and Health Program targeted 
toward preventing accidents and injuries through incident tracking and 
proactive prevention. It is essential that the Department's 37,000 
employees work in a safe environment.
    To protect critical research data from degradation, and to maintain 
employee safety and security, the Department is focusing substantial 
resources to upgrade NOAA and NIST facilities and laboratories. The 
budget proposes funding for NIST to address inefficiencies and safety 
problems at its facilities in Boulder, Colorado and Gaithersburg, 
Maryland. Valuable research continues to be lost or interrupted by 
power outages, spikes, and fluctuation. The President's FY 2004 Budget 
also seeks amounts to equip, maintain, and operate NIST's Advanced 
Measurement Laboratory (AML), and to fund time-scale dissemination 
backup elements. I would like to thank the Committee members for your 
support of the AML, a measurement and research facility like no other 
in the world, on time and on budget to be completed in December 2003.
    The Administration's budget request also supports NOAA's current 
infrastructure requirements, health, safety, and security-related 
activities. This request for NOAA will support the upgrade of NWS 
facilities, ensure that ships and aircraft are available to support 
NOAA missions, and provide for workforce planning and employee 
training.

Climate Change. The Department's budget request also provides funding 
to support President Bush's multi-agency Climate Change Research 
Initiative (CCRI). In response to President Bush's challenge to address 
the scientific uncertainties in climate change and take steps to 
address the factors that contribute to climate change, NOAA is moving 
forward with a plan to focus and accelerate climate science research. 
The CCRI will target the study of scientific uncertainty, strengthen 
climate and ecosystem observations and monitoring, and provide 
substantive scientific information for policy and management decisions. 
Addressing global climate change with decisions based on sound science 
is a priority for the Department. Moreover, NOAA is leading the charge 
to develop an international system that will provide comprehensive and 
sustained global observation and reliable operational climate 
forecasts. In short, a global observation system will allow us to take 
the pulse of the planet. The Bush Administration is firmly committed to 
addressing the many issues surrounding climate change, and I will 
highlight several programs later in my testimony that reflect our 
efforts and priorities.

NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) PROGRAMS

    NOAA plays a vital role in the everyday lives of our citizens 
through numerous contributions to the Nation's economy, homeland 
security, and environmental health. The President's FY 2004 Budget 
request for NOAA of $3.326 billion in total discretionary budget 
authority represents an increase\1\ of $190.0 million, or six percent 
over the FY 2003 President's Request. The Department of Commerce 
proposes increased spending in the following areas of interest to this 
committee: Economic Growth ($7.7 million increase; $116.0 million 
total); Homeland Security ($7.7 million increase; $65.1 million total); 
Facilities, Infrastructure, Safety, and Human Capital ($79.5 million 
increase, including adjustments to base; $248.4 million total); Climate 
Change Research, Observations, and Services ($16.9 million increase; 
$295.9 million total); Ecosystem Forecasting and Management ($76.0 
million increase; $1017.1 million total); and Environmental Monitoring 
and Prediction ($99.5 million increase; $1600.6 million total). I would 
like to highlight some of the major components of these priority 
funding areas. These programs are carried out by NOAA's National 
Weather Service (NWS), National Environmental Satellite, Data, and 
Information Service (NESDIS), and Office of Oceanic and Atmospheric 
Research (OAR).
---------------------------------------------------------------------------
    \1\ As in the Department of Commerce Budget in Brief, references in 
this testimony to FY 2004 ``increases'' refer to changes from the base. 
Base is the combination of the President's FY 2003 Budget request and 
any adjustments to base.
---------------------------------------------------------------------------
    The President's FY 2004 Budget request for NOAA provides essential 
support to programs that enhance our scientific understanding of the 
oceans and atmosphere in order to sustain America's economic vitality 
and environmental health. Funding included in the President's Budget 
request will allow NOAA to ensure that our vision for environmental 
stewardship and assessment and prediction of the Nation's resources 
becomes a reality and that NOAA will continue to excel in our science 
and services to the American people.

Fostering Economic Growth. The Administration's request for NOAA 
includes an increase of $7.7 million (for a total of $116.0 million) 
for improving the efficiency of maritime shipping and developing 
forecast products that can be used to support economic development 
decisions. This investment in enhanced forecasting capabilities has the 
potential to save energy consumers $30.0 million per day through the 
use of improved temperature forecasts for decision-making by energy 
producers, weather risk managers, and water resource managers. Ninety-
five percent of America's non-NAFTA trade moves through the marine 
transportation system. Improved oceanographic forecast modeling 
capabilities will assure safe and efficient maritime transit in U.S. 
waterways and vessel approaches into the Nation's commercial ports, as 
well as increased efficiency in addressing hazardous material spills.

Homeland Security. Ensuring public safety remains a priority of the 
Department as well as of NOAA and its National Weather Service (NWS). 
The budget request for NOAA includes an increase of $7.7 million (for a 
total of $65.1 million) to enhance homeland security. This increase 
includes new funding in the amount of $5.5 million to support a scaled 
upgrade of the current NOAA Weather Radio (NWR) operation to an All 
Hazards Warning Network. This upgrade includes systems to standardize 
and automate receipt and dissemination of non-weather emergency 
messages. The Administration is also requesting $2.2 million in new 
funding for emergency preparedness and safety to improve physical 
security at 149 NWS facilities in order to prevent unauthorized 
individuals from entering and/or tampering with NWS property.

Facilities, Infrastructure, Safety, and Human Capital. The 
Administration's budget request for NOAA supports an increase of $79.5 
million (for a total of $248.4) for current infrastructure 
requirements, health, safety, and security-related activities. It 
ensures that ships and aircraft are available to support our missions, 
and provides for workforce planning and analysis, employee training and 
retooling. Specifically, the requested funds will support the 
application of resources to upgrade and maintain NOAA facilities and to 
provide a safe, productive environment for its valued employees, and 
also to target the current backlog of facilities projects. The 
President's FY 2004 Budget requests a $3.0 million increase to 
accelerate the construction of NWS's Weather Forecast Offices. This 
facility will be located primarily in Alaska and has a planned 
completion date during FY 2008. In addition, we are requesting $10.4 
million for the construction of a new NOAA Science Center, which will 
house the existing National Center for Environmental Prediction, as 
well as other NOAA offices now located in Suitland, Maryland.

Climate Change. One of the highlights of the Department's FY 2004 
Budget is the total request of $295.9 million for NOAA's climate change 
research, observations and services. This amount includes an increase 
of $16.9 million as part of a total request of $41.6 million for NOAA's 
contribution to the President's interagency Climate Change Research 
Initiative (CCRI). The NOAA FY 2004 CCRI request supports NOAA's 
efforts to:

        <bullet> Lenhance ocean observations for climate;

        <bullet> Laugment carbon-monitoring capabilities in North 
        America as well as in key under-sampled oceanic and continental 
        regions around the globe;

        <bullet> Ladvance the understanding of all major types of 
        aerosols;

        <bullet> Lestablish a climate modeling center within NOAA's 
        Geophysical Fluid Dynamics Laboratory, which will focus on 
        research, analysis, and policy applications for the development 
        of model product generation; and

        <bullet> Lcoordinate and manage the Nation's interagency 
        climate and global change programs through the Climate Change 
        Science Program Office.

    The President's CCRI led to the creation of a new interagency 
framework in order to enhance coordination of federal agency resources 
and research activities. Under this framework, thirteen federal 
agencies are working together under the leadership of a Cabinet-level 
committee on climate change, headed by Secretary of Commerce Evans and 
Secretary of Energy Abraham, to improve the value of U.S. climate 
change research.
    The President's FY 2004 Budget request for climate change 
activities reflects the President's priorities by focusing federal 
research on the elements of the U.S. Global Change Research Program 
(USGCRP) that can best support improved public discussion and decision-
making. Under the CCRI, various agencies will adhere to specific 
performance goals, including providing products to decision-makers 
within four years. The priorities of the CCRI are:

        <bullet> Lreducing key scientific uncertainties;

        <bullet> Ldesigning and implementing a comprehensive global 
        climate and ecosystem monitoring and data management system; 
        and

        <bullet> Lproviding resources to support public evaluation of a 
        wide range of climate change scenarios and response options.

    Even in this time of difficult budget decisions, the President is 
committed to fully funding climate research so that we can continue to 
reduce the uncertainties associated with climate change.

Other NOAA Priorities. The Administration is requesting $76.0 million 
(for a total of $1,017.1 million) for the development and application 
of the necessary tools for managing marine ecosystems. Of particular 
interest to this committee is the increase of $2.0 million to study the 
effect of climate regimes on marine species. The research will improve 
the understanding and prediction of climate change in the Bering Sea 
and Gulf of Alaska and study the effects of climate change on North 
Pacific coastal and marine ecosystems. The study will also help predict 
and mitigate social and economic effects of long-term climate change on 
fisheries-dependent coastal communities.
    The Administration proposes an increase of $99.5 million (for a 
total of $1,600.6 million) for NOAA's environmental monitoring and 
prediction programs. This includes programs that are directed towards 
the collection of data to monitor the environment's climate and weather 
patterns. These resources also expand the use of data collection 
platforms (aircraft, observing systems, satellites) for improved 
weather predictions. The program increases will sustain current 
operations and expand existing services which are essential to 
maintaining forecast abilities and predicting severe weather. Following 
are elements of these total increases.

        <bullet> LThe request includes $2.0 million in new funds for 
        enhanced coastal global observations, and $3.6 million in new 
        funds for maintaining the existing observational infrastructure 
        at four stations in Micronesia to continue observations in the 
        Pacific Region.

        <bullet> LAlso requested is an increase of $3.7 million (for a 
        total of $12.0 million) for NEXRAD technology infusion to 
        accelerate the deployment of the NEXRAD Open Radar Data 
        Acquisition and Dual Polarization. Infusion and acceleration of 
        NEXRAD planned product improvement by one to two years will 
        result in increased tornado detection accuracy from 68 to 75 
        percent and improve tornado warning lead time from 11 to 15 
        minutes by FY 2007.

        <bullet> LA request of $2.9 million in new funds will provide 
        technology refreshment of the National Weather Service's 
        telecommunications gateway. An addition of $1.3 million in new 
        funds will sustain operations and maintenance of the 
        Susquehanna River Basin Flood System enhanced flood prediction 
        capabilities.

        <bullet> LA replacement Turbo Commander for conducting snow 
        surveys is requested and priced at $1.5 million. Scheduled mid-
        life aircraft maintenance and other increases in aircraft 
        upkeep requires an additional $1.6 million.

        <bullet> LNew funds in the amount of $1.3 million are requested 
        for the international atmospheric research program, The 
        Observing System Research and Predictability Experiment 
        (THORPEX).

        <bullet> LFinally, an increase of $81.7 million (for a total of 
        $668.6 million) is requested for NOAA's major space-based 
        observing platforms, the Geostationary Operational 
        Environmental Satellites (GOES) and NOAA's Polar-orbiting 
        Operational Environmental Satellites (POES) and the National 
        Polar-orbiting Operational Environmental Satellite System 
        (NPOESS).

TECHNOLOGY ADMINISTRATION (TA) PROGRAMS

    TA is the focal point within Commerce for fostering the development 
of the technological infrastructure required to support U.S. industry 
through the 21st century. TA accomplishes this by:

        <bullet> Lfostering the development, diffusion, and adoption of 
        new technologies;

        <bullet> Ldisseminating information on U.S. and foreign 
        technology strategies and best practices; and

        <bullet> Lseeking to create a business environment conducive to 
        innovation.

    In support of the President's priorities for science, technology, 
and U.S. competitiveness, TA's Office of Technology Policy (OTP) is 
working on national policies and initiatives that use technology to 
build America's economic strength. OTP promotes innovation through 
advocating policies that encourage research, development, and 
commercialization of new technologies (such as nanotechnology and 
biotechnology). OTP chairs an interagency working group on federal 
technology transfer, which seeks to improve the government's technology 
commercialization practices and publishes annually the Secretary's 
report to Congress on all federal technology transfer efforts. As part 
of its emerging technology initiative, OTP also has co-sponsored and 
organized National Nanotechnology Conferences at MIT and Northwestern 
University. In addition, OTP has completed a report on fuel cell 
research. As the President stated in his State of the Union Address, 
fuel cell research plays an important role in American competitiveness 
and innovation leadership.
    As part of the Department's contribution to national homeland 
security efforts, OTP has undertaken a ``Critical Technology Assessment 
of Biotechnology in U.S. Industry.'' This assessment will provide 
information about national bio-defense capabilities and industry 
relationships with the Department of Defense, as well as a wealth of 
other information for policy makers who are interested in supporting 
this critical technology.
    The FY 2004 President's Budget request for all of TA is $504.8 
million in total discretionary budget authority, including $8.0 million 
for the Office of the Under Secretary for Technology/OTP and $496.8 
million for NIST. This represents a decrease of $66.2 million, or 12 
percent less than the FY 2003 President's Request. The NIST request 
includes funding in the following areas of interest to this committee: 
Economic Growth ($380.4 million); Homeland Security ($38.7 million); 
and Facilities and Infrastructure ($77.7 million).

THE PROGRAMS OF TA'S NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY 
                    (NIST)

    NIST carries out a key part of TA's mission, performing world-class 
research to develop and promote measurements, standards, and technology 
in order to enhance productivity, facilitate trade, and improve the 
quality of life.
    For more than one hundred years, the Nation has relied upon NIST 
for scientific and technical expertise to promote economic growth, 
commerce and trade, and national security. The quality of NIST work is 
exemplified by the award of the world's ultimate recognition in 
science, the Nobel Prize, since 1997, to two NIST scientists--Bill 
Phillips in Gaithersburg, Maryland, and Eric Cornell in Boulder, 
Colorado. The work they are leading in super-cold matter and the 
strange nature of quantum mechanics is driving whole new areas of 
science and technology, from atomic clocks that do not gain or lose 
more than a billionth of a second in thirty years, to the potential for 
unimaginably powerful computers based on individual atoms, to new forms 
of telecommunications that provide the ultimate in information 
security.
    NIST manages the Baldrige National Quality Program, the Nation's 
premier program to recognize and promote performance excellence and 
quality achievement in businesses and organizations. In 2002, SSM 
Health Care of St. Louis became the first Baldrige winner in the health 
care category, complementing the first three winners in the education 
category announced in 2001. These award winners will be excellent 21st 
century role models for other organizations working to promote quality 
health care at lower cost as well as educational organizations that 
prepare our young people to succeed. We are hopeful that the Baldrige 
Program will motivate the same kind of quality revolution in education 
and health care that it helped to launch in U.S. industry.
    The President's FY 2004 Budget request for NIST focuses on homeland 
security, supporting economic growth, and building the laboratory 
infrastructure NIST needs to meet current and future technology 
demands. The President requests a total of $381.8 million for the NIST 
laboratory account, and $5.8 million for the Baldrige Program. In 
addition, $69.6 million is requested in the construction account for 
NIST facility upgrades. Finally, the President requests $27.0 million 
for the Advanced Technology Program and $12.6 million for the 
Manufacturing Extension Partnership program.

Fostering Economic Growth. The President's request for the NIST 
Laboratories includes an increase of $9.2 million (for a total of 
$340.8 million) to strengthen the national measurements and standards 
infrastructure that enables innovation and economic growth. The request 
will enable NIST to expand its work in the areas of nanotechnology, 
advanced information technology, and health care diagnostics--all areas 
with broad economic impact.
    NIST will expand its program in nanotechnology, the so-called 
``tiny revolution'' in technology, with a $5.2 million increase (for a 
total of $62.0 million). NIST is already a leader in this exceptionally 
promising area. Nearly all industrial sectors plan to exploit this 
emerging technology, and most of these plans call for appropriately 
scaled measurements and standards, NIST's specialty. NIST closely 
coordinates its nanotechnology work with other federal agencies through 
the President's National Nanotechnology Initiative, or NNI. NIST 
appropriately has the lead in providing the measurements and standards 
infrastructure for the NNI.
    The request also includes an increase of $3.0 million (for a total 
of $7.3 million) to build on NIST's world-class expertise in quantum 
computing and communications. This effort, with teams led by NIST's two 
Nobel laureates, is developing revolutionary means of making 
calculations much more quickly than traditional electronic computers 
will ever be able to do. NIST scientists already have made the working 
elements of quantum computers based on individual atoms. NIST also will 
expand its work in using quantum properties to provide the ultimate 
security in telecommunications that are impossible to intercept without 
tipping off the people in the conversation.
    The Administration also requests funding to allow NIST to 
strengthen its programs supporting health care diagnostics, which not 
only improve the quality of health care, but also ensure that U.S. 
manufacturers can fairly compete in the $20 billion global market for 
these products. The request includes an increase of $1.0 million (for a 
total of $17.1 million) to strengthen this effort.
    Consistent with the President's emphasis on shifting resources to 
reflect changing national needs, the President's FY 2004 Budget 
proposes terminating the Advanced Technology Program (ATP) and requests 
a total of $27.0 million for administrative and close-out costs. The FY 
2004 President's Budget also proposes maintaining the FY 2003 policy of 
significantly reducing federal funding for the Manufacturing Extension 
Partnership (MEP), for which the budget requests $12.6 million. These 
programs have been well-run and effective, but the scarce resources are 
needed for higher priority programs. The budget request focuses on 
NIST's core mission of measurements, standards, and laboratory 
research, rather than its extramural programs, by providing the 21st 
century facilities the NIST Laboratories need for success. Investment 
of limited NIST resources in the Laboratory programs and facilities 
will have the greatest impact on strengthening homeland security and 
fostering innovation that leads to economic growth.

Homeland Security. We request an increase of $10.3 million (for a total 
of $38.7 million) for NIST to address key national needs for homeland 
security measurements, standards, and technologies. This request will 
strengthen NIST's portfolio of more than 100 projects that address 
homeland security technology needs.
    Included in this request is an increase of $4.0 million (for a 
total of $10.9 million) as part of a program to use lessons learned 
from the NIST-led investigation of the World Trade Center collapse to 
make buildings, occupants, and emergency responders safer from 
terrorist attacks on buildings and other building disasters. Thanks to 
the support of this committee, NIST is on track to complete the 
building and fire study of the World Trade Center disaster by the fall 
of 2004 as planned. We are already getting useful information from the 
investigation. The requested funds will help NIST, the private sector, 
and state and local agencies to learn more and to develop and 
disseminate guidance on building practices, building codes, occupant 
behavior, and emergency response to save lives and reduce property 
loss. The Committee has recognized that NIST has the unique combination 
of technical expertise in a broad range of building and fire sciences 
and lengthy experience working with the building and emergency 
responder communities to provide the Nation with the maximum benefit 
from the WTC investigation and associated research.
    The NIST homeland security request also includes an increase of 
$5.3 million (for a total of $26.8 million) to develop the measurement 
infrastructure needed to detect nuclear and radiological (``dirty 
bomb'') threats, to improve the use of radiation such as x-rays and 
other imaging techniques to detect concealed terrorist threats, and to 
safely and effectively use radiation to destroy biowarfare agents such 
as anthrax.
    Our homeland security request also includes a total of $1 million 
to develop standards and test methods for biometric identification 
systems, used to positively identify the approximately 20 million non-
citizens who enter the U.S. each year or apply for visas. This will 
enable NIST to carry out the mandate of the USA PATRIOT Act, which 
requires NIST to develop technology standards for biometric 
identification, recognizing NIST's long history of expertise in this 
area.
    I want to emphasize that the President expects that the Nation will 
have a coordinated approach to homeland security that appropriately 
uses federal resources and fully recognizes the crucial role of the 
private sector in providing homeland security technologies. NIST has 
been working very closely with the Transition Planning Office of the 
Office of Homeland Security and agencies slated to join the new 
Department of Homeland Security to help develop the standards strategy 
for the Science and Technology mission of the new Department. 
Measurements and standards are key to enabling the development of new 
homeland security technologies by the private sector and federal 
laboratories, ensuring the technologies perform as expected, and 
enabling state and local governments and emergency response 
organizations to make informed decisions about purchasing and using 
homeland security technologies. NIST expects to play a key role in 
providing the measurements and standards infrastructure for homeland 
security. NIST has more than 100 years of experience working with the 
private sector on measurements and standards issues.

Facilities, Infrastructure, and Safety. We are requesting an increase 
of $43.3 million (for a total of $77.7 million) for facilities, 
infrastructure, and safety projects to help ensure that the NIST 
laboratories are adequate to deliver on our promises. The request 
includes an increase of $21.3 million (for a total of $33.1 million) 
for long-overdue improvements at NIST's laboratories at Boulder, 
Colorado, where most of the buildings are nearly 50 years old. 
Obsolescence already threatens the ability of the Boulder staff to 
provide services that meet the levels of accuracy required by their 
industrial customers. The list of improvements to be made is long, but 
we intend to make a serious start on improving those facilities.
    The facilities, infrastructure, and safety request also includes an 
increase of $10.6 million (for a total of $33.1 million) for 
maintenance, repair, and safety improvements at both the Boulder, 
Colorado, and Gaithersburg, Maryland campuses. Even with facilities 
improvements initiated in Boulder and completion of the AML, most NIST 
laboratory facilities are 35 to 50 years old, and the maintenance and 
safety requirements grow each year. NIST also requests a total of $3.4 
million in new funding to design the future renovations of NIST 
Gaithersburg Building 220.
    Finally, the Administration requests a total of $6.7 million for 
equipment and maintenance of the AML, to ensure that the Nation's 
investment in this unique facility can be fully used. We also request a 
total of $1.4 million to ensure that the National time scale maintained 
by NIST is secure and backed up against possible failure or attack. The 
NIST national time scale is used several hundred million times each day 
to ensure that time-keeping devices of all kinds are accurate. Federal 
regulations require that certain electronic financial transactions be 
time-stamped using NIST time, and electric power grid switching, 
navigation and communications are among the other activities highly 
dependent on this service from NIST.
    This committee has been a strong advocate of ensuring that NIST has 
the facilities and physical infrastructure needed to do the job. We 
appreciate your long-standing support, and we will continue to 
demonstrate to you that investment in NIST returns great benefits to 
the Nation.

CONCLUSION

    This completes my statement. The Department has many exciting 
technology initiatives. I look forward to working with you as these 
proposals move through the legislative process. I would be pleased to 
answer any questions you may have.
                     Biography for Samuel W. Bodman
    Samuel W. Bodman is the Deputy Secretary of the Department of 
Commerce. A financier and executive by trade, he is well suited to his 
role of managing the day-to-day operations of the cabinet agency with 
40,000 employees and a $5 billion budget. An engineer by training, he 
is well qualified for his specific oversight focus on the National 
Oceanic and Atmospheric Administration, the Patent and Trademark 
Office, and the National Institute of Standards and Technology.
    With 31 years' experience in the private sector, Deputy Secretary 
Bodman is a firm believer in the American free enterprise system. His 
work in the finance industry began when he was professor at the 
Massachusetts Institute of Technology (M.I.T.) and started consulting 
with the venture capital sector. He and his partners and associates 
provided financial and managerial support to scores of new business 
enterprises located throughout the United States. Virtually all of 
these companies had strong dependence on technology and innovation. 
Many of these achieved great financial success and established public 
markets for their securities.
    Born in 1938 in Chicago, he graduated in 1961 with a B.S. in 
chemical engineering from Cornell University. In 1965, he completed his 
ScD at Massachusetts Institute of Technology. For the next six years he 
served as an Associate Professor of Chemical Engineering at MIT and as 
Technical Director of the American Research and Development 
Corporation, a pioneer venture capital firm.
    From there, Deputy Secretary Bodman went to Fidelity Venture 
Associates, a division of the Fidelity Investments. In 1983 he was 
named President and Chief Operating Officer of Fidelity Investments and 
a Director of the Fidelity Group of Mutual Funds. In 1988, he joined 
Cabot Corporation, a Boston-based Fortune 300 company with global 
business activities in specialty chemicals and materials, where he 
served as Chairman, CEO, and a Director. Over the years, he has been a 
Director of many other publicly owned corporations.
    Deputy Secretary Bodman has also been active in public service. He 
is a former Director of M.I.T.'s School of Engineering Practice and a 
former member of the M.I.T. Commission on Education. He also served as 
a member of the Executive and Investment Committees at M.I.T., a member 
of the American Academy of Arts & Sciences, and a Trustee of the 
Isabella Stewart Gardner Museum and the New England Aquarium.
    Deputy Secretary Bodman is married to M. Diane Bodman. He has three 
children, two stepchildren, and seven grandchildren. He and his wife 
reside in Washington, D.C.

    Chairman Boehlert. Thank you very much. Dr. Colwell.

 STATEMENT OF DR. RITA R. COLWELL, DIRECTOR, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Colwell. Chairman Boehlert, members of the Committee, I 
am very pleased to be here before you today, and I ask that my 
written testimony in a summary of the NSF budget request be 
included in the record.
    Before I begin, I would like to show a very brief video. 
You, of course, Mr. Chairman, will be familiar with what is 
shown, but for the benefit of those who couldn't visit the 
Antarctic research site, it is an opportunity to see how 
effectively NSF manages its research facilities and programs.
    [Video]
    The NSF's investments are aimed at the frontiers of science 
and engineering research and education where advances in 
fundamental knowledge drive innovation and progress. The NSF 
budget proposal for fiscal year 2004 leaves no doubt that the 
President embraces our conviction that the surest way to keep 
our nation prosperous and secure in the 21st Century is to keep 
it at the forefront of learning and discovery.
    This year, the National Science Foundation is requesting 
$5.48 billion, $453 million or nine percent more than last 
year's request. And again, I point out as the other previous 
speakers have done, that we were working from the President's 
2003 budget.
    Before providing just a few highlights, let me stress that 
our priorities are determined in continuous consultation with 
the research and education community. The programs are 
initiated, enlarged, or terminated based on intellectual merit, 
broader impacts, importance to science and engineering and 
education, balance and coordination across fields, and synergy 
with other agencies and nations. NSF interacts with our sister 
research agencies both informally through our actively informed 
program officers and formally through the interagency review 
panels and agreements. Moreover, our Committee of Visitors 
process provides constant evaluation and feedback about how the 
NSF programs are performing. And they do perform well.
    NSF puts its money where it counts. Ninety-five percent of 
our budget goes directly to research and education that keep 
our knowledge base active, our economy humming, and benefits to 
society flowing. Our highest priority is maintaining the 
quality of U.S. science and engineering. The fiscal year 2004 
budget includes $200 million for the Math and Science 
Partnership Program, which is the centerpiece of the 
President's No Child Left Behind Initiative. To attract more of 
the promising students to graduate studies, NSF proposes to 
raise the annual stipends for graduate fellows to $30,000 and, 
more importantly, to increase the number of fellowships.
    We have budgeted $7 million to our Tech Talent Program, 
which represents a 250 percent increase over fiscal year 2003, 
$4 million for the Noyce Scholarship Program, and $16.2 million 
for the Cybercore Program, which represents a 45 percent 
increase over last year's requested level.
    In addition, $8.5 million will fund the development of a 
21st Century work force focus to attract U.S. students to 
science and engineering fields and to broaden participation. 
There will be an additional investment of $20 million to fund 
three new science of learning centers to investigate how people 
learn, capitalizing on recent progress in cognitive science, 
neuroscience, and information technology. We are also proposing 
a 12.7 percent increase in funding for the physical sciences, 
which I am truly delighted. It will provide over $1 billion to 
sustain the vigorous research in the math and physical sciences 
that has helped power advances in medicine, energy, 
agriculture, and understanding the environment.
    Now the budget includes funding for six priority areas. As 
the lead agency in two of the Administration's top interagency 
R&D efforts, NSF has budgeted $303 million for information 
technology research, $249 million in the National 
Nanotechnology Initiative, and an additional $100 million for 
biocomplexity in the environment to support microbial genome 
sequencing and the ecology of infectious diseases, which are 
areas of vital importance to anti-terrorism efforts.
    An $89 million investment will be made in mathematical 
sciences to improve our ability to handle the massive data sets 
produced by today's sensors and observation systems and to 
model and manage uncertainty. Building on previous investments 
in the social, behavioral, and economic sciences, we are 
requesting $24 million to launch a human and social dynamics 
priority area that will investigate the impacts of change on 
our lives and the stability of our institutions, including the 
effects of globalization and the way people take risks and make 
decisions.
    The largest dollar increase in NSF's fiscal year 2004 
budget is in tools. The total of $1.3 billion includes an 
additional $219 million to meet the growing needs for small and 
midsized projects as well as major facilities. The budget also 
provides a prioritized list of all the major research equipment 
and facilities construction projects that have been approved by 
the National Science Board.
    Therefore, I ask for your support for our fiscal year 2004 
budget request. And I really would like you to know how much 
the Foundation appreciates the Committee's long-standing, 
bipartisan support. Mr. Chairman, I will be very happy to 
answer any questions that you may have. Thank you.
    [The prepared statement of Dr. Colwell follows:]
                 Prepared Statement of Rita R. Colwell
    Chairman Boehlert, Members of the Committee, I am pleased to appear 
before you today. For more than fifty years, the National Science 
Foundation (NSF) has been a strong steward of America's science and 
engineering enterprise. Although NSF represents less than four percent 
of the total federal budget for research and development, it accounts 
for one-fifth of all federal support for basic research and 40 percent 
of support for research at academic institutions, excluding the life 
sciences. Despite its small size, NSF has an extraordinary impact on 
scientific and engineering knowledge and capacity.
    During NSF's five decades of leadership, groundbreaking advances in 
knowledge have reshaped society and enabled the United States to become 
the most productive nation in history. The returns on NSF's strategic 
investments in science, engineering, and mathematics research and 
education have been enormous. Much of the sustained economic prosperity 
America has enjoyed over the past decade is the result of technological 
innovation--innovation made possible, in large part, by NSF support.
    In our 21st century world, knowledge is the currency of everyday 
life, and at the National Science Foundation we are in the knowledge 
business. Our investments are aimed at the frontiers of science and 
engineering research and education, where advances in fundamental 
knowledge drive innovation and progress.
    Today, our nation faces significant challenges--in security, 
health, the economy, and the workforce. The surest way to keep our 
nation prosperous and secure is to keep it at the forefront of learning 
and discovery. The NSF budget proposal for FY 2004 aims to do just 
that, and I am very pleased to present it to you today.
    I'll begin with the big picture. This year the National Science 
Foundation is requesting $5.48 billion dollars. That's an additional 
$453 million, or nine percent more than last year's request.
    This budget leaves no doubt that the President embraces NSF's 
vision and value. NSF-funded research and education will help us meet 
the economic and national security challenges facing us at home and 
abroad, now and in the future.
    NSF has been growing--surely and steadily. Our investments this 
year put us on the right path, and with the leadership and vision of 
this committee, the NSF Authorization Act, signed by the President in 
December, will keep us moving in the right direction in the years to 
come.
    To promote the progress of science, NSF invests in three strategic 
areas.

    People: Facilitating the creation of a diverse, internationally 
competitive, and globally engaged workforce of scientists and engineers 
and well-prepared citizens is NSF's first priority. To achieve this 
goal, NSF supports improvement efforts in formal and informal science, 
mathematics, engineering, and technology education. Across its science, 
mathematics, engineering, and technology research and education 
programs, NSF works to enhance the diversity of our science and 
engineering workforce. The Foundation provides support for almost 
200,000 people, including students, teachers, researchers, post-
doctorates, and trainees.

    Ideas: Investments in ideas support cutting edge research and 
education that yield new and important discoveries and promote the 
development of new knowledge and techniques within and across 
traditional boundaries. These investments help maintain America's 
academic institutions at the forefront of science and engineering. The 
results of NSF-funded projects provide a rich foundation for broad and 
useful applications of knowledge and development of new technologies. 
Support for ideas also promotes the education and training of the next 
generation of scientists and engineers.

    Tools: NSF investments provide state-of-the-art tools for research 
and education, including instrumentation and equipment, multi-user 
facilities, digital libraries, research resources, accelerators, 
telescopes, research vessels and aircraft, and earthquake simulators. 
These tools also include large surveys and databases as well as 
computation and computing infrastructure for all fields of science, 
engineering, and education. Support for these unique national 
facilities is essential to advancing U.S. research and education.
    Of course, People, Ideas and Tools work together to give us the 
best returns in discovery, learning and innovation.
    Before providing a few highlights of the budget, let me stress that 
the priority-setting process at NSF results from continual consultation 
with the research community. New programs are added or enhanced only 
after seeking the combined expertise and experience of the science and 
engineering community, the Director and Deputy, and the National 
Science Board.
    Programs are initiated or enlarged based on considerations of their 
intellectual merit, broader impacts of the research, the importance to 
science and engineering, balance across fields and disciplines, and 
synergy with research in other agencies and nations. NSF coordinates 
its research with our sister research agencies both informally--by 
program officers being actively informed of other agencies' programs--
and formally, through interagency agreements that spell out the various 
agency roles in research activities. Moreover, through our Committee of 
Visitors process there is continuous evaluation and feedback of 
information about how NSF programs are performing.
    Producing the finest scientists and engineers in the world and 
encouraging new ideas to strengthen U.S. leadership across the 
frontiers of discovery are NSF's principal goals. NSF puts its money 
where it counts--95 percent of our budget goes directly to the research 
and education that keep our knowledge base fresh, our economy humming 
and the benefits to society flowing.
    Each year, NSF funds about 33,000 proposals at the leading edge of 
research. And we support more than 200,000 students, teachers, and 
researchers.
    Investing in People is key to developing the Nation's full talent 
and maintaining the quality of our workforce. There is no better place 
to begin than with our children. We must ensure that every child can 
participate in the Nation's prosperity and contribute to its progress.
    The budget includes $200 million for the Math and Science 
Partnership program, a key component of the President's No Child Left 
Behind initiative. This is the third installment of a $1 billion, five-
year investment to raise the performance of all U.S. students in 
mathematics and science. The program links local schools with colleges 
and universities to improve teacher performance and provide a 
challenging curriculum for every student. And it creates innovative 
ways to reach out to underserved students and schools.
    Our nation's science and engineering workforce is the most 
productive in the world. To keep it that way, we have to attract more 
of the most promising students to graduate-level studies in science and 
engineering.
    We have been steadily increasing stipend levels from a low of 
$15,000 in 1999, and it's working. Applications for graduate 
fellowships increased by 19 percent between 2001 and 2002. This year, 
we are requesting an increase to $30,000. And, we will also increase 
the number of fellowships.
    Opportunities to advance knowledge have never been greater than 
they are today. NSF invests in emerging areas of research that hold 
exceptional potential to strengthen U.S. world leadership in areas of 
global economic and social importance. This year, we are requesting 
funding for six of these priority areas: biocomplexity, information 
technology, nanoscale science and engineering, mathematical sciences, 
human and social dynamics, and the 21st century workforce.
    The budget includes a $100 million dollar request for research in 
Biocomplexity in the Environment. This investment will continue support 
for microbial genome sequencing and the ecology of infectious diseases, 
two areas that are of vital importance to the Nation's anti-terrorism 
efforts. Research that charts the interactions among physical, human, 
and other living systems, will improve our ability to understand and 
manage our environment. The development of new technologies and tools 
rounds out this investment.
    As the lead agency in two of the Administration's top interagency 
R&D efforts, NSF has provided an investment of $724 million in 
Networking and Information Technology Research and Development and $249 
million in the National Nanotechnology Initiative.
    Our priority area investment in Information Technology Research of 
$303 million will advance every field of science and add to our 
economic prospects. We propose to expand fundamental research in high-
end computation and large-scale networking. Other investments address 
the need for safe and dependable information systems for national 
security and consumer protection. To reap the educational benefits of 
the information revolution, we plan to focus on the use of cutting-edge 
IT research in the classroom.
    The emerging field of nanoscale science and engineering promises a 
revolution at least as far-reaching as the one we've witnessed in 
information, computer and communications technologies. The ability to 
manipulate and control matter at the atomic and molecular levels will 
open new possibilities in materials and manufacturing, medicine, 
environment and energy, and national security. As the lead agency in 
the National Nanotechnology Initiative, NSF is requesting $249 million 
to expand basic research on new materials, biological systems at the 
nanoscale, and quantum computing. We will address the need to build 
capacity through investments in centers, training programs, and 
equipment. Research on the social and educational impacts of 
nanotechnology can prepare us to make the best use of new applications.
    Mathematics is the lingua franca, or as I like to say, the 
Esperanto of science and engineering. It leads us to new and deeper 
insights in every discipline. We propose to invest $90 million in the 
Mathematical Sciences priority area to pursue fundamental research in 
the mathematical sciences and statistics, and programs that will bring 
cutting-edge mathematical and statistical techniques to all fields.
    This investment will improve our ability to handle the massive data 
sets produced by today's sensors and observation systems, and to model 
and manage uncertainty. We also propose to strengthen connections 
between research and education in the mathematical sciences.
    Building on previous investments in the social, behavioral, and 
economic sciences, NSF proposes to launch a Human and Social Dynamics 
priority area. An investment of $24 million will fund research and new 
techniques to deepen our understanding of the impacts of change on our 
lives and on our institutions. The request will help us build the 
large-scale databases and refined research methods needed for major 
progress in the social sciences.
    Research will improve our understanding of how people make 
decisions, take risks, and deal with uncertainty. We will also support 
studies of large-scale change, such as globalization, the evolution of 
society and its interaction with the environment, and the implications 
of culture for conflict and assimilation.
    The Nation needs both world-class scientists and engineers, and a 
workforce that has the scientific and technical skills needed to thrive 
in today's changing workplace.
    NSF is requesting $8.5 million to begin the development of a 
Workforce for the 21st Century priority area to address three critical 
national science and engineering workforce needs: preparing scientists 
and engineers capable of meeting the challenges of the 21st century; 
attracting more U.S. students to science and engineering fields; and 
broadening participation in science and engineering. We will fund 
Integrative Institutional Collaborations that bring together and 
integrate NSF educational activities that work--the Louis Stokes 
Alliances for Minority Participation (LSAMP) program, Graduate Teaching 
Fellowships in K-12 Education (GK-12), the Integrative Graduate 
Education Research Traineeships (IGERT) program, Research Experiences 
for Undergraduates (REU), and Centers of Research Excellence in Science 
and Technology (CREST) program, for example.
    We will expand research opportunities for students and faculty from 
high schools and from 2-year and 4-year colleges. Our investments will 
emphasize efforts to build stronger links between research and 
education at historically black colleges and universities and minority-
serving institutions.
    Every year it becomes more difficult to choose only a few NSF 
activities to highlight in the budget presentation. But they are all 
genuinely significant, and I want to make brief comments about each.
    Our nation is facing new and difficult challenges in homeland 
security. The NSF budget includes investments that will help us meet 
growing security needs. I've already mentioned programs in microbial 
genome sequencing and the ecology of infectious diseases. The 
Scholarships for Service program will train students in information 
security and assurance, in exchange for service in Federal Government 
agencies. Vital research in the Critical Infrastructure Protection 
program is designed to pinpoint vulnerabilities and strengthen 
protection for the Nation's power grids, transportation networks, and 
water supply systems. A diverse portfolio of security-related 
information technology research rounds out the NSF contribution. Every 
one of these investments will have a big payoff.
    This year, the NSF budget places special emphasis on investments in 
the physical sciences. We propose a 12.7 percent increase that will 
bring total funding in areas such as physics, chemistry, mathematics, 
and materials research to over $1 billion dollars. We need this 
investment to spur the fresh and vigorous research in these fields that 
has helped in the past to power advances in medicine, energy, 
agriculture, and the environment.
    As part of the President's multi-agency Climate Change Research 
Initiative, NSF will support focused research to reduce uncertainty in 
critical areas of climate change knowledge and provide timely 
information for policy decisions. We are requesting $4.5 million to 
establish three or more new centers to improve understanding of risk 
management, risk communication, and decision-making. These studies will 
complement NSF's ongoing programs in climate change science.
    We know that diversity gives strength to the fabric of our society. 
The NSF request places special emphasis on broadening participation in 
science and engineering. The Historically Black Colleges and 
Universities (HBCU) Undergraduate Program increases by 43 percent, the 
Louis Stokes Alliance for Minority Participation, which helps 
minorities toward undergraduate degrees in science and engineering, and 
the ADVANCE program, aimed at more diversity among successful 
scientists with family responsibilities, will both increase by 23 
percent, and finally, the Partnerships for Innovation program, which 
transfers knowledge from research and education into the creation of 
new wealth by strengthening local and regional economies, will double 
its budget to $10 million.
    We are requesting $105 million for the EPSCoR program to continue 
building the capacity of educational institutions so that they can 
participate more fully in NSF research activities.
    The Noyce Scholarships address the shortage of highly trained K-12 
teachers by providing scholarships to talented mathematics, science, 
and engineering students who wish to pursue teaching careers in 
elementary or secondary schools.
    This year, our budget provides $75 million to support ongoing 
research on the genomics of plants of major economic importance. This 
includes a program of Young Investigator Awards in Plant Genome 
Research.
    The Science, Technology, Engineering and Mathematics Talent 
Expansion Program, or STEP, provides grants to colleges and 
universities to establish programs to increase the number of 
undergraduate math and science majors. We are requesting $7 million for 
the program this year, an increase of $5 million, or 250 percent, over 
the request for FY 2003.
    The National Science Foundation furthers its research efforts by 
entering into partnerships with other federal agencies and regards 
these partnerships as a core strategy for enabling Foundation 
activities. As part of the Administration's multi-agency Climate Change 
Research Initiative, NSF will support research to reduce uncertainty in 
critical areas of climate change knowledge and provide timely 
information to facilitate policy decisions. The total FY 2004 
investment for CCRI increases by $10.0 million to a total of $25.0 
million.
    Finally, the budget provides $20 million to fund three or more new 
Science of Learning Centers. These centers will build on advances in 
the social sciences, computer science, engineering, and neuroscience to 
investigate how people learn, how the brain stores information, and how 
best to use information technology to promote learning. The aim is to 
bring fresh knowledge to the design of learning environments.
    The most significant dollar increase in NSF's FY'04 budget is in 
Tools, with a total investment of $1.34 billion, a $219 million 
increase over last year's request. Rapidly changing technology and 
increasing demand for state-of-the-art tools have put tremendous strain 
on the Nation's laboratories and research facilities. We need to renew 
our science and engineering infrastructure across the board, large and 
small. For the first time, in order to help Congress better understand 
our future planning needs, our budget provides a prioritization of all 
ongoing and planned major facility construction approved by the 
National Science Board.
    NSF plans to invest in major research equipment and facilities 
construction projects over the next several years. One new start, ocean 
drilling, is planned for FY'05, with two new starts, Rare Symmetry 
Violating Processes (RSVP) and Ocean Observatories, for FY'06.
    I want to emphasize that the $220 million increase in Tools is 
distributed across all of NSF's programs. It includes a new $20 million 
Cyber Infrastructure investment to bring next-generation computer and 
networking capabilities to researchers and educators nationwide. Other 
investments, in mid-sized and small equipment, for example, also 
receive a healthy portion of the increase.
    In making these critical investments, NSF continues to put a very 
strong emphasis on effective and efficient management. We are proud of 
our track record.
    Mr. Chairman and Members of the Committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest.
    I ask not only for your support for our FY 2004 budget request, but 
also want you to know how much I appreciate the long-standing 
bipartisan support of the Committee for NSF. Mr. Chairman, I would ask 
to include a copy of NSF's budget summary as part of my testimony, and 
would be happy to answer any questions that you have.
                    Biography for Rita Rossi Colwell
    Dr. Rita R. Colwell became the 11th Director of the National 
Science Foundation on August 4, 1998. Since taking office, Dr. Colwell 
has spearheaded the agency's emphases in K-12 science and mathematics 
education, graduate science and engineering education/training and the 
increased participation of women and minorities in science and 
engineering.
    Her policy approach has enabled the agency to strengthen its core 
activities, as well as establish support for major initiatives, 
including Nanotechnology, Biocomplexity, Information Technology, 
Social, Behavioral and Economic Sciences and the 21st Century 
Workforce. In her capacity as NSF Director, she serves as Co-chair of 
the Committee on Science of the National Science and Technology 
Council.
    Before coming to NSF, Dr. Colwell was President of the University 
of Maryland Biotechnology Institute, 1991-1998, and she remains 
Professor of Microbiology and Biotechnology (on leave) at the 
University Maryland. She was also a member of the National Science 
Board (NSF's governing body) from 1984 to 1990.
    Dr. Colwell has held many advisory positions in the U.S. 
Government, non-profit science policy organizations, and private 
foundations, as well as in the international scientific research 
community. She is a nationally respected scientist and educator, and 
has authored or co-authored 16 books and more than 600 scientific 
publications. She produced the award-winning film, Invisible Seas, and 
has served on editorial boards of numerous scientific journals.
    She is the recipient of numerous awards, including the Medal of 
Distinction from Columbia University, the Gold Medal of Charles 
University, Prague, and the University of California, Los Angeles, and 
the Alumna Summa Laude Dignata from the University of Washington, 
Seattle.
    Dr. Colwell has also been awarded 26 honorary degrees from 
institutions of higher education, including her Alma Mater, Purdue 
University. Dr. Colwell is an honorary member of the microbiological 
societies of the UK, France, Israel, Bangladesh, and the U.S. and has 
held several honorary professorships, including the University of 
Queensland, Australia. A geological site in Antarctica, Colwell Massif, 
has been named in recognition of her work in the polar regions.
    Dr. Colwell has previously served as Chairman of the Board of 
Governors of the American Academy of Microbiology and also as President 
of the American Association for the Advancement of Science, the 
Washington Academy of Sciences, the American Society for Microbiology, 
the Sigma Xi National Science Honorary Society, and the International 
Union of Microbiological Societies. Dr. Colwell is a member of the 
National Academy of Sciences.
    Born in Beverly, Massachusetts, Dr. Colwell holds a B.S. in 
Bacteriology and an M.S. in Genetics, from Purdue University, and a 
Ph.D. in Oceanography from the University of Washington.

    Chairman Boehlert. Thank you, Dr. Colwell. Mr. Card.

 STATEMENT OF MR. ROBERT G. CARD, UNDER SECRETARY FOR ENERGY, 
      SCIENCE, AND ENVIRONMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Card. Thank you, Mr. Chairman, Members of the 
Committee. It is a pleasure to be here. I should have brought 
videos of our Methane Hydrates Program in the north that way we 
could have touched on both ends of the Earth today.
    I am--rather than go through a list of numbers, I am just 
going to point out what were the strategic--what was the 
strategic thinking behind DOE's budget. As you probably know, 
there are eight assistant secretary level functions in the 
Department of Energy that provide significant R&D funding, and 
so I am going to talk about the items that were--there were key 
shifts in our strategy or thinking for the fiscal year 2004 
budget.
    First, in a nutshell, DOE's energy strategies generation of 
carbon-free electricity in Hydrogen. This is supported by 
expansions of two important initiatives. The first is President 
Bush's Hydrogen Initiative including FreedomCAR announced last 
year, which is now paired with the Hydrogen Fuel Initiative 
proposed for this year. This initiative is integrated with 
Hydrogen programs--new Hydrogen programs and nuclear and fossil 
energy, a renewed commitment to fusion power, and continued 
support of other energy sources for and basic research 
supporting Hydrogen electricity production. Secondly, 
supporting this strategy is an expanded carbon sequestration 
initiative. I might add that while FreedomCAR and fuel is 
focused on transportation, implementing this technology at the 
production scale required for vehicles could support 
breakthroughs in solar power systems, distributive, generation, 
and other energy programs.
    The second area I will highlight is DOE's most significant 
internal environmental challenge, which is the management of 
spent nuclear fuel and high-level waste. To this end, we have 
integrated three programs with a continued science program to 
maximize our ability to safely, rapidly, and economically 
manage this material. These three programs include the 
Environmental Management Accelerated Cleanup Program, the 
Nuclear Energy Fuel Cycle Programs, and the Yucca Mountain 
Repository Program.
    Thirdly, we want to draw your attention to a strong basic 
science research program with growing emphasis on 
nanotechnology, computation, and genomics, which underpins both 
priority programs previously discussed and the remaining 
departmental initiatives. And lastly, to support these 
initiatives, the Department has aggressively implemented the 
President's Management Agenda with a number of activities, 
including, for example, organizational improvements in most 
each of those eight assistant secretary organizations to reduce 
layers of management and increase focus, streamlining 
requirements that don't add commensurate taxpayer value; more 
intensive project oversight; improvement of program evaluation 
criteria to guide research allocation decisions; and improved 
E-government programs. Again, we are grateful for the 
Committee's support of DOE's R&D program and look forward to 
your questions and comments.
    [The prepared statement of Mr. Card follows:]
                  Prepared Statement of Robert G. Card

Introduction

    Mr. Chairman, Members of the Committee, it is a pleasure to join 
you today to present details on the Department of Energy's FY 2004 
budget submission. The Department appreciates the support of the 
Chairman and the Members of the Committee over the past years and I 
look forward to working with you to ensure this nation stays at the 
leading edge in science and technology in the 21st Century.
    As Secretary Abraham noted recently, the Department has an ``an 
ambitious, long-term vision of a zero-emissions future free of reliance 
on imported energy.'' As we look to the carbon free generation of 
electricity and hydrogen, it is clear that there is but one path open 
to us. We must call upon science, technology, and the research talents 
in our national laboratories, universities, and industry to help us 
improve and move beyond today's energy choices.
    This year's budget demonstrates that the Department takes its 
responsibilities toward science and technology seriously because we 
take our responsibility toward national security seriously. Secretary 
Abraham has made clear that all missions at our Department flow from 
our core mission to support national security. We have, therefore, 
taken a deliberate and integrated approach to our research and 
development portfolio, using the strengths of all our programs to 
address this central mission. Clearly, environmental security and 
economic security underpin national security and each is sustained by 
science.
    What is more, there is only one way to build an integrated budget 
and that is to engage in a vigorous and disciplined planning process 
that forces programs to set priorities. I think we have done that in 
this budget submission.
    Mr. Chairman, consider how key initiatives undertaken in the FY 
2004 budget are mutually supportive of the Department's overarching 
mission and reflect the need to set priorities:

        <bullet> LThe President's Hydrogen Fuel Initiative--a major 
        effort toward zero emissions and energy independence--looks 
        toward critical research and development efforts to develop 
        fuel cell technology, and to find ways to produce and 
        distribute hydrogen.

        <bullet> LOur request for carbon sequestration, a critical 
        effort in our climate change program, is forty percent greater 
        than last year. Here too, we look to science and technology, 
        some of it extraordinarily exciting, to help us address a host 
        of concerns.

        <bullet> LThis year's request represents a major restructuring 
        of our technology programs focused on the nuclear fuel cycle. 
        With our Advanced Fuel Cycle Initiative the Secretary is 
        challenging our department's best scientists to help devise a 
        new approach to establishing a safe, sustainable, and 
        proliferation resistant future for nuclear energy. Our nuclear 
        programs are also integrated across DOE R&D portfolio, 
        including improving the repository at Yucca Mountain, and will 
        support our hydrogen fuels initiatives.

        <bullet> LWe are also committed to leapfrogging today's energy 
        choices with advanced concepts such as fusion. The President 
        has announced that we will enter negotiations on ITER, to 
        explore the next critical step in bringing electricity from 
        fusion energy to the grid. If fusion proves successful, it 
        could be the dominant new energy source for the end of this 
        century and beyond.

        <bullet> LThe Department is continuing its work as a critical 
        part of the President's initiative on nanoscience. As the 
        Chairman has noted, the Department is a major contributor in 
        the nanotechnology field, and we intend to continue our 
        leadership role by fully funding the construction of five 
        nanoscience centers. These will be unique and essential 
        facilities to help us realize the remarkable promise of 
        nanotechnology.

    These initiatives work together. For example, materials work from 
nanoscience will contribute to advanced fuel cell work, and fusion will 
one day perhaps give us the hydrogen we need to run those fuel cells.
    We are fortunate to have a strong and well recognized global 
technology leadership role. As will become clear in the testimony that 
follows, many of the technologies that contribute to energy 
independence also contribute to reducing greenhouse gas emissions. The 
President's National Climate Change Technology Initiative (NCCTI) will 
help inventory and prioritize all climate change activities within the 
$1.6 billion worth of technology R&D that is included in the scope of 
the Climate Change Technology Program (CCTP), including clean coal, 
natural gas and other carbon management activities in fossil energy 
R&D. Within the CCTP the National Climate Change Technology Initiative 
(NCCTI) Competitive Solicitation program the budget requests $40 
million to competitively award cost-share projects to research and 
develop technology that can help avoid, reduce, or sequester, 
greenhouse gases emissions.
    Let me assure the Committee that we recognize that all programs in 
the Department, not just these initiatives, must be managed to provide 
the taxpayer with the maximum benefit. We take the President's 
Management Agenda very seriously. Each of the programs at the 
Department has undergone, or is currently working on, a major 
restructuring, as well as bringing its programs in line with critical 
performance measures.
    Before addressing the specifics of our research and development 
programs for FY 2004, I would like to point out that research underpins 
almost every major program activity in the Department. Scientific 
research is the key to ensuring the reliability of our nuclear 
deterrent, and to the contributions that our national laboratories are 
making to counter-terrorism. It was also the key to the decision to 
move forward with the Yucca Mountain site as a repository for nuclear 
waste, a decision supported by 20 years and $4 billion worth of 
scientific study conducted by some of the world's preeminent scientists 
and carefully reviewed by outside bodies, including the International 
Atomic Energy Agency.
    Let me now review the program areas within my area of 
responsibility in greater detail.

The Office of Science

    Overview. The FY 2004 budget request for the Office of Science 
supports the President's goal of ensuring continued U.S. leadership in 
science, and will enable the Office of Science to continue to support 
the Departments' missions in energy, environment and national security. 
Our economy, our energy security and our national security depend upon 
scientific discovery, which is the driver for technological innovation, 
and the Office of Science is a vital part of the Nation's scientific 
base. It is the largest single funding source for basic research in the 
physical sciences, and has provided approximately 40 percent of all 
federal funds in this area over the past decade. It is also the 
steward, and by far the principal funding agency, of the Nation's 
research programs in high-energy physics, nuclear physics and fusion 
energy sciences, as well as being the Federal Government's largest 
single funder of materials and chemical sciences.
    The Office of Science also supports unique or critical pieces of 
U.S. research in scientific computation, climate change, geophysics, 
genomics, and the life sciences. This research is conducted at both the 
Department's national laboratories and at approximately 250 
universities nationwide. The Office of Science manages the construction 
and operation of some of the Nation's most advanced research and 
development facilities--a vital part of the Nation's scientific 
infrastructure used by over 18,000 researchers annually.
    The Department is aware of its obligation to manage these important 
resources well and to provide maximum benefit to the Nation. The 
Administration's FY 2004 evaluation of Office of Science found that 
they had clearly defined purposes and were generally well managed, and 
has also cited our process of ``Lehman Reviews'' of construction 
projects as a ``. . .widely recognized effective practice.'' We are 
also automating many of our routine operations and by the end of FY 
2004 100 percent of grant and contract proposals will be received 
electronically by the Office of Science, 65 percent of purchase orders 
will done electronically, and 80 percent of field work proposals will 
be processed electronically--including 100 percent of new projects. I 
would also note that the effectiveness of the management of our 
scientific programs is attested to by a history of success, the most 
recent example being the award of the 2002 Nobel Prize in Physics to 
Dr. Raymond Davis for his pioneering observations of neutrinos from the 
Sun, and the stunning discovery of neutrino mass and neutrino 
transmutations. We share this success proudly with the National Science 
Foundation, which also supported Dr. Davis's research.
    The Office of Science is now in the process of implementing a 
restructuring to improve oversight of our laboratories by removing a 
layer of line management, and instituting clear chains of 
responsibility in accordance with the principles of the President's 
Management Agenda.
    The Office of Science FY 2004 budget request is $3.311 billion, 
compared to the $3.264 billion requested in FY 2003. This provides an 
effective increase for science of 4.5 percent when the ramp-down in 
construction projects is considered, allowing us to increase support 
for high priority scientific research, continue operation of our large 
scientific user facilities, keep existing construction projects on 
schedule, and support new initiatives.
    Office of Science research programs are managed in six major areas, 
and also include a restructured and enhanced effort in science 
education:

    Fusion Energy Sciences. On January 30th, President Bush announced 
our intention to join the ITER project. The Department of Energy is the 
lead U.S. agency in this effort. ITER will allow us to explore the 
physics of a burning plasma--the essential next step in realizing the 
promise of commercially available fusion power. In 1997 the U.S. 
decided to allow the agreement covering U.S. participation in ITER to 
expire. At the time, the U.S. government had concerns about the scale 
of the ITER program and the ability of established management and 
financial structures to protect the U.S. taxpayer. In the meantime, the 
program has been rescaled and rebudgeted. A recent ``Lehman review'' of 
the management and cost estimates at ITER combined with scientific 
reviews performed by the National Research Council and DOE's Fusion 
Energy Science Advisory Committee have provided a strong basis for 
President Bush's January 30th decision to join the ITER negotiations.
    We have dedicated $12 million within the FES program budget for FY 
2004 to support research directly tied to our participation in the ITER 
project.
    The Office of Fusion Energy Sciences will also continue its other 
programs of research to advance plasma science and fusion science, 
including its partnership in basic plasma science with the National 
Science Foundation. It will continue the operation of DIII-D, Alcator 
C-Mod and the National Spherical Torus Experiment and investigate 
alternative fusion concepts that may improve the economic or 
environmental possibilities for fusion energy. The Office of Fusion 
Energy Sciences will also continue its basic research in inertial 
fusion energy in concert with the National Nuclear Security 
Administration.
    As the Committee is aware, fusion energy has many potential 
advantages over current methods of electricity generation, not the 
least of which is a possible future contribution to the hydrogen-based 
economy through the emission-free production of hydrogen.

    Advanced Scientific Computing Research. The Office of Advanced 
Scientific Computing Research provides the high performance 
computational and networking resources that are indispensable tools for 
discovery. The capabilities of terascale computing are transforming the 
conduct of science, bringing scientific simulation through 
computational modeling to parity with theory and experiment as a 
scientific tool. The Office of Advanced Scientific Computing Research 
also funds basic research in mathematical methods and computer science 
that enable scientists to more effectively use these resources. Every 
Energy Science and Environment mission area is likely to benefit from 
scientific insights generated through computational modeling on high 
end supercomputers in areas ranging from combustion processes to design 
of new materials to the movement of wastes and other contaminants 
through the environment.
    The Office of Advanced Scientific Computing Research is at the 
center of efforts to realize the full potential of scientific 
simulation to solve mission related problems. It will support the 
Scientific Discovery through Advanced Computing program, a set of 
coordinated investments that cross-cuts Office of Science research 
programs. This program is a multidisciplinary effort involving teams of 
mathematicians, computer scientists, and application area scientists 
working to develop a new set of scientific simulation codes that can 
fully exploit today's terascale computing resources.
    In FY 2004, $14 million is dedicated to a new Next Generation 
Architecture program to optimize computer architecture to meet the 
special requirements of scientific problems. This effort will include 
both evaluation of the impact of alternative architectures on 
application performance, and software research on next generation 
operating systems.
    The Office of Advanced Scientific Computing Research will continue 
to support existing research programs and facilities, such as the 
National Energy Research Scientific Computing Center at Lawrence 
Berkeley National Laboratory, now being upgraded to double its 
capability to support leading edge science.

    Basic Energy Sciences. The Office of Basic Energy Sciences is 
responsible for construction and operation of the world's premier suite 
of large scientific user facilities, and is a principal federal sponsor 
of fundamental research in the areas of materials sciences and 
engineering, chemistry, geosciences, and bioscience as it relates to 
energy. In FY 2004, the request for the Office of Basic Energy Sciences 
will increase funding for the President's initiative in nanoscience by 
$64 million to $193 million. This will allow construction to proceed on 
a Nanoscience Research Center at Oak Ridge National Laboratory, as well 
as new construction of Nanoscience Research Centers at Lawrence 
Berkeley National Laboratory and Sandia National Laboratory in 
partnership with Los Alamos National Laboratory.
    It also provides Project Engineering Design funding for an 
Nanorscience Research Center at Brookhaven National Laboratory and 
funds a Major Item of Equipment for a Nanoscience Research Center at 
Argonne National Laboratory, where the State of Illinois is funding the 
construction of the building. When complete, these centers will enable 
the nanoscale revolution by co-locating multiple research disciplines 
and a wide variety of nanoscience instrumentation, and their siting 
near existing light sources or neutron sources will allow rapid 
characterization of newly fabricated materials. This centralization of 
resources will provide ``one-stop shopping'' for scientists who now 
must often go to widely dispersed facilities to complete their 
research.
    The FY 2004 budget also provides for continued research in 
materials science and engineering, chemistry, geosciences and energy 
bioscience as well as high level operation of existing user facilities. 
It continues funding for construction of the Spallation Neutron Source, 
which, following a rebaselining and rescoping exercise in 2001, is now 
on budget and schedule for completion in June of 2006. Our request will 
also fund project engineering design work for the proposed Linac 
Coherent Light Source, a 4th generation light source to provide very 
short pulse x-ray light which is orders of magnitude higher in 
intensity than today's synchrotron radiation light sources, offering 
unprecedented opportunities to, for example, observe the dynamics of 
chemical reactions to develop a deeper understanding of chemical 
processes.

    Biological and Environmental Research. The Office of Biological and 
Environmental Research supports fundamental research in climate change, 
environmental remediation, genomics, proteomics, radiation biology, and 
medical sciences. The FY 2004 budget provides $59 million, an increase 
of $24 million for the continued growth of the Genomes to Life program, 
and $25 million, an increase of $22 million for the Climate Change 
Research Initiative. The Genomes to Life program will develop new 
knowledge about how organisms grow and function and will marry this to 
a national infrastructure in computational biology to build a 
fundamental understanding of living systems. The thrust of Genomes to 
Life is aimed directly at DOE concerns: developing new sources of 
energy; mitigating the long-term impacts of climate change through 
carbon sequestration; cleaning up the environment; and protecting 
people from adverse effects of exposure to environmental toxins and 
radiation.
    The Climate Change Research Initiative will extend research in 
climate modeling, atmospheric composition and the regional impacts of 
climate change. Under the integrative and strong leadership of the 
Department of Commerce, our office has concentrated on fundamental 
science to address critical climate issues. Work on the carbon cycle 
will investigate what fraction of carbon dioxide emissions are taken up 
by terrestrial ecosystems. Beginning in FY04, ecological research 
efforts will begin to bridge the knowledge gap between our 
understanding of molecular-level effects and the responses of entire 
ecosystems. Ultimately, this knowledge will enable us to predict 
reliably how ecosystems will react to changes in our environment.
    In FY04 the Office of Biological and Environmental Research will 
continue to explore new clean-up strategies, including bioremediation 
and treatment of radioactive wastes. The goals of the Environmental 
Management Science Program, transferred in FY 2003 from Environmental 
Management, are to develop and validate technical solutions to complex 
problems, provide innovative technical solutions where there are none, 
and lead to future risk reduction and cost and time savings. The 
Environmental Management Science Program request of approximately $29 
million in FY 2004 will continue to support these goals, but with 
increased focus on integrated, multidisciplinary research to provide 
decision-makers better information on which to base their decisions. 
The budget request for the Office of Biological and Environmental 
Research also provides continued support for the Environmental 
Molecular Sciences Laboratory, a facility that brings state-of-the-art 
experimental and computational capabilities to the environmental 
community to improve our understanding of complex molecular 
interactions in the environment and our ability to predict contaminant 
behavior.
    Finally, the Office of Biological and Environment Research will 
continue to take advantage of the insights and expertise that result 
from its work across many scientific disciplines--materials science, 
biology, physics, and computation--to provide the medical community 
with novel devices to detect, diagnose, and treat disease.

    High Energy Physics. The High Energy Physics program supports 
almost 90 percent of U.S. research in high energy physics that is 
coordinated with the research of the National Science Foundation high 
energy physics program through a jointly chartered advisory committee, 
the High Energy Physics Advisory Panel. This research has the goal of 
developing a deeper understanding of the basic nature of matter, space 
time and energy. The FY 2004 request will fund continued world 
leadership in this research. We will continue to pay very close 
attention to luminosity concerns at the Tevatron and Fermi Laboratory 
will also continue construction of the NuMI/MINOS experiment, which is 
now on schedule and within budget, following a rebaselining exercise in 
2002. The B-Factory at Stanford Linear Accelerator Center, operating 
well above its design luminosity, will also continue its program of 
research to understand why there is a preponderance of matter over 
antimatter, a critical question in the evolution of the universe. As 
part of an increasing emphasis on non-accelerator-based research 
projects, funding will be increased for the Supernova Acceleration 
Probe at Lawrence Berkeley National Laboratory, a space-based 
experiment to explore the nature of ``Dark Energy,'' an unknown force 
that is accelerating the expansion of the universe.

    Nuclear Physics. The Departments' nuclear physics research program 
is the principal sponsor of nuclear physics research in the U.S., 
providing 85 percent of federal support, and is coordinated with the 
research of the National Science Foundation's nuclear physics program 
through a jointly chartered advisory committee, the Nuclear Science 
Advisory Committee. This research seeks a deeper understanding of the 
properties of nuclear matter. For FY 2004, a primary focus of the 
program will be to exploit the capabilities of the world's finest 
experimental facilities for nuclear physics. At the Brookhaven National 
Laboratory's Relativistic Heavy Ion Collider, researchers will continue 
efforts to create and study the plasma of unconfined quarks and gluons 
believed to have existed a microsecond after the ``Big Bang.'' At the 
Continuous Electron Beam Accelerator Facility located at the Thomas 
Jefferson National Accelerator Facility, high energy beams of electrons 
will probe the internal structure of nucleons. To optimize the 
utilization and scientific productivity of these and other experimental 
facilities required some difficult decisions. As a result, in a 
decision informed by the priorities recommended by the Nuclear Science 
Advisory Committee, operation of the 88-Inch Cyclotron at Lawrence 
Berkeley National Laboratory will be terminated.
    Recent results from neutrino physics experiments have provided 
indications of new physics beyond the Standard Model, and funding has 
been increased to support non-accelerator-based experiments such as the 
international collaborations at the Sudbury Neutrino Observatory, 
KamLand and elsewhere for further investigation of these results.

    Workforce Development for Teachers and Scientists. Formerly known 
as ``Science Education'' and budgeted as a subprogram in the Science 
Program Direction budget, this program will continue the existing 
activities of the Science Education program. It will also begin a pilot 
program at Argonne National Laboratory, funded at $1 million, to 
exploit the resources of the national laboratories to provide 
professional development for K-14 science and mathematics teachers, who 
are the key to fostering interest in mathematics and science among 
students. Teachers will be competitively selected and matched with 
laboratory mentors working in their field of instruction. They will 
then spend 4-8 weeks at a laboratory performing research mentored by 
both laboratory scientists and ``master teachers'' who can help them 
transfer the laboratory research experience to the classroom. This will 
be the first step in a continuing relationship with the laboratory that 
will include additional one week on-site mentoring sessions and 
continuing communication. Intensive follow-up and performance measures 
will be applied to assess the results of this pilot.
    This initiative, in response to the President's call for a 
``qualified teacher in every classroom,'' will bring some of the 
Nation's finest scientific and technical resources to bear on improving 
the quality of instruction in science and mathematics to address a 
critical national problem--developing a technically trained and 
educated workforce for the 21st century.

The Office of Nuclear Energy, Science and Technology

    Overview. Over the last thirty years, nuclear power has risen to 
become one of the most important sources of electric energy in the 
United States and at the same time, among the most operationally 
economic. The benefits of nuclear power as a clean, reliable and 
affordable source of energy are a key to the economic and environmental 
underpinnings of this Nation. A central mission of the Department's 
nuclear program is to help enhance the basic technology and, through 
some of the most advanced civilian technology research conducted today, 
chart a course to the next leap in technology. In FY 2004, we are 
proposing a $388 million investment in nuclear research and development 
and for the Nation's nuclear science, technology and education 
infrastructure, a nearly twenty percent increase over last year's 
request.
    This budget request responds to the President's priorities to 
deploy new generation capacity to fortify U.S. energy independence and 
security while making significant improvements in environmental 
quality. It builds on the important work started over the last two 
years to deploy new nuclear plants in the U.S. by the end of the 
decade, to develop advanced, next generation nuclear technology, to 
strengthen our nation's nuclear education infrastructure, and proposes 
exciting new priorities--a new Nuclear Hydrogen Initiative to use high 
temperature nuclear energy systems for clean hydrogen production as 
part of the President's Hydrogen Fuel Initiative and the Advanced Fuel 
Cycle Initiative, research aimed at developing proliferation-resistant 
fuel treatment and fuel cycle technologies that can reduce the volume 
and toxicity of commercial spent nuclear fuel and maximize energy from 
nuclear fuel.
    Also, during FY 2002, the Department proceeded to implement the 
President's Management Agenda, including a major reorganization to 
better reflect the Administration's priorities, improve overall 
management and reduce the number of primary organizational units from 
eight to three. To assure overall accountability, PMA performance 
measures were cascaded from the Director, through the management to the 
staff. High emphasis has also been placed on development of meaningful 
R&D investment criteria and their application to the nuclear research 
initiatives. The nuclear program has successfully recruited and hired 
new junior professional staff and is working to put to new senior 
management team in place at the Idaho Operations Office, who will 
oversee nuclear R&D at INEEL as well as completion of the cleanup 
mission.
    Let me expand in more detail on the Department's nuclear energy 
initiatives, and the linkages of these initiatives among one another.

    Advanced Fuel Cycle Initiative. Of the issues affecting future 
expansion of nuclear energy in the U.S. and worldwide, none is more 
important or more difficult than that of dealing effectively with spent 
nuclear fuel. After a long and difficult process, the country is moving 
forward with a geologic repository, and we are on schedule to submit a 
license application to the Nuclear Regulatory Commission by the end of 
2004.
    With these successes, we are able to pursue research that can 
optimize the use of the first repository and possibly reduce the need 
for future repositories. For years, countries around the world have 
pursued advanced technologies that could treat and transmute spent 
nuclear fuel. For the last three years, the U.S. has been a participant 
in this research. As one of the Secretary's capstones, the FY 2004 
budget request proposes an aggressive research and demonstration 
program, the Advanced Fuel Cycle Initiative, with an investment of $63 
million in FY 2004 to continue exploring advanced, proliferation-
resistant nuclear fuel treatment and transmutation technologies that 
can reduce volume and toxicity of spent nuclear fuel for a geologic 
repository. If successful, these same technologies offer benefits of 
enhancing national security by reducing inventories of commercially-
generated plutonium and enhancing energy independence by recovering the 
energy value contained in spent nuclear fuel.
    The Department is proposing a research program leading to a 
demonstration of proliferation-resistant fuel treatment technology to 
reduce the volume of high level waste, and development of advanced 
fuels in the 2015 time frame that could enable consumption of plutonium 
using existing light water reactors or advanced gas reactors. With the 
President's request, the Department will continue work toward 
demonstration of proliferation-resistant fuel treatment technology and 
continue design of transmutation fuels for future use with current 
reactor technologies.
    However, for the Advanced Fuel Cycle Initiative to be successful, 
advanced fuel treatment and transmutation research and development must 
be integrated with the development of Generation IV nuclear energy 
systems, particularly with those reactor technologies that can produce 
very high energy neutrons that would be needed to transmute a wide 
variety of toxic radioactive species. To support this goal, the 
Advanced Fuel Cycle Initiative will develop the advanced proliferation 
resistant fuels and fuel cycle systems for Generation IV reactors.

    Generation IV Nuclear Energy Systems. Two years ago, we launched 
the Generation IV program to develop advanced reactor technologies for 
commercial deployment after 2010 but before 2030. These advanced 
reactors offer significant advances in sustainability, proliferation-
resistance, physical protection, safety and economics. Development of 
these reactors is being pursued by the Generation IV International 
Forum, a group of ten leading nuclear nations (United Kingdom, 
Argentina, Brazil, Canada, France, Japan, Republic of Korea, Republic 
of South Africa, Switzerland, and the United States), who last year 
selected six promising technologies for joint research, development, 
and demonstration. While the Department has not yet decided upon which 
of these technologies it will eventually focus, all of the technologies 
are of considerable interest. The six innovative, next-generation 
technologies include two gas-cooled reactors, one water-cooled, two 
liquid-metal-cooled reactors, and a molten salt-based reactor concept.
    Key research objectives for these technologies will include such 
activities as demonstrating advanced fuels and materials. The goal of 
the initiative is to resolve the fundamental research and development 
issues necessary to establish the viability of these concepts. By 
successfully addressing the fundamental research and development 
issues, the concepts are highly likely to attract future private sector 
sponsorship and ultimate commercialization. In FY 2003 and FY 2004, the 
Department will establish international partnering agreements to guide 
joint research and begin research and development on several of the 
reactor concepts, including very high temperature reactors that would 
be suitable for efficient production of hydrogen.

    Nuclear Hydrogen Initiative. Generation IV is closely linked to our 
new Nuclear Hydrogen Initiative, aimed at demonstrating economic 
commercial-scale production of hydrogen using nuclear power no later 
than 2015. The use of hydrogen using high temperature advanced reactors 
such as advanced gas-cooled or liquid metal-cooled reactors can provide 
the heat necessary for the process. These technologies offer the 
potential for large-scale, emission-free, hydrogen production 
capability needed to fuel a hydrogen economy. Today, through 
electrolysis, we can convert water to hydrogen using electricity but we 
believe that for the future, high temperature nuclear energy systems 
coupled with thermo-chemical water splitting processes offer a more 
efficient technology for production of large quantities of hydrogen, 
without release of greenhouse gases.
    The hydrogen initiative grew out of the success of our Nuclear 
Energy Research Initiative, in particular, two investigator-initiated 
projects that identified a number of advanced reactor concepts capable 
of producing large quantities of hydrogen with high efficiency and low 
cost. Since then, we have awarded an additional three projects and the 
International component of the Nuclear Energy Research Initiative has 
awarded one research project studying nuclear production of hydrogen. 
The Nuclear Hydrogen Initiative builds on the research from the Nuclear 
Energy Research Initiative and International Nuclear Research 
Initiative to demonstrate the ability to use nuclear to produce 
hydrogen with high efficiency and low cost. In FY 2004, we propose to 
invest $4 million to begin this initiative by developing a Nuclear 
Hydrogen Technology Roadmap and to conduct laboratory-scale 
demonstration of some of the key processes involved in nuclear hydrogen 
production.

    Nuclear Power 2010. The President's budget supports continuation of 
Nuclear Power 2010 in FY 2004 to demonstrate, in cost-shared 
cooperation with industry, key regulatory processes associated with 
licensing new nuclear plants in the U.S. In FY 2004, the requested 
funds would support the activities associated with submitting and 
achieving NRC approval of early site permits and development of 
Combined Construction and Operating License applications.
    Most, if not all, of our research initiatives involve participation 
by U.S. universities. The Advanced Fuel Cycle Initiative, for example, 
proposes to resume a fellowship program aimed at attracting graduate 
and doctoral students to the discipline of transmutation science. Other 
programs, like the Nuclear Energy Research Initiative, sponsor research 
conducted in large part by universities as well as national 
laboratories and the private sector.

    University Reactor Fuel Assistance and Support. For years, the 
Energy Department has sponsored an initiative that supports nuclear 
science and technology educational infrastructure through our 
University Reactor Fuel Assistance and Support initiative. The need for 
trained and qualified nuclear scientists has not diminished over the 
years, and in fact, because of increasing retirements in the nuclear 
field, demand today exceeds supply.
    We are very pleased that the President's budget includes $18.5 
million for this program for fellowships, scholarships, nuclear 
engineering research, and for critical support to university research 
reactors. In FY 2002, the Department launched the Innovations in 
Nuclear Infrastructure and Education program, encouraging universities 
to form ground-breaking partnerships with national labs, the private 
sector, and other universities to strengthen nuclear engineering 
education and optimize the use of research reactors. In FY 2002, DOE 
issued awards to four consortia of universities and their partners. 
With an additional $1 million requested in FY 2004, we hope to support 
additional awards.

    INEEL--DOE's Command Center for Nuclear R&D. Finally, this budget 
supports the Secretary's realignment of the mission of the Idaho 
National Engineering and Environmental Laboratory to focus the future 
of the site on nuclear research and development. As the Department's 
leading center of nuclear research and development, this laboratory is 
the ``command center'' for our efforts to develop advanced reactor and 
fuel cycle technologies, including development of space nuclear power 
and propulsion technologies.
    While the nuclear energy program involves the collective talents of 
universities, the private sector, international partners, and our 
national laboratories--Argonne, Los Alamos, Sandia, and Oak Ridge among 
them--the rebuilding of the Departments' nuclear program that is 
underway today for our nation's long-term energy security will not 
possible without the dedicated scientists, engineers and supporting 
staff of the Idaho National Engineering and Environmental Laboratory. 
Clearly, environmental cleanup will remain a major focus of the 
Department for the near-term but real progress is being made that will 
clear the way for expansion of nuclear research and development. With 
this year's budget, $110 million has been transferred from the 
environmental cleanup program to the Department's nuclear program to 
manage laboratory infrastructure and security.

The Office Energy Efficiency and Renewable Energy

    Overview. The overall FY 2004 budget for the Office of Energy 
Efficiency and Renewable Energy is $1.320 billion, compared to $1.319 
billion requested in FY 2003. The request reflects support to carry out 
National Energy Policy recommendations, the Department's mission, 
program priorities, and the Energy Efficiency and Renewable Energy 
Strategic Program Review recommendations.
    The FY 2004 Budget also reflects the new organization within the 
office. Two years ago, the Office of Energy Efficiency and Renewable 
Energy was divided into 31 programs, in 17 offices, stove piped into 5 
market sectors. There were multiple overlapping layers of management; 
and duplicative and inconsistent business systems that generated 
significant inefficiencies and made it difficult to ensure 
accountability.
    In response to the President's Management Agenda, we launched a 
dramatic restructuring of the program in April 2002. This restructuring 
eliminated the five market sectors and 17 offices, streamlined 31 
programs into 11, eliminated up to four management levels, and 
centralized administration functions into a single support organization 
with a focus on developing consistent, uniform, and efficient business 
practices. This is the most dramatic restructuring of the Office of 
Energy Efficiency and Renewable Energy in at least a dozen years and 
arguably in its history.
    The restructuring combined all the hydrogen and fuel cell 
activities, formerly scattered across two market sectors and three 
programs, into a single program for greater efficiency.
    The restructuring also combined all the bioenergy-related 
activities, formerly scattered across three market sectors and three 
programs, into a single program focused on advanced biorefineries.
    The FY 2004 budget is fully aligned with the new management 
structure and strategic goals and together they will provide greater 
synergy and increased efficiency and productivity in research and 
development and deployment activities.
    Research and development and technology deployment efforts 
supported by the FY 2004 budget will provide Americans with greater 
freedom of choice of technology, while providing increased energy 
security, and reducing financial costs and impacts on the environment.
    The FY 2004 budget has been developed with these challenges and 
opportunities in mind.

    Hydrogen Fuel Initiative. The big news in the FY 2004 budget is, of 
course, the President's Hydrogen Fuel Initiative. The President's 
Initiative directly supports EERE's number one priority to dramatically 
reduce or even end dependence on foreign oil.
    America currently depends on foreign sources for 60 percent of its 
oil--a dependence that is projected to rise to 70 percent by 2025. 
Since two thirds of the oil we consume is used for transportation, we 
must focus on alternative means of fueling transportation from domestic 
resources if we ever expect to reverse this trend.
    In his recent State-of-the-Union address, President Bush announced 
a new research and development initiative focused on hydrogen that, in 
conjunction with FreedomCAR launched last year, will help reverse 
America's growing dependence on foreign oil and expand the availability 
of clean, abundant energy.
    The President's Hydrogen Fuel Initiative will accelerate research 
and development on hydrogen production, delivery, storage and 
distribution, and establish the necessary safety-related codes and 
technology standards. The initiative also will fund limited 
``learning'' demonstrations of fuel cell vehicles and hydrogen 
infrastructure so that these technologies can be validated under real 
world conditions. When the President's vision of a child born today 
driving a hydrogen fuel cell vehicle is achieved, hydrogen fuel cells 
also could power our nation's homes, schools and businesses.
    The hydrogen needed to fuel these vehicles and stationary power 
sources is domestically available in abundant quantities as a component 
of natural gas, coal, biomass and even water through electrolysis using 
renewable or nuclear power. In the future, we may well also look to 
fusion energy to power a hydrogen economy. The challenge is to 
economically produce, deliver, store and distribute hydrogen for use as 
a consumer fuel in a cost-effective and environmentally-sound way, and 
to engage the broader oil, energy and power companies in this effort.
    To support the President's vision we need to make the necessary 
research and development investments to develop vehicles powered by 
hydrogen fuel cells and the infrastructure to support them. The 
government role will be to fund and coordinate the high-risk R&D work 
of numerous private sector partners and our national network of science 
laboratories. Government coordination of this undertaking will help 
resolve one of the difficulties associated with development of a 
commercially viable hydrogen fuel cell vehicle: the ``chicken and egg'' 
question. Which comes first, the fuel cell vehicle or the hydrogen 
production and delivery refueling infrastructure to support it? The 
President's Hydrogen Fuel Initiative, in conjunction with the 
FreedomCAR partnership, answers the question by proposing to develop 
both in parallel; that is, to augment the already significant 
investment in vehicle technologies with new investments in hydrogen and 
fuel cell technologies. By so doing federal investments can help to 
advance commercialization of hydrogen fuel cell vehicles and 
infrastructure by 15 years, from 2035 to 2020.
    To meet this challenge, the President's FY 2004 budget commits $1.2 
billion for hydrogen and fuel cells over five years ($720 million in 
new money); including in FY 2004 $181 million for the DOE (mostly EERE) 
and 0.7 million for the Department of Transportation.
    The Hydrogen Fuel Initiative enhances and complements the 
FreedomCAR partnership announced last year. FreedomCAR is a public-
private partnership with U.S. automakers to accelerate the development 
of practical, affordable hydrogen fuel cell vehicles. The funding 
request for the Hydrogen Fuel Initiative and FreedomCAR combined will 
total $1.7 billion over five years.
    The funding request for the vehicle technologies program under the 
FreedomCAR umbrella increases from $74.4 million in our FY 2003 budget 
to $91.1 million in FY 2004. This will increase the research and 
development emphasis on battery and materials technologies critical for 
fuel cell and combustion hybrid vehicles over five years; in FY 2004, 
the total DOE FreedomCAR and Fuel request is $272.1 million.
    The funding request for the Fuel Cell Technology Program--which 
includes the development of polymer electrolyte membrane fuel cell 
technology in support of this initiative--increases from $57.5 million 
in our FY 2003 budget to $77.5 million in FY 2004. This increase will 
support, as noted above, a limited ``learning'' demonstration project 
for fuel cell vehicles and hydrogen infrastructure (with hydrogen sub-
program) to integrate and validate component technologies; and an 
increase for fuel cell component research and development to reduce 
fuel cell cost.
    The funding request for the Hydrogen Technology Program increases 
from $39.9 million in our FY 2003 budget to $88.0 million in FY 2004 
(plus $15.5 million in the Fossil Energy and Nuclear Energy programs, 
for a total of $103.5 million). This will be used to establish a 
national research effort on hydrogen storage; enhancing technology 
development for hydrogen production from renewables and distributed 
natural gas; accelerate codes and standards development; create a major 
hydrogen education effort; and validate hydrogen infrastructure 
technologies to support fuel cell vehicle test and evaluation.
    These efforts support the President's Initiative, and will enable 
the development of hydrogen fuel cell vehicles for the showroom floor 
by 2020. Success of these programs will begin to eliminate the need for 
imported oil, while simultaneously reducing emissions and greenhouse 
gases from America's transportation fleet without affecting the freedom 
of personal mobility we demand.

    Efficient Lighting Systems. The FY 2004 budget also will expand our 
research and development in Solid State Lighting, which represents a 
promising new approach to efficient lighting systems.
    The lighting used in our homes and offices today is in many ways 
similar to the vacuum tubes that preceded solid state electronics. This 
comparatively inefficient lighting consumes about 7 quadrillion British 
thermal units of the Nation's energy each year and contributes to the 
peak energy demands that strain our electricity infrastructure. 
Advancing the technology and lowering the cost of organic and inorganic 
light emitting diodes will lead to more efficient, flexible and 
functional lighting technology in the future.
    For FY 2004, we are proposing a $5 million investment to expand our 
Solid State Lighting research activities. Our Solid State Lighting 
research will create the technical foundation to revolutionize the 
energy efficiency, appearance, visual comfort, and quality of lighting 
products.

The Office of Fossil Energy

    Overview. The Fossil Energy program is being realigned to focus 
virtually exclusively on supporting three of the President's top energy 
and environmental initiatives: Clear Skies, Climate Change, and Energy 
Security.
    To be included in the FY 2004 budget, Fossil Energy programs must 
either (1) support the development of lower cost, more effective 
pollution control technologies or help diversify the Nation's future 
sources of clean-burning natural gas to meet the President's Clear 
Skies goals; (2) expand the Nation's technological options for reducing 
greenhouse gases either by increasing power plant efficiencies or by 
capturing and isolating these gases from the atmosphere; or (3) 
measurably add to the Nation's energy security by providing a short-
term emergency response (e.g., Strategic Petroleum Reserve) or a 
longer-term alternative to imported oil (e.g., hydrogen and methane 
hydrates).

    The President's Coal Research Initiative. The President's Coal 
Research Initiative accounts for $320.5 million of the Fossil Energy 
research and development budget request. Since our budget testimony 
last year, the Department has made significant progress in implementing 
the initial stage of the President's $2 billion, 10-year commitment to 
a new generation of environmentally-clean coal technologies.
    Our ``first round'' solicitation in the Clean Coal Power 
Initiative--a key piece of the President's clean coal commitment--
attracted three dozen proposals for projects totaling more than $5 
billion. On January 15, 2003, we announced the first winners of this 
competition--eight projects with a total value of more than $1.3 
billion, more than one billion dollars of which would be provided by 
the private sector.
    In FY 2004, we are requesting $130 million for the Clean Coal Power 
Initiative to fund joint government-industry research projects on new 
technologies that can enhance the reliability, efficiency, and 
environmental performance of coal-fired power generators.
    To ensure that even more effective pollution controls continue to 
emerge in support of the President's Clear Skies Initiative, we are 
requesting $22.0 million for research into even cleaner and more 
affordable environmental innovations for existing plants.
    Several of the recently-selected Clean Coal projects also expand 
the menu of options for meeting the President's Climate Change 
Initiative, primarily by boosting the efficiencies of power plants 
(meaning that less fuel is needed to generate electricity with a 
corresponding reduction in greenhouse gases). To position even more 
advanced, high efficiency power generating concepts for future 
development and testing, we are requesting $64.0 million to continue 
research into integrated gasification-combined cycle and a companion 
effort in high-performance, multi-fuel-capable turbines. A key aspect 
of these advanced power concepts--which will make up key modules of our 
``Vision 21'' emission-free power plant of the future--is that they 
emit carbon dioxide in a way that makes the greenhouse gas easier to 
capture.
    Carbon management will become an increasingly important element of 
our coal research program. Carbon sequestration--the capture and 
permanent storage of carbon dioxide--has emerged as one of our highest 
priorities in the Fossil Energy research program--a priority reflected 
in the proposed budget increase to $62.0 million in FY 2004 compared to 
an FY 2003 amended request of $44.0 million.
    Carbon sequestration, if it can be proven practical, safe, and 
affordable, can dramatically enhance our long-term response to climate 
change concerns. It could offer the United States and other nations the 
option to reduce greenhouse gases that would not necessitate 
potentially disruptive and economically harmful changes in the way we 
produce, deliver, or use energy.
    Beginning in FY 2004, one of the cornerstones of our carbon 
sequestration program will be a national network of regional 
partnerships. This Secretarial initiative will bring together the 
Federal Government, state agencies, universities, and private industry 
to begin determining which options for capturing and storing greenhouse 
gases are most practicable for specific areas of the country. We hope 
to start about four of these partnerships in FY 2004.
    Among the research pathways we are pursuing in support of the 
Administration's Hydrogen Fuel Initiative will be innovative approaches 
for producing carbon-free hydrogen from coal by integrating coal-based 
hydrogen production technologies with permanent, stable carbon storage. 
Coal is a very attractive source of hydrogen through the coal 
gasification process. We have allocated $5.0 million for research into 
new methods for making hydrogen from coal.
    To provide fundamental scientific knowledge that benefits all of 
our coal technology efforts, our FY 2004 budget also includes $37.5 
million for advanced research in such areas as materials, coal 
utilization science, analytical efforts, and support for coal research 
at universities (including historically black and other minority 
institutions).

    Other Power Systems Research and Development. We are also proposing 
$47 million for continued development of fuel cells with an emphasis on 
lower-cost technologies that can contribute to both Clear Skies 
emission reductions, particularly in distributed generation 
applications, and Climate Change goals by providing an ultra-high 
efficiency electricity generating component for tomorrow's power 
plants. Distributed power systems, such as fuel cells, also can 
contribute to the overall reliability of electricity supplies in the 
United States and help strengthen the security of our energy 
infrastructure.

    Natural Gas Research. In response to the President's Clear Skies 
Initiative, the department is requesting $26.6 million for natural gas 
research. This clean-burning fuel will be integral to achieving the 
goals of Clear Skies.
    Our natural gas research program, therefore, is directed primarily 
at research and development that can improve our utilization of this 
resource and provide sound science for policy decision-making. A 
particularly important aspect of this research will be to develop 
innovative ways to recover this resource from other sources such as 
hydrates, and to use natural gas to produce hydrogen.
    The most significant new initiative in our Natural Gas Research 
program is the work we are proposing in hydrogen as part of the 
President's Hydrogen Fuel Initiative. We are requesting $6.5 million to 
study innovative methods to produce hydrogen from natural gas. We will 
ask industry, academia, and our national laboratories to submit new 
ideas on hydrogen production and related research. Since the byproduct 
of gas-to-hydrogen processes will likely be carbon dioxide, this effort 
will also include research on carbon capture and sequestration. This 
work will be closely coordinated with other efforts in the Office of 
Fossil Energy to capture and sequester carbon dioxide.
    Over the long-term, the production of natural gas from hydrates 
could have major energy security implications. Hydrates--gas-bearing, 
ice-like formations in Alaska and offshore--contain more energy than 
all other fossil energy resources. The ability to develop hydrates as a 
natural gas source would be able to provide all our natural gas needs. 
Understanding hydrates can also improve our knowledge of the science of 
greenhouse gases and possible offer future mechanisms for sequestering 
carbon dioxide. For these reasons, we are maintaining a research 
program to study gas hydrates with a proposed funding level of $3.5 
million.
    Natural gas storage and transportation will also assume increasing 
significance in the United States as more and more power plants require 
consistent, year-round supplies of natural gas. Toward this end, we 
will initiate a nationwide, industry-led consortium that will examine 
ways to improve the reliability and efficiency of our nation's gas 
storage system and explore opportunities for liquid natural gas 
facility siting. We recognize that it has been decades since liquid 
natural gas has been a significant natural gas supply option. Through 
this new program, we are working to integrate thirty years of advances 
in technology, science and policy to secure the reliability of liquid 
natural gas storage and transport.

    Oil Technology Development. The President's National Energy Policy 
calls attention to the continued need to strengthen our nation's energy 
security by promoting enhanced oil (and gas) recovery and improving oil 
(and gas) exploration technology through continued partnerships with 
public and private entities.
    We also recognize that the federal oil technology research and 
development program must be more focused in order to achieve results 
and accomplish Presidential and departmental goals. Consequently, our 
FY 2004 budget request of $15.0 million reflects a reorientation of the 
program toward those areas where there is clearly a national benefit 
and the ability to contribute to the climate change and energy security 
goals.
    The research and development activities directed towards the use of 
carbon dioxide injection to enhance the recovery of oil from existing 
fields will help achieve our climate change goals through an effective 
carbon sequestration method. Carbon dioxide injection is a proven 
enhanced oil recovery practice that prolongs the life of some mature 
fields, and the private sector has not applied this technique to its 
fullest potential due to insufficient supplies of economical carbon 
dioxide. A key component of carbon sequestration to be carried out in 
our proposed FY 2004 program will be to facilitate the greater use of 
this process by integrating it with carbon dioxide-captured and 
delivered from fossil fuel power plants.
    We will also refocus much of our Oil Technology program on a new 
Domestic Resource Conservation effort that will target partnerships 
with industry and universities to sustain access to marginal wells and 
reservoirs. These aging fields account for 40 percent of our domestic 
production, yet contain billions of barrels of oil that might still be 
recovered with ever-improving technology. A high priority effort in FY 
2004 will be to develop ``micro-hole'' technology. Rather than 
developing just another new drilling tool, the federal program will 
integrate ``smart'' drilling systems, advanced imaging, and enhanced 
recovery technologies into a complete exploration and production 
system. Micro-hole systems may offer one of our best opportunities for 
keeping marginal fields active because the smaller-diameter wells can 
significantly reduce exploration costs and make new drilling between 
existing wells (``infill'' drilling) more affordable. This will enable 
us to maintain a consistent base of domestic oil production.

    Other Fossil Energy R&D. Our budget request also includes 
$124.3million for other activities in our Fossil Energy program, 
including $92.8 million for headquarters and field office salaries, 
$3.0 million for plant and capital improvements, $9.8 million for 
environmental restoration, $6 million for federal matching funds for 
cooperative research and development projects at the University of 
North Dakota and the Western Research Institute, $2.8million for 
electricity and natural gas import/export responsibilities, and $10 
million for advanced metallurgical research at our Albany Research 
Center. The increase in funding at the Albany Center (up from $5 
million in FY 2003) reflects the Center's growing role in developing 
better materials for fuel cells and in studying new mineral carbonation 
concepts for carbon sequestration.

Conclusion

    As the Committee is well aware, this testimony has not covered the 
enormous contributions science in our National Nuclear Security 
Administration (NNSA) is making to the DOE mission. From material 
research to high-performance computing, NNSA science is integrated into 
the full range of activities within my area of responsibility.
    Mr. Chairman, I believe the Department's FY 2004 budget submission 
meets the Nation's critical needs for energy, environmental and 
national security at a difficult time in our history. The Committee has 
a central role in shaping the future of science and technology in the 
United States. The Department of Energy, which Secretary Abraham has 
said might well be called the Department of Energy and Science, hopes 
to join the Members of the Committee in working to strengthen American 
science.
                      Biography for Robert G. Card
    As Under Secretary, Mr. Card has line responsibility for 
Departmental operations in Energy, Science, and Environment. Energy 
responsibilities include renewables, fossil, nuclear and nuclear fuel 
cycle management, space nuclear power, power transmission, energy 
conservation and energy efficiency standards. In the area of science, 
the Department is the largest federal funder for physical sciences 
covering 14 national laboratories plus university and commercial 
research engagements. Major elements include basic energy sciences, 
high energy and nuclear physics, biological and environmental sciences, 
fusion energy and computing. Environmental operations include nuclear 
waste management, spent fuel retrieval from commercial, defense and 
international sources, and remediation of the nuclear weapons complex. 
Example activities of the Under Secretary during this tenure include 
responsibility for:

        <bullet> LImplementation of the President's Clean Coal and 
        FreedomCAR initiatives

        <bullet> LReconfiguration of the Environmental Management 
        program to complete public and worker risk reduction nearly 40 
        years earlier for over $50 billion of cost savings

        <bullet> LSiting and development of the Nation's high level 
        nuclear waste repository

        <bullet> LChair of the Interagency Working Group on Climate 
        Change Science & Technology

        <bullet> LFilling the Strategic Petroleum Reserve to its full 
        capacity of 700 million barrels

        <bullet> LThe Secretary's Nuclear Power 2010 initiative

        <bullet> LManagement improvement initiatives including safety 
        and security improvements, DOE order and requirements 
        streamlining, and project management improvements.

    Prior to his DOE employment, Mr. Card was President and CEO, 
Kaiser-Hill Company, LLC. In that role he was responsible for the $7 
billion, 5,000 employee, cleanup and closure of the U.S. Department of 
Energy's (DOE's) Rocky Flats site, which was formerly one of the 
Nation's five primary nuclear weapons production sites. The plant, 
which contained the largest unfinished plutonium stockpile in the 
Nation, is located in the Denver, Colorado metropolitan area. After 
assuming responsibility for the project in 1995, Mr. Card restructured 
site operations and the closure strategy to advance the planned closure 
schedule of 2065, at a cost $37 billion to a closure goal of 2006, and 
a total cost of approximate $7 billion.
    Mr. Card also served as a Director and Senior Vice President at 
CH2M HILL Companies, Ltd. The Company had revenues of about $2 billion 
and was one of the world's larger science, engineering, construction 
and operations firms. The corporation had major practices in the areas 
of energy & environment, water, transportation, and industrial 
manufacturing. Prior to the Rocky Flats assignment, Mr. Card served as 
Group Executive, Environmental Companies, responsible for the energy 
and environmental business, which was the firm's largest business 
practice. This business served a variety of customers including the 
Federal Government, electric utilities, oil and gas companies and other 
industries. Mr. Card personally managed the design and construction 
management of an award-winning heavy oil production project in Canada.
    Mr. Card completed the Program for Management Development at 
Harvard Business School; received a M.S. in Environmental Engineering 
from Stanford University; and a B.S. in Civil Engineering from the 
University of Washington.

                               Discussion

    Chairman Boehlert. Thank you very much, Mr. Card. Let me 
say at the outset that this committee, I think--I am confident 
I can speak for the entire Committee, has great respect and 
unending appreciation for the professionalism that each of you 
bring to your job. You have a very demanding task, particularly 
now when resources are so tight, because of a whole wide 
variety of factors that are completely beyond the control of 
anyone in this room. It is sort of unfortunate that we are 
having this hearing today as the ink is drying on the Omnibus 
Bill that later today we are going to be considering. But that 
has to drive what we say and do here today and guide us for the 
future.
    So let me start, first of all, with Dr. Marburger. Now that 
we are finally beginning to know the '03 appropriation numbers, 
it puts the '04 request in a different light. Programs that 
were presented in the Administration's budget as getting small 
increases, like DOE's Office of Science, would actually end up 
being cut. Programs that were presented as priorities, like 
NSF, would actually end up just about flat-funded in real 
terms. So my question is how are we supposed to interpret the 
Administration's proposal for '04? For NSF are we to suppose 
that the Administration is asking for a three percent increase 
from the actual fiscal year 2003 numbers, or a nine percent 
increase, or neither? Will there be a budget amendment set up--
sent up? Is there any point at all at looking at the proposed 
budget as any kind of starting point for spending discussion 
right now in view of the action that is anticipated within the 
next several hours?
    Dr. Marburger. That is an important question to ask. I 
think it is necessary to regard the President's '04 request as 
the starting point. It is the base of numbers that we all have 
to deal with. And it does have important signals, important 
changes of emphasis. It gives, I think, very good direction for 
establishing priorities for funding. I understand the 
discomfort that we all feel about not having the '03 numbers 
available to us as we planned this budget, but this budget 
request is planned. It did--it does contain the result of a lot 
of thinking about priorities and needs within the departments 
for which the requests are made. And I don't think we have any 
choice but to regard this budget as the starting point for the 
discussions that are now going to have to go forward to decide 
what Congress will do about the '04 budget.
    Chairman Boehlert. The Administration is somewhat at a 
disadvantage, because we are so slow in doing our work to give 
the guidance that the Administration has every right to expect 
from us. The Committee took the lead in writing portions of the 
Homeland Security Act dealing with science and technology, and 
you are very familiar with that. And in that Act, we required a 
report so we could understand the nature and impact of the 
transfer of programs from DOE to the Department of Homeland 
Security.
    The report that came up to us in late December was wholly 
inadequate. And on January 7, I wrote to the President asking a 
series of pretty basic questions about the transfer. We haven't 
heard a thing back even though DHS is now up and running. Dr. 
Marburger, your staff is playing a critical role in setting up 
the S&T portions of the new department. When do you expect that 
this committee will receive an answer to our letter? And can 
you or Mr. Card answer some of the questions that we have been 
asking right along? And of course, you are both familiar with 
that letter. Dr. Marburger first.
    Dr. Marburger. Yes. Mr. Chairman, I understand that your 
letter has been sent to the Department of Homeland Security for 
a formal response. I can tell you that the life sciences money 
is planned to be used to enhance the bio-forensic sequencing 
capacity needed by DHS and in addition to develop intramural 
biological sciences capacity for the director that will provide 
core expertise for that portion of the director's mission 
space. The amount transferred in fiscal year 2003 is $20 
million. The current plan is to have a virtual lab consisting 
of components of several of the labs: Sandia Los Alamos, 
Lawrence Livermore reporting to the Office of R&D within the 
DHS headquarters.
    Now it is going to be a while, I suppose, before DHS has 
its formal response. We will assist them, as we do for all 
agencies in coordinating interagency science activities, but 
beyond what I have been able to tell you about the specifics, I 
don't have a further answer today.
    Chairman Boehlert. And let me say, I understand that. I 
mean, we are all about one of the biggest ventures this 
government has undertaken in terms of reorganization in the 
post-World War II era. I pointed the letter out and the 
particular questions asked so that you will know clearly of our 
deep and abiding interests. And we are going to work through 
this to get the answers.
    Mr. Card, is there something you might add to Dr. 
Marburger's statement?
    Mr. Card. I would just like to say, the Department of 
Energy supports completely the new department. And we are 
looking forward to serving them. In summary, we don't, frankly, 
see a very big impact of this change. And I know there is--the 
budget contains some financial figures, but the greatest is the 
transfer of a laboratory in terms of FTEs in New York. And we 
are certainly hoping to be able to get you the final answers, 
because there are still verier adjustments going on by the 1st 
of March. But the FTE impact is significantly less than one 
percent of the federal FTEs, which of course is also only about 
ten percent of our total DOE workforce.
    Chairman Boehlert. Thank you very much. And we will look 
forward to that. Thank you, Dr. Marburger and Mr. Card. Thank 
all of you. Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman. I have some 
questions for Dr. Marburger, but before I ask those questions, 
I want to just commend Dr. Marburger for the work he did in 
restoring public confidence in Brookhaven National Laboratory. 
It is a very important facility in our district, and confidence 
was waning, and you did a first-rate job in a very short period 
of time in restoring that, so thank you very much for that.
    Dr. Marburger. Thank you.
    Mr. Bishop. I want to focus on Brookhaven Lab. There is a 
commitment to clean up Brookhaven Lab and the aftereffects of 
the leak of the tritium from the nuclear reactor. Does this 
budget remain consistent with the timeline that has been 
established and agreed to for that cleanup?
    Dr. Marburger. Mr. Congressman, I am not intimately 
familiar with that part of the DOE budget request. It is not in 
the science and technology or R&D part. It is possible that Mr. 
Card may have a response to that. Bob, I just have to defer to 
you on this point.
    Mr. Card. Yeah. It is my understanding that we are on track 
with the cleanup commitments of Brookhaven Lab. And it is part 
of the Accelerated Cleanup Program. But if there is any change 
in that, for the record, I will give you a revised answer, but 
that is my understanding.
    Mr. Bishop. Please do. Thank you. I have two questions of 
Dr. Colwell. The NSF graduate education assistantship and 
fellowship program, you are requesting a significant increase. 
How many additional students will that allow you to accommodate 
in that program?
    Dr. Colwell. We are hoping to have 350 new fellowships. And 
I would remind you that the graduate research fellowships and 
GK-12 and the IGERT fellowships would be the ones which would 
be increased, and these require U.S. citizenship.
    Mr. Bishop. What is the rate of acceptance now? I mean, if 
you were to increase by some 300, how many students, otherwise 
qualified students, would remain with their needs unaddressed?
    Dr. Colwell. Let me give you some data. Five years ago, the 
stipend was $15,000. And we had something like 5,000 applicants 
for the 950 slots. When we started raising the fellowships, 
with the concurrence of Congress, to most recently $21,500, the 
number of fellowships have gone up to--applications have gone 
up to about 6,000. And then when the announcement of the 
fellowships being $25,000, this year, we have had well over 
8,000 applications for the 950 fellowships we have. So clearly, 
we do have two observations: one is there are many people, 
young people, who would like to be studying, you know, doing 
graduate work in the sciences and engineering; and secondly, 
financial considerations are really very serious. We know that 
the average graduate has a debt of about $27,000. So it is 
clear to attract students to graduate work in science and 
engineering, the stipend is critical.
    Mr. Bishop. By those statistics, there is a significant 
number of otherwise well qualified students who are not brought 
into graduate studies supported by the NSF, correct?
    Dr. Colwell. Yes, sir.
    Mr. Bishop. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you. The Chair recognizes Dr. 
Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. And thank you to the 
panel. It is very good to see a bunch of home run hitters at 
the witness table, and you have all done a good job in your 
work for the Federal Government. I appreciate that.
    Just a few quick observations. Dr. Marburger, I am 
disappointed in the increase for NSF. As you well know, the 
Congress passed the Doubling Bill for them. I will not flip up 
the chart I flipped up last year. You probably remember that, 
but--which showed an extreme imbalance between what had 
happened to NIH and what had happened to NSF, NIST, and EPA and 
all of the other labs. It is my goal to redress that imbalance, 
and the NSF Doubling Bill, thanks to the work of the Chairman 
and of Congressman Smith, has passed, been signed into law, and 
we would like to have the Administration fund that. The NSF, 
compared to the actual past fiscal year 2003, is on a four 
percent increase. If we accepted that, that would be--already 
put us 14.2 percent behind the Doubling Plan we have. And so I 
can assure you that Members of the Congress will be trying to 
increase that as we go through the process.
    Dr. Bodman, I--in regard to NIST, etcetera, both you and I 
agree that NIST has done some great things and has--considering 
the funding, it has done extremely well, two Nobel Prizes in 
the past five years, both of them in fields related to my work 
over the past. I appreciate the Administration's commitment to 
funding the NIST labs, but I am concerned that the core funding 
hasn't fared that well over the past decade. I have several 
questions relating to that. Can you characterize the NIST labs 
performance and the value of the research? And what steps are 
you going to take to ensure that they continue to receive the 
financial support they deserve in the coming years? And that 
includes not only the funds to do the research, but as you 
know, there are tremendous infrastructure difficulties, 
particularly at older labs. Another question relating to that 
is why is the Administration zeroing out ATP and MEP? And I am 
not getting into the issues of whether or not they should be 
funded, but the point is simply that the Senate will put 
funding in for them, and when you zero it out and they put the 
money back in, they take it out of other NIST functions, so in 
fact the research function of NIST will suffer as a result of 
your efforts to zero out ATP and MEP. Incidentally, I think MEP 
is a very good program. It should continue. The ATP, as you 
know, needs changes, but you did recommend those changes, and I 
would like to see them implemented and the program continue. 
But that is separate. The real question is why zero it out when 
you know it is going to be put back in and that money is going 
to come right out of the height of the research effort and the 
equipment and building budget. So those two questions.
    Dr. Bodman. Thank you, Congressman. First, as to the 
science mission of NIST, we are very enthused about it. Dr. 
Bement has provided outstanding leadership, in my judgment. And 
I believe that the increases I indicated during my presentation 
what--is one that in today's world, given the limited resources 
with which we are working, are reasonable and something that I 
believe will support the core mission of the laboratories. With 
respect to the infrastructure, the--I mentioned that as one of 
the important priorities in developing this budget, both at 
NIST and at NOAA, we have proposed in this budget substantial 
increases in the infrastructure of both agencies: some $79 
million increase in NOAA and some $43 million increase in NIST. 
This would be for the repair of--with respect to NIST, which 
was your specific question, for the repair and maintenance, 
which is long overdue in the Bolder Laboratory. We are trying 
to do Nobel Prize quality research there in a building without 
central air conditioning, and we have got temperature swings of 
ten degrees or more in rooms where we are carrying out very 
meticulous work. And it just is an impossible feat. Secondly, 
we will be--we have also, in Gaithersburg, here in Maryland, 
have substantially old facilities there, too, and so we will be 
refurbishing some of the laboratory space that is being made 
available by the moving of our staff from current facilities 
into the AML [Advanced Measurement Laboratory]. So we are--
believe that this is the first time, in recent memory, in any 
event, where we have seen a major commitment in this proposed 
budget of funding to improve our physical facilities.
    In my two years in Washington, I have found it much easier 
to elicit support and enthusiasm, both in the Administration 
and, frankly, from Congress, on new programs, new ideas rather 
than fixing a physical facility that was built 20, 30, 40, or 
in some cases, 50 years ago. So we think we are starting down 
the path to do that. Coupled with that, sir, is a serious 
interest in the safety of our employees, and we have--we 
believe, with these investments, we will also start to be able 
to redress the--a much greater focus within the department on 
the safety of our personnel.
    Lastly, with respect to ATP and MEP, in both instances, 
there are believers in these programs. These programs elicit 
the widest range of variance of anything that I am responsible 
for. Some--we have, as I say, many, many people very enthused 
about it. Others don't believe that it is an appropriate 
function of government. Frankly, it didn't get down to a 
philosophical judgment; it got down to a judgment of limited 
resources, and we felt we were better off funding the 
priorities that I mentioned.
    Mr. Ehlers. Mr. Chairman, if I may have ten seconds just to 
follow up, I very much appreciate what you have done in the 
NOAA and NIST budget. I am not questioning that. I am just 
warning you that by cutting the others, you may endanger what 
you really plan to do. And I hope we will have your help in 
that political battle.
    Dr. Bodman. We will work very hard. We really believe in 
this budget. And I think we have made some progress in terms of 
where we are putting our chips. And we will work very hard, 
sir, to try to sell it as best as we can.
    Mr. Ehlers. I will pursue the rest of my questions in the 
second round. Thank you.
    Mr. Bartlett [presiding]. Thank you very much. The Chair 
now recognizes Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. Chairman, first, could I 
identify the three new members we have. I intended to do that 
in my opening statement. But new to this committee is Tim 
Bishop of New York and a very good addition. His background: he 
is a college provost, a college administrator, and has 29 years 
experience in education. And I think he is the one that made 
this his first priority, this committee. And I appreciate 
having him. I have Lincoln Davis, an unusual guy. He is a long-
time Texas Senator from Tennessee. And all of us Texans are 
obligated to Tennessee, because if it weren't for Tennessee, we 
wouldn't have a Texas. A lot of people say they wouldn't have 
had one anyway if the Alamo had had a back door. He is heavy in 
agriculture, and a former mayor. His family lived next door to 
Sergeant York and acquired their holdings. I think you live on 
that property now, don't you? We are happy to have him. And we 
have Chris Bell of Texas. We have another good Texan on here 
from UT. He is on the Houston City Council, a big city 
councilman, and big in oil and gas and hospital and research 
facilities. Thank you, Mr. Chairman. I want to welcome them to 
this committee. And they are great additions, and we appreciate 
them.
    I want to ask Mr. Card, we--now I notice your boat is 
loaded, too. You are charged with working on the Nation's high-
level nuclear waste repository. I don't know how that is coming 
now, but we have suffered with that a long, long time. Clean 
Coal and FreedomCAR. Do you know Dr. John Mecada from the 
University of Texas? I have got some writings about coal--and 
the abundance of coal in the midsection--of coal in this 
country and how if we could develop it, we could double the 
total output of the OPEC nations all put together if we could 
use it. Texas has put scrubbers on theirs, and a lot of the 
mid-states have not. You worked on SPR [Strategic Petroleum 
Reserve] and that is of great interest to us. And that is kind 
of my--goes to my question today is--if I can find it. Yeah. 
Why are we reducing existing research and exploration for 
fossil fuels, particularly oil? And I am of an oil state. Texas 
is one of ten states that furnishes the industry, and I have 
the oil district--I have the Oil Patch in my district. And you 
know, when our dependence on imported crude oil and refined 
products is growing by leaps and bounds and these products are 
coming from unstable parts of the world, the OPEC bunch of 
people over there that I referred to a little bit earlier, it--
I don't understand when our dependence on them is--and then we 
are reducing existing research. Now we had some research in 
House Bill 4, I think, that died in the Senate, the deep water 
excavation and what else, yeah, just bring us up on that, if 
you would.
    Mr. Card. Sure. And let me just say that we--as you know, 
we did a program review last year. And what we are looking for 
is the sweet spot of what is really the appropriate role for 
Department of Energy and the research size, you know, for 
helping out, particularly the small producers, which are so 
important and I know are important to you. There--a package has 
been proposed for tax incentives and research and what is the 
appropriate balance between those. Our focus in our oil and gas 
program, in fact our--and extends to coal as well as working on 
the environmental aspects of it to make sure that we get access 
to the resources, because we see that as a continuing 
challenge. And so we are also looking at our portfolio to 
determine how important is drilling technology, for example, 
versus environmental issues with access. And so we have coupled 
that to look at low-impact exploration and development of oil 
fields and other similar work. But this year, we will be taking 
a harder look based on the PART score program that we--as you 
know, we used last year to guide our efforts on this to see how 
we can focus more on a long-term basis that research program 
and work on getting it back up to where I know you would like 
it to be.
    Mr. Hall. What wartime powers--we have a President that 
understands oil and gas and a Vice-president that understands 
it. And they get criticized for that a lot, but I think it is 
the greatest--they can have a great impact on the future by 
their knowledge in the field of energy. And if we get into a 
war, I want to drill land more. And I want to--it is said I 
want to drill on cemetery lots if it would keep our grandkids 
out of a war. I am not that bad, but I am pretty close to it. 
But our Chairman here, the book on him is that I keep him from 
spending all of our money on saving the whales. Not this 
Chairman, but Chairman Boehlert. And he keeps me from drilling 
on cemetery lots. So there is an offset here.
    But what wartime powers would the President have? I know he 
wants to drill on ANWR. Nineteen million acres up there, why we 
can't drill on a couple of thousand of them is beyond me. I 
don't understand. What wartime powers would he have if we do 
happen to get into a war that would turn us loose on that type 
of drilling, if you know?
    Mr. Card. Yeah, Congressman, to do justice on that, I 
really want--like to answer that one for the record. Of course, 
the Strategic Petroleum Reserve is the most obvious power that 
the President has. And the Administration continues to support 
increased exploration development in safer areas, as you talked 
about, more reliable areas in North America. So we will--if it 
is okay with you, I will respond for the record on that.
    Mr. Hall. Okay. Are you going to do it in writing?
    Mr. Card. Yes.
    Mr. Hall. Soon?
    Mr. Card. That would be my plan.
    Mr. Hall. Okay. You better hurry. I told the President the 
other day when he came in to make his speech that if just two 
people went to Baghdad, I would be driving the Jeep for him. I 
want to ask Dr. Marburger one thing, and I thank you for your 
suggestion that you are going to answer our letter.
    In January, Chairman Boehlert and I wrote to the President 
and--to commend him on his decision to extend the termination 
date for the President's Information Technology Advisory 
Committee, called PITAC. You are familiar with that, aren't 
you? And I don't--I am not among those that want to criticize 
the President, because I think highly of him, too highly 
probably, but no new members have been appointed to PITAC, and 
the Committee has not functioned now for more than a year. What 
is the deal on that?
    Dr. Marburger. I have been concerned about that, too. We 
have been trying to identify new members that have appropriate 
technical qualifications so that that Committee can do its work 
properly. And I look forward to a very rapid replacement and 
filling of those vacant--vacancies on the Committee. And we 
are--this is very high on my personal agenda to get that done.
    Mr. Hall. Get word to the Chairman and copy me with it and 
let us know what is happening on that, because we have a great 
interest in that. And I do thank you. I yield back my time. You 
have been very generous with your times. You make a good 
Chairman.
    Mr. Bartlett. Thank you. I appreciate that. Mr. Nethercut.
    Mr. Nethercut. Thank you, Mr. Chairman. And ladies and 
gentlemen, I welcome you all and your staffs. I appreciate you 
being here and testifying today. I am amazed as I read through 
your testimony the breadth and the scope of scientific research 
and energy and development and technology and all of those 
broad range of subjects that--over which you have jurisdiction. 
It is, I think, very helpful to us to have a sense, and the 
American people, to have a sense of all of the good things that 
you are doing in the area of science. I appreciate you being 
here, Secretary Card, and I especially acknowledge you because 
of your Washington State roots, and I am glad you are all here. 
Dr. Bodman, you have a huge responsibility in an agency that is 
multifaceted and so important to not only American lives and 
interests but human health around the world. And so I 
congratulate all of you for your fine work and for your 
qualifications that you bring to this testimony.
    Dr. Bodman, let me ask you about a little follow-up on Dr. 
Ehlers comments about NIST. I know that Congress established an 
important supporting role for NIST in the Help America Vote 
Act. And that legislation gives NIST the responsibility for 
developing technical standards for voting equipment. And I am 
wondering if you could advise the Committee to what extent NIST 
is ready to assume this responsibility, whether you are an 
advocate for securing more funding and maybe update us just a 
touch on that subject.
    Dr. Bodman. Congressman, the--as I understand it, NIST was 
authorized, but there was not funding available for that 
particular initiative at NIST. And we certainly have the 
technological skills there to undertake and to perform the work 
that is required. But it is a matter of getting the funding 
that is required. The--when this initiative was put forth, we 
were most anxious that NIST be able--to be able to be used to 
set the standards, to set the technical standards and that 
there then be an interface outside of NIST, frankly, that would 
get into the political arena that would then find ways of 
implementing the standards and technologies that are developed 
there. We think the organization is there and in place and can 
function. It is a matter of getting the program funded.
    Mr. Nethercut. I am informed that there is money in the 
Omnibus, and I guess the question is are you willing to work in 
next year's budget for additional assistance that would help 
implement the program?
    Dr. Bodman. I don't have a specific answer. We will have 
someone talk to you who can talk to you. Dr. Bement.
    Chairman Boehlert. Would you please identify yourself for 
the record?
    Dr. Bement. Yes. Dr. Bement, Director of NIST. I have 
personally been visiting with voting equipment companies. They 
have alerted me of their needs, and also, I am beginning to 
meet with state election officials. So we are beginning to set 
the stage for getting the Advisory Committee for the--Committee 
in place. It is my understanding that in the Senate mark, there 
was $500,000 for '03. Hopefully that will be in the Omnibus 
Bill. That will enable us to begin work on technical standards 
and to begin working with the election commission to establish 
the Advisory Committee for that that are required under that 
Act.
    Mr. Nethercut. Thank you very much. Dr. Bodman, let me 
follow on with respect to your work with NOAA and the 
importance of that agency and the sub-agencies within NOAA. Let 
me talk with you about climate change, if I may, for a moment. 
I know that NOAA has been very involved in this--the 
international effort to address the issue of global climate 
change. Could you advise the Committee as to what the results 
of the December meeting were, what you expect to occur in the 
following year with respect to that important subject?
    Dr. Bodman. Yes, Congressman. First, for the record, there 
was a meeting held in early December, I believe December 5, 
that--it was over three days, 3, 4, and 5, I believe, that was 
chaired by Secretary Mahoney, who did an outstanding job. We 
had several members of the Cabinet, Dr. Marburger spoke, Dr. 
Colwell spoke, so we tapped into the science establishment, if 
you will, of the Federal Government. We also invited 
participants and interested observers from around the world. 
The--we started out with an expectation that we would have 400 
or 500 people from around the world who would attend. We ended 
up with 1,300 participants in that meeting. It was regarded by 
most participants that I spoke to as a unique event. We had 
everyone from the United Nations. There were people from--I 
don't have the number, but scores of different countries were 
represented. And the idea was to have an outreach to solicit 
ideas, thoughts, and an evaluation of a program, a research 
program that had been described and was made available on the 
website of the Commerce Department of NOAA's website. There 
were then--we had a number of working groups, 30 or 40 of them, 
something like that. There were 225 invited participants to 
participate in each of those working groups. They all were 
there basically to provide input and criticism for the proposed 
research program. We are now in the process of editing that. We 
are taking--we were--we will--we have solicited response from 
the National Academy of Sciences to the program as well. And 
the goal is, this spring, to publish again on the website the 
response to this entire effort, which has been quite 
substantial. That will be augmented by the next global 
gathering, which is scheduled for July, this summer, which is 
an international meeting that we will schedule on global 
observations so that we could hopefully take the money that is 
in the '03 and '04 budgets that are intended to augment the 
department's efforts in monitoring both meteorology as well as 
the oceans and to get a collective effort of all of the nations 
of the world so that we can have something that will match up 
with the research programs that are being developed as a 
consequence of the December meeting. So we think we are moving. 
We are quite enthused about it, and we are very gratified by 
the extraordinary response that we have had from other nations 
and, frankly, from a very wide range of people in our country 
who hold a wide range of views on climate science. It is not 
difficult to find a wide range of views, I know.
    Mr. Nethercut. I am sure.
    Dr. Bodman. But even on this committee we found a wide 
range of views, I remember last year.
    Mr. Nethercut. I am sure. Well, I appreciate your testimony 
on the commitment of the President and your agency to this 
issue. Thank you.
    Dr. Bodman. Thank you.
    Mr. Nethercut. Thank you, Chairman.
    Chairman Boehlert. Thank you very much. Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman. And I am--I know he has 
left the table, but I want to thank Mr. Hall for that kind 
introduction. I would also like to point out that I was brought 
on to the Science Committee to prove to the scientific 
community that not every man from Texas talks exactly like Mr. 
Hall. And as he pointed out, oil and gas is very important to 
Houston and to everyone in Texas, but I have always taken a 
strong stand against drilling on cemetery lots. The--so with 
that, I want to commend you all for your presentation. And 
thank you.
    My question has to do specifically with funding for NSF. 
And Dr. Colwell and Dr. Marburger, perhaps you can both comment 
on it. Dr. Colwell, I believe you said that you are calling for 
a three--or a nine percent increase for funding. If our 
analysis is correct, it looks the Administration is calling for 
somewhere around a 3.5 percent increase. And more specifically, 
I am concerned about how that might impact projects, 
specifically in the area of nanotechnology. Rice University is 
located within the 25th Congressional District. And last 
January, they announced an agreement with IBM for a major 
nanotechnology project that will be funded in large part with 
NSF funds. I am curious how that type of project will be 
impacted if you do not receive the funding that you deem 
necessary. And also, overall, there seems to be a pretty wide 
disparity between the allocation of funds for the biomedical 
sciences and for physical sciences and engineering. And will 
this imbalance of funding impact future plans and new 
innovations and advances in nanotechnology?
    Dr. Colwell. The--I would point out that the overall 
conclusion that I draw, really, from the budget is that the 
President is placing his full support and confidence in the 
National Science Foundation's mission and management, because 
he understands the NSF funded science is important. Clearly, we 
prepared our budget not knowing what the final appropriation 
would be for fiscal year 2003. But nevertheless, the increase 
that we got was more than doubled the rate of increase for the 
entire rest of the Federal Government's discretionary accounts. 
So when you consider the fact that $76 million in program 
transfers are not being reproposed, the actual entries for NSF 
is more like 11 percent over last year's level, which is nearly 
triple the amount of increase for the entire rest of the 
government's discretionary accounts. It is a notable increase.
    Now your comments address nanotechnology. Nanotechnology is 
clearly one of the major initiatives for the National Science 
Foundation, and it will continue to be addressed with funding. 
I do know that Richard Smalley is from your state, and he has 
been one of the major contributors to nanotechnology and the 
basic concepts. So I would assure you that nanotechnology will 
remain a priority and will certainly be at the top of our list. 
And I would suggest that Dr. Marburger may want to comment.
    Dr. Marburger. Yes, I would like to mention that because 
nanotechnology is a national priority, it received greater than 
the average amount of the increase that was proposed for NSF. 
According to our numbers from the budget, compared with the '03 
request, nanotechnology within NSF would go up almost 13 
percent as compared with the nine percent overall.
    Mr. Bell. Is that sufficient based on the request and the 
various efforts going around--going on across the Nation to 
move nanotechnology forward, Dr. Colwell, in your opinion?
    Dr. Colwell. I think that considering that the total budget 
is approximately that which is being invested by Japan in 
nanotechnology that we should not do less. We need to maintain 
the level that we are at.
    Mr. Bell. Thank you.
    Dr. Colwell. Also, you pointed out the concern about math 
and physical sciences. I am truly delighted that we will have 
in this budget over a billion dollars for the math and physical 
sciences, the largest increase in the research area for the 
mathematics, physics, material science, chemistry. These are 
very, very important areas that seed the advances in the 
applications of energy, medicine, etcetera.
    Mr. Bell. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. Dr. Burgess.
    Dr. Burgess. A question for Dr. Bodman: the Committee has 
been concerned about the problems that NOAA has had with 
delivering satellite data products to weather forecasters and 
archiving the satellite data. Like Mr. Hall and Mr. Bell, I am 
from Texas as well, and we are always concerned about the 
weather and your ability to forecast it down in Texas. But 
additionally, we are concerned about how NOAA will manage the 
tremendous increase in weather data that is on the way and what 
plans specifically does NOAA have to address these critical 
issues?
    Dr. Bodman. Well, as the Congressman, no doubt, is aware, 
there are new satellites that are being designed and that are 
coming into use. NOAA has devoted first resources within NOAA 
so that we can put that information to best use within the 
weather service. That--with the new information, also, it is 
being--that the software is being developed and approaches are 
being developed within the Defense Department who shares the 
information that comes out of these satellites. In addition to 
that, we have an ongoing program for upgrading the Radar, the 
so-called NEXRAD system, that are installed on ground. And so 
the challenge will be to integrate these--the new technologies 
that are available with respect to the Radar--the advancement 
of the technologies in various Radar installations and 
integrate that with the satellite system. All of that is 
included as a portion of the--of this '04 budget.
    Dr. Burgess. And then just a follow-up to that, the ability 
to archive the satellite data for critical research purposes, 
do you feel comfortable with your ability there?
    Dr. Bodman. We believe that we will be able to archive the 
data and have that available for future research; yes, sir.
    Dr. Burgess. Thank you, Mr. Chairman.
    Chairman Boehlert. Dr. Bodman, I want you to know you--
NOAA's got a new fan, the weather service. On a recent visit 
with some of your key people, I learned about something that I 
think every American should know about. For 25 or 30 bucks, you 
can go down to Radio Shack or some place and buy this little 
radio. You can bring it home, and you sit it there, and it 
self-activates when you want to get--when there is an emergency 
weather warning from the National Weather Service. I mean, it 
can sit there and never has to do anything but sit there and 
maybe collect a little dust, so when I help with the 
housecleaning, I have to dust it. But it is just marvelous, and 
I was not aware that that existed. And it can be programmed in 
your local area, so that at any given moment, you just press 
the button, and it gives you an instant weather report. But the 
thing that--and I think this has homeland security implications 
incidentally, and I am talking with the people over there 
because the new Under Secretary for Science and Technology that 
this committee helped create for the Department of Homeland 
Security, I want to make sure he knows all about this. But I 
would hope that your staff could get some more information on 
that capability to all of us, because I think every Member of 
Congress should put it in his or her newsletter. And I bet you 
down in Texas, Dr. Burgess, most of your people already have 
one of these instruments.
    Dr. Burgess. Yes, sir. That is correct. And of course, 
Radio Shack is a good Texas company.
    Chairman Boehlert. Well, that is why I thought I would give 
them a part, too. But----
    Dr. Bodman. Chairman--oh, excuse me, sir.
    Chairman Boehlert. Please, respond.
    Dr. Bodman. I was just going to make a comment. First, I am 
very pleased that you are enthused about the product. Secondly, 
I can tell you as a user of the product, you have to be careful 
that at 11 o'clock on Wednesday, if it is sitting there on your 
desk collecting dust, they put out a test signal once a week. 
And so you can be interrupted in whatever you are doing, so you 
should be prepared for that.
    Chairman Boehlert. Well, we are all about it anyway, so we 
are always alert.
    Dr. Bodman. Well, this helps reinforce that, and I would 
also comment to you that within the '04 budget that has been 
proposed to this committee, is $5.5 million for the upgrade of 
the NOAA weather radio system such that it can be used for a 
much wider variety of emergencies, namely that we have many 
people throughout the country that have been using these 
devices for some time. They are used to it. People who--
farmers, in particular, whose livelihood depend on the weather, 
and therefore, there is a user group. And we hope to be able to 
tap into people who are already used to this system and then 
finding new converts, like yourself, that we can use this 
system for any kind of national emergency, other than just 
weather. And so that is in the budget, and we would hope for 
your support on that.
    Chairman Boehlert. Well, I wouldn't describe me as a 
convert, because I didn't know a darn thing about it. I am just 
enlightened now, and that is one of the benefits for Members of 
Congress to get out from behind their desk or out from behind 
the podium like this and go out and visit and learn from the 
people in the field. But I have to believe that every school in 
America should have one, that capability, every hospital in 
America, and quite frankly, I think every home in America. And 
we are not talking about a major investment. And it is not 
something Uncle Sam is going to pay for and just start 
distributing all of these, but there should be a program.
    Dr. Bodman. Well, in response to your request, we will 
certainly do our best to make sure that every member of the 
Committee has appropriate information on the device so that if 
there are those members who wish to include that in their 
newsletters to their constituents, we would be most 
appreciative. NOAA does--really, it is a home of great science. 
I would tell you, sir, however marketing is not yet our strong 
suit. We are working on that. And we could use some help, and 
if members of the Committee would help us, we could use it.
    Chairman Boehlert. We will do our best. And the newsletter 
is a nice vehicle, but I am working with my staff people to try 
to find some way to--that we can come up with some resources. 
And I don't know if they are government or foundation or 
donation, but I want to make sure that every school and every 
hospital and every place where there is a concentration of 
people in my district have one of these. And I want to make 
certain that every one of the people I am privileged to 
represent is aware of their availability and their capability. 
I mean, there are so many applications that--well, enough said 
about that. Mark that down that I gave a plug to--a couple of 
plugs to Texas. Mr. Davis.
    Mr. Davis. Well, it is certainly good to be on the 
Committee. I represent an area that from time to time--we talk 
about Silicon Valley being, I guess, a technology quarter. But 
we have Oak Ridge, Arnold Engineering Center and just south of 
us in Bud Cramer's district is Marshall Space Institute. So 
we--my district is composed of many different agencies and 
organizations that really have been a major part of technology 
and the advancement of technology. The research certainly at 
Oak Ridge, the wind tunnels at Arnold Engineering Center have--
it has been a major part of our national defense, testing 
basically every military plane that has flown today.
    It is good to be on the Committee. I didn't realize I was 
going to be up to talk, so--but it is certainly good to be 
here, and I look forward to learning and listening as this 
committee advances into hearings in the future.
    Chairman Boehlert. Thank you very much. And our next 
elevated member of the panel, the new Subcommittee Chairman for 
the Subcommittee on Energy, the distinguished gentlelady from 
Illinois, Ms. Biggert.
    Ms. Biggert. Thank you very much, Mr. Chairman, and it is 
nice to be with all of you again. And I--but unfortunately, I 
always come with this--the same thing, and I hope it--that we 
can solve this problem so I won't become a broken record all of 
the time.
    I am extremely disappointed in the overall budget proposed 
for DOE's Office of Science. I am really puzzled why this 
happens, because it is the government's largest supporter of 
the physical sciences, the DOE's Office of Science. And in many 
cases, it is the only supporter of certain physical science 
disciplines, like fusion energy science, heavy element 
chemistry, catalysis high-energy physics, and nuclear physics. 
And I do have a bill, H.R. 34, which I introduced last year and 
reintroduced this year very early on. It means so much to me, 
H.R. 34, so I would hope that you would take a look at it. And 
it really does propose increasing of the funding for DOE Office 
of Science, 60 percent in four years. And I know the NSF and, 
Dr. Colwell, you do a great job, but we just need this other 
element, too, and I think just a little more parity. And I 
think just to say that the Spallation Neutron Source is being 
reduced, so there really is more money. And that can--that goes 
on in every agency, but when you really limit, you know, the 
increase to such a small amount, it really is flat funding.
    And one question I wanted to ask for Mr. Card just in the 
short time that--in--the President announced in June of 2001 a 
new Climate Change Science Initiative, which has already 
reviewed the entire federal climate science portfolio and 
produced a draft plan for focusing the government's efforts in 
this area and to guide the future climate research. And then on 
the same day, the President announced a similar initiative for 
climate change technology. And I don't--and unfortunately, I 
don't think the DOE has made public a review and has not 
published any draft plan. Will DOE produce such a plan this 
year in time to influence--well, it would have to be the fiscal 
year 2005 budget now, I suppose, unless there is something that 
I haven't seen in the fiscal year 2004. And does that involve 
outside scientists and stakeholders just as NOAA has done in 
shaping the climate science plan?
    Mr. Card. Well, first of all, it is DOE's hope to be able 
to produce a plan this year. I want to assure you that the lack 
of a published plan is not resulted in a lack of planning or 
activity. So as I announced in my written testimony and in the 
oral testimony, there is really quite dramatic re-
prioritization and shifts going on to address the issue and a 
strong interagency effort. The programs have substantially 
different origins, which explains the relative difficulty of 
organization. The science program, of course, started ten years 
ago and has had time to work things out. And also, as you saw 
from Dr. Bodman's chart of funding, is really evenly 
distributed amongst many agencies, including the Department of 
Energy, whereas in the technology program, Department of Energy 
is the overwhelming contributor of about 90 percent of the 
funds at this point. And so figuring out how to organize that, 
which we have done now, and we just announced a new full-time 
director of that program to keep pace with the excellent work 
of Dr. Mahoney at Commerce.
    And so we have a high degree of confidence that we will be 
able to get alignment within the Administration to issue a 
report this year.
    Ms. Biggert. So it should be by the end of this year or----
    Mr. Card. I would hope by--I'll go out on a limb here and 
say I hope certainly by summertime that it will be out.
    Ms. Biggert. Thank you. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you, and I thank the 
witnesses for being here today. Dr. Bodman, let me ask you a 
little bit about the wind profile network operated by NOAA. The 
Administration's budget request for '04 retires that system. 
And as you know, the NOAA wind profiler network is the only one 
of its kind. It was instrumental in helping NASA track the 
debris of the path of the Columbia Space Shuttle and is also 
used by the National Weather Service, the Department of Energy, 
the Department of Defense, Department of Transportation, 
private meteorologists, and a number of people in the private 
sector in weather forecasting tornadoes, thunderstorms, and 
things of that nature. I am wondering why the Administration is 
terminating this program.
    Dr. Bodman. I don't have a quick answer. I am going to ask 
the--Admiral Lautenbacher to speak to it in a minute. I will 
just tell you that we continue to make investments, propose 
investments, which are in the budget, as I mentioned before, in 
new Radar systems, in new satellite technology that will enable 
us to do a much better and increasingly good job with 
continuous improvement over time of forecasting the kinds of 
weather events that you describe. What the wind profiler effort 
is, I frankly don't know, but let me ask the Admiral.
    Admiral Lautenbacher. I'm Conrad Lautenbacher, Under 
Secretary of Commerce, Administrator of NOAA. Thank you very 
much, sir. The wind profiler, as many of you are aware, was a 
research and development program. It has been going on a number 
of years, and it has basically reached maturity. We had some 
very hard decisions to make given the budget constraints that 
we had. I asked all of our laboratories to look very hard at 
programs that have been going on for quite a while that had not 
become useful operational tools. In other words, that they 
would progress from research into our 24/7 weather forecasting, 
environmental forecasting, management of coastal zones, 
etcetera. This program has been a great tool in the research 
area, but it did not turn out to be cost-effective in terms of 
integrated it into our normal 24/7 forecasting system. So in a 
very difficult budget area, we had to slow down the development 
of the program, so it has very little funding attached to it at 
this point. It doesn't mean that it doesn't have some value for 
various parts of our country, but when we looked at it in terms 
of our overall budget, that is the decision that was made.
    Mr. Costello. Did the system, the wind profiler network, in 
fact, help NASA track the debris for the Columbia Space 
Shuttle?
    Admiral Lautenbacher. The data was useful. And NASA asked 
us for every piece of data that we could find. And we took 
every system we had, whether it was in research, operations, 
satellites, our Radar systems, and our computational capability 
and gave them everything we could. The data from the Radar 
profiler system was offered to them.
    Mr. Costello. And the cost of operating the system annually 
is----
    Admiral Lautenbacher. About four to five million dollars a 
year.
    Mr. Costello. And how much will it cost to shut the system 
down?
    Admiral Lautenbacher. Well, there is a varying estimate to 
that, but it will probably phase out at about--it will probably 
be three to four million dollars to shut it down over a period 
of time.
    Mr. Costello. And when--obviously these are difficult 
budget times, we have to make decisions, you--your people 
analyzed, as you said, this research and development project. I 
wonder if you might submit to us, to the Committee, the 
analysis that was done by your staff in making this 
determination.
    Admiral Lautenbacher. Absolutely. We would be pleased to.
    Mr. Costello. And a final question on the wind profiler 
network, we realize that the budget includes money to expand 
the capability of NEXRAD, but it is two different systems, as I 
understand it. And it would seem to me that NEXRAD complements 
the wind profiler system, and I would just ask that you take 
that into consideration, and your staff as well.
    Admiral Lautenbacher. Yes, sir. I appreciate your interest. 
We will certainly continue to look at it.
    Mr. Costello. And a final question. Mr. Card, I appreciated 
the comments made by Mr. Hall from Texas about coal, and I want 
you to know that we have an abundance of coal in the center of 
this country and a lot of it in southwestern and southern 
Illinois, so I will be talking to you about clean coal research 
and things of that nature. But I have a question concerning the 
self-regulation. As you know, for many years this committee and 
others had proposed that we go to an external regulation as 
opposed to self-regulation of occupational health and safety 
issues at our nuclear facilities and civilian DOE labs. And I 
just wonder where we are in that effort to come up with 
external regulation as opposed to continuing to self-regulate 
the industry and the business.
    Mr. Card. Where we are today is Congress has taken control 
of that process and directed the Department of Energy to cease 
and desist on studies or other aspects of self-regulation until 
we are--we promulgate an internal regulation dealing with 
occupational safety. And that was in the Defense Authorization 
Act. So we are busy trying to get that done. Right now the 
forecast is the end of this year on an expedited schedule to 
get that done. And when that is done or we get other direction 
from the Congress, we look forward to resuming our look at 
self-regulation.
    Mr. Costello. And if the Congress tells the Office of 
Science to implement external regulation, how long would it 
take to get a program up and running of external regulations?
    Mr. Card. It really depends on the facility. The--just 
quickly, some of the issues in self-regulation are--would 
primarily involve OSHA and the Nuclear Regulatory Commission as 
how are those programs implemented at our laboratory sites. So 
as we were studying this, before we were told to stop, we were 
analyzing, for example, at our Berkley lab, I believe it is the 
city of Berkley, has the OSHA enforcement authority. And the 
question is as competent as the city is, they are not used to 
regulating that kind of a facility. So we were looking how can 
we establish MOUs with OSHA and the states on who is going to 
be the regulator.
    Then there were other legacy issues. Some of our 
facilities, you know, are quite old. And we have some, like 
Thomas Jefferson Laboratory here in Virginia, that are new. And 
so the thinking we were on at the time that we stopped was to 
begin with the simpler new facilities in states with the more 
straightforward regulatory approach from an NRC and OSHA 
perspective and move on from there.
    Chairman Boehlert. Thank you very much. Dr. Bartlett.
    Dr. Bartlett. Thank you very much. Mr. Chairman, I noted 
with appreciation the modest increases in funding for basic 
research. But I would like to note that the funding is still 
far from adequate. It is a truism, I think, that not adequately 
funding basic research is analogous to the farmer eating his 
seed corn. If you do not plant, you will not harvest. And if 
the harvest is engineering applications, which fuel our economy 
and support our military, then the planting is certainly basic 
research. And our inadequate funding of basic research for the 
short-term puts at risk our economic superiority in the world. 
In longer term, it will put at risk our military superiority. 
We have got to correct the under-funding of basic research.
    I would just like to make a comment or two on oil. We are 
one person out of 22 in the world. We use 25 percent of the 
world's oil. We have two percent of the known reserves of oil 
in the world. There are about 1,000 giga-barrels, and this is a 
generally agreed on number, 1,000 giga-barrels of oil in the 
world. You divide into that our 20 million barrels a day and 
the world's 60 million barrels a day, you come out with roughly 
40 years of known reserves of known reserves of oil in the 
world. We will certainly find more oil, but we would certainly 
like to use more oil. And our third world countries would like 
to do for their people what we have done for our people to 
industrialize and improve their quality of life.
    And we will be very lucky, Mr. Chairman, if the oil we find 
matches the additional oil we would like to use. I think the 
reasonable assumption is the world has about 40 years of known 
reserves of oil in the world, and that is about what is 
available there. Every year, since 1970, with a tiny blip for 
Prudeau Bay we have found less oil and pumped less oil in this 
country. In 1982, we spent more energy looking for oil than we 
will ever get from the oil that we found in 1982. I am opposed 
to drilling in ANWR and under Lake Michigan and off the coast 
of Florida, not for any environmental reasons, although there 
may be environmental argument. I am opposed because if you use 
25 percent of the world's oil and import 56 or 57 percent of 
what you use, I don't think it makes any sense to rush out and 
pump that measly two percent reserves that you have. This may 
be a rainy day. I think there is going to be a rainier day, and 
I would like to husband those meager reserves we have for a 
more difficult time in the future.
    I have two questions relative to these comments. First, how 
do we go about getting an understanding of the importance of 
basic research and more money for basic research? And secondly, 
how do we educate our public and our public officials so that 
they understand the energy challenges that we face in the 
future? We are not going to drill our way out of this. By the 
way, I think the world has drilled about four million oil 
wells. We have drilled three million of them in this country. 
There is a reasonable agreement by a number of experts that no 
matter how feverishly we drill in those few known reserves that 
we yet have, that we will not increase oil production in this 
country. It will continue to go down. Certainly, it will not go 
down at as fast a rate if we are drilling in our oil reserves, 
but the general consensus is that it probably will continue 
going down. We desperately need more research and alternatives. 
We need to free ourselves for economic reasons, for political 
reasons from foreign oil. How can we educate our public and our 
public officials so that we can have the appropriate emphasis 
on this?
    Dr. Marburger. I guess I answer questions like that, 
Congressman. I think the activities of this committee are very 
important in educating Congress and the American public. I have 
been impressed with the pointedness with which these questions 
have been raised in this committee, and I have also been 
impressed with the response. We certainly try to respond, in my 
office, to direction from this committee. And I believe that 
time and again, you have emphasized important strains and 
important aspects of the Nation's need for science.
    This budget comes in a time when the economy is weak, 
recovering slowly, when there are other national priorities for 
national defense and homeland security. And there has been a 
real effort to prioritize, based, to a great extent, on 
priorities that have been identified in hearings that this 
committee has sponsored. And that is why, as you look through 
this budget, the details really do tell a story of commitment 
to basic research and to funding those priority areas even when 
funds are short. So if you look at the funding for priorities 
that this Administration has identified, you will find over and 
over again very substantial increases in nanotechnology. And 
even in the Office of Science, for example, the amounts of 
increased money that are invested in nanotechnology are very, 
very substantial. National Science Foundation, not every 
program gets increased, but those that are most important do. 
So I think if we continue to work together like this, identify 
priorities and then, as the funds become available, it is 
important for Congress to pass the budgets and fund the 
requests. It--and I think we can make progress that way.
    Chairman Boehlert. Thank you very much. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Dr. Bartlett, if basic 
research is the seed corn, it would seem to me that maybe the 
germination for that seed corn might be the researchers and the 
scientists that leads us to where we go in encouraging more 
individuals in the K through 12th grade to be interested in 
math and science, where we go in terms of doing better jobs at 
our colleges and universities. You know, I think there is good 
news and bad news in this budget. The President's budget for 
the National Science Foundation, our basic research 
institution, is nine percent above what the Administration 
requested last year. That is the good news. However, right now, 
we are writing into the Omnibus Appropriation Bill, an 11 
percent increase of where we were over '02. And that means that 
the Administration's request comes down to a 3.2 percent 
increase over the bill that we are going to pass this 
afternoon. And compared to our National Science Foundation 
Authorization Bill, that means it is going to be approximately 
14 percent below the authorized level that the President signed 
into law on the 19th of December.
    I think we are in a new era of challenges from terrorism to 
where we go on protecting our national security. That means 
that all spending has to be reviewed and I think a greater 
challenge to the research community in trying to make sure 
that, if you will, the taxpayer gets a greater bang for their 
dollar that they are investing in research. To me, Rita, I 
think part of that means that we have got to do a better job in 
tech transfer. We have got to look at ways where we can maybe 
encourage the business private community to cooperate and 
invest more with our research, basic research community. And if 
you are going to end up in encouraging that kind of a 
partnership, then it has got to be a win/win proposition where 
we win in terms of expanded research, where business wins in 
terms of some greater ownership of what might result from that 
basic research as far as licensing or as far as property 
rights. I commend you, Dr. Colwell, for beginning to meet 
several of the requirements of the NSF Authorization Bill, 
including those provisions related to the major research 
equipment account. And I am certainly interested in working 
with NSF to see that several of our other Committee priorities 
come to fruition, such as the plant genome and gene expression 
centers and the centers for research on learning and math and 
science.
    Regarding the major equipment account, I was pleased that 
you have some prioritization in terms of the listing and 
regarding the breakdown between directorates, but still, it is 
not all there. I have not seen language describing the criteria 
used to develop the list nor a description of the major factors 
for each project that determines its ranking on the list. And 
this information is required to be annually submitted to 
Congress prior to any budget appropriations, so maybe, Dr. 
Colwell, start with bringing us up-to-date on that MRE account.
    Dr. Colwell. If I may, I would like to comment very briefly 
on your other points, because they are so very important. We 
have been focusing on management, and we have, as you know, the 
only green lights in the entire Federal Government for 
financial management and for e-business. And we are working 
very, very hard on human resource and the other of the 
President's management agenda, because that is one way to make 
sure that we spend the money wisely for the taxpayer.
    Secondly, education is absolutely critical, which is why we 
have focused on the GK-12, bringing graduate students into the 
K-12 classroom to bring the excitement. And we have focused on 
the science of learning centers that you also referred to.
    With respect to tech transfer, we do have an increase in 
the budget requested for Partnerships and Innovation, because 
that is to work with communities to--for economic development 
of just the sort that you have been describing.
    With respect to the management of our large facility 
projects, we have had a very successful record of providing 
state-of-the-art facilities for science and engineering 
research. And we have taken several steps already to ensure 
that the policies and practices will continue to serve the 
scientific community and the Nation well. We have provided more 
formal guidance in ground policy manuals for handling the 
research construction funds. We have completed our very large 
facility projects management and oversight plan that outlines 
the goals and strategies for integrating current procedures 
into the next generation of facility projects. We have 
established----
    Chairman Boehlert. You have done great work, but our time 
is getting short.
    Dr. Colwell. Okay.
    Chairman Boehlert. And you have got to catch your plane 
pretty soon.
    Mr. Smith. Just a quick comment on making the MRE more 
transparent and helping to go along with what we have suggested 
in the bill.
    Chairman Boehlert. Thank you very much. And now, a very 
patient Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman. I am convinced that I 
got put on this committee so that an M.D. would be forced to 
see what a real doctor really looked like. And I have been 
very, very impressed with the testimony. And it is--I look 
forward to working on the Committee and working--let me ask 
just a very brief question to Mr. Card.
    Mr. Card, recently, the Department of Energy discontinued 
the funding for the PubSCIENCE on your website. This service 
provided access to abstracts of a wide range of scientific 
publications with links to available sources of information. 
And we feel--I feel this was an invaluable tool for science 
teachers around the country. And I understand that there are 
some alternative sources available, but they are either too 
expensive or provide much less information than what was being 
provided under PubSCIENCE. Is this an issue that DOE would be 
willing to take another look at to either urge the commercial 
services to provide more information to the public school 
teachers or possibly to consider restoring PUB service--
PubSCIENCE?
    Mr. Card. Well, we are always willing to reevaluate 
decisions made that--the PubSCIENCE decision was a difficult 
one. We agreed that it was a successful undertaking. However, 
we also believe that we shouldn't be competing with the private 
sector. And it was felt that for the core purpose of PubSCIENCE 
that there were viable alternatives out there. We would 
certainly be delighted to help look for ways that we might be 
able to supplement that, if the Committee would like to see how 
we can help the private sector solution work better. But that--
and again, in challenging budget times, we concluded that it 
was best to give the private sector a full crack at that and 
see how it would work out.
    Dr. Gingrey. But you would be willing to relook at that and 
to work with the private sector in trying to make sure that the 
services they provide are comparable to what our teachers were 
getting with the PubSCIENCE----
    Mr. Card. Certainly. I will respond for the record on that 
question.
    Dr. Gingrey. Thank you, Mr. Card.
    Chairman Boehlert. Thank you very much. Here is how we are 
going to wrap up. I have just got two quick questions for Dr. 
Marburger and Dr. Colwell on one of my favorite subjects, cyber 
security. And then we will go to Dr. Ehlers for a summation, 
because I have to go to another commitment.
    Dr. Marburger, I didn't see anything in the proposed budget 
for '04 for the Department of Homeland Security [DHS] for cyber 
security. Is that something that is going to be a little bit 
slower in getting started up? I mean, it is one of my passions, 
and I know it is a passion that you share. And we have to deal 
with it. It is very real.
    Dr. Marburger. Yeah, cyber security is essential. It is 
important for us to have a sustained research program in this 
area. The important thing to note with respect to activity in 
the Department of Homeland Security is that there are many 
other places, many other federal agencies that are funding 
research in this area. And it is important to determine what 
the domain will be within DHS. That is the major issue, I would 
say.
    Chairman Boehlert. Not as many as we would like and not as 
much as we would like. And that is one of the things we 
discovered when we developed this whole proposal, and that is 
why I am so glad the President signed their legislation, 
because it was all over the place about $60 million and a 
little bit here and a little bit there. And nobody was really 
doing their job, which brings me to Dr. Colwell.
    Dr. Colwell. Yes.
    Chairman Boehlert. As we have given the job to you, and we 
have made NSF the lead agency. And we have $105 million 
authorized, yet only $35 million requested. Is that sufficient 
to get us going where we need to go?
    Dr. Colwell. Well, let me just say that right now, we are--
we have the federal cyberservice scholarships. We--the research 
in the CISE directorate, the trusted computer program--trusted 
computing program, that is about $80 million in requests. And 
we have got 140 proposals, and we only have about $5 million in 
'02. And it is slated to grow. On network security, the funding 
is roughly around $4 million. And middleware security is 
another important area. We have requested an additional $20 
million for these programs in cyber security. Clearly, this is 
an area that we really have to emphasize. And the funding that 
we asked for is critical. I laud your support and your 
interest, because it is probably one of the most important 
things we can do as a nation.
    Chairman Boehlert. No question about it. When we were 
talking about cyber security two years ago, and we experienced 
this. We brought up the subject. It drew muffled yawns. After 
9/11----
    Dr. Colwell. Yes.
    Chairman Boehlert [continuing]. We got their attention. And 
this is part of the dilemma people in your positions face. We 
just had the previous questioner talking about PubSCIENCE, 
which is unquestionably very valuable. It is a great resource 
for our young people and our schools, but to equate, for 
example, PubSCIENCE with the cyber security on a priority 
scale, I don't think there is any doubt in anyone's mind. What 
we would like to have is both, but we have got some difficult 
choices to make. I just want to make sure from Dr. Marburger 
and to you, Dr. Colwell, because of the responsibility we 
placed on your shoulders to be the lead agency to deal with 
this, that we really are very serious in dealing with it, 
because we are talking about very serious business. Thank you 
very much.
    Dr. Colwell. May I make one comment, Mr. Chairman, because 
I would like to point out that September 1, 2001, the National 
Science Foundation announced a cyber security program. That was 
a week before September 11.
    Chairman Boehlert. Thank you very much. Keep it up. Dr. 
Ehlers.
    Mr. Ehlers. Mr. Chairman, while you are moving over to the 
Chair, may I just request that NSF submit for the record the 
criteria that you are using for the MREs?
    Dr. Colwell. We will, sir.
    Chairman Boehlert. Yes. And all of the witnesses should 
know, the customary practice, there may be some additional 
questions from the panel that would be submitted in writing, 
and we would obviously appreciate timely and complete 
responses. Dr. Ehlers will take the Chair. The Committee is 
his.
    Mr. Ehlers [presiding]. Now that I am in charge, this could 
go on for a few more hours. Actually, I have a 12:15 meeting, 
so it won't be that long. I would like to follow up on a few 
issues that were raised, first a few relatively minor ones. On 
the radios that the Chairman referred to, I also wanted to 
announce, and you can market this, there is a radio with a 
crank on the back, which brings us back about 50 years, but it 
is incredibly valuable during tornadoes and other activities 
when you--your batteries might run out, so I want to mention 
that.
    Also, something else you should publicize, Dr. Bodman, Dr. 
Bement, is the new clocks and even wristwatches tied to the 
time standard. I have one in my office here, and that is why I 
was the only member on time here today. It is accurate to a 
millionth of a second or better. So keep up the good work, and 
we will do what we can to publicize it.
    On a more serious note, tying together comments of Ms. 
Biggert, Dr. Bartlett, and Mr. Smith, they reflect a trend. 
Congress is often accused of not thinking past the next 
election. Presidents are often accused of the same thing. That 
is not really fair. We do much better than that. But there is 
that tendency. And we have a lot of brainpower represented here 
on this panel and the agencies you represent. It is very 
important that in the field of science, with the ability you 
have, you represent the long-term planning horizon, which this 
country needs. I have been cursed throughout my entire life 
with long-term planning horizons. I think they are absolutely 
essential, but that does handicap one in Congress at times. But 
this has to be done. The issue, for example, of energy supply.
    It is very easy to say, ``Well, we have enough oil. Why 
should we worry about it?'' You know, ``All we worry about is 
the price at the pump.'' But if you look at the long-term 
picture, our nation has huge problems, and that is why the 
Hydrogen Initiative and other things are so important. The 
increased amount of money of research, it is not just a matter 
of seed corn. And I will get to some questions, but I have to 
do some editorializing first. It is not just a matter of seed 
corn. That is very important. But again, the long-term picture, 
as Dr. Smith--Mr. Smith mentioned about the educational aspects 
of it. And I have devoted most of my life to that and my life 
in Congress as well. We have to do it. The--we are worried 
about our national security now. Billions upon billions of 
dollars are being poured into our defense, both homeland and at 
our Defense Department. And yet, a small portion of that spent 
in your areas is going to add more to our national security for 
the long term than the short-term events we are dealing with 
this year in homeland security and in our Defense Department. 
So we have to unite. I will certainly do my part in the 
Congress, as I have tried to do. You are going to have to carry 
the load in the administration on some of these issues and some 
of this thinking.
    On a few specific things, I mentioned earlier the doubling 
of the NSF. It is--my efforts are going to be in doubling the 
research portion of the budget in all of your agencies and 
other agencies besides. Ms. Biggert has a bill in to double the 
DOE research effort. And I am a strong supporter of that and 
will be working on that. And Mr. Card, I think it is essential 
that the research effort in your department get the priority it 
deserves. I will also argue against cutting of PubSCIENCE 
simply because that is a great way of educating the public 
about what you do. And NASA has been a genius in educating the 
public over the Internet and getting political support. I find 
across the country, there is not much political support for 
DOE. And the more you do in that direction, the better.
    Just a few specific questions to wrap up, and if you want 
to give any response to my comments, you are welcome to. But I 
am going to depend on you to try and gauge in this long-term 
planning that we desperately need.
    Mr. Card, you mentioned the hydrogen program. And I am 
totally in favor of that. I wish we had started 10 years 
before, and that is where the long-term part comes in again. We 
are behind the eight ball. But at the same time, I am a little 
worried about calling it the hydrogen program, because there 
are other options out there in terms of fuel cells, which may 
prove to be better than hydrogen, but we just haven't done the 
complete research on it yet. And so I urge you to go into this 
with an open mind. There are a lot of problems remaining with 
hydrogen. Right now, it looks very good, but huge 
infrastructure problems that have to be addressed if this is 
going to work. That includes where do we get the supply of 
hydrogen. If we get it from petroleum, we haven't solved our 
dependency problem. We haven't solved the climate change 
problem. So we have to look at alternatives there. Where are 
the people going to get the hydrogen? Corner service stations 
are going to have to be completely change. The oil supply 
mechanism has to be effective. So there are huge infrastructure 
problems.
    And if you look at all of that, as well as the science, you 
may find other alternatives that are better. I can't guarantee 
it. I am just saying they have to be looked at. So think 
seriously about that as you enter that program.
    Mr. Bodman, a specific question, I am concerned about the 
NOAA satellite program, and I recognize the increase in NOAA. 
You have been quite generous, but there is a huge expense 
coming forward in the NOAA satellite program that has to be 
done right, because that is going to determine the data we 
receive for the next decade or two. And so I question 
specifically on that. Are you sure there is enough money there 
to deal not just for the research responsibilities of NOAA but 
also the satellite program and to totally and properly manage 
that in a way that is going to produce the results we are going 
to need for the next two decades?
    And Dr. Colwell, I know you have a plane to catch. If you 
have to leave at any time, feel free to walk out.
    Dr. Colwell. Thank you very much.
    Mr. Ehlers. We don't shoot the witnesses in this committee.
    Dr. Colwell. Thank you.
    Dr. Bodman. With respect to the satellite program, we have 
done our best, Congressman Ehlers, to make judgments as to the 
survivability of the current satellites that are there, both 
the so-called POESS satellites as well as the GOES satellites, 
the polar orbiting ones and the geo--stationery ones. And the 
challenge is to make sure that we are spending money at a rate 
years in advance. The next satellite will be launched in 2009, 
and the next GOES satellite is scheduled for the year 2012, at 
least these new systems that we are putting in, it is 2012. So 
we are starting to--this budget contains funding for both. 
During this past year and August of last year, we have signed a 
contract for the POESS satellite, and we are, I would say, 
comfortable that we have sufficient funding and the sufficient 
commitment to this to get this job done, provided that we don't 
have more slippage. When you have something that is being 
funded today that is not due to be launched until six years 
from now or 10 years from now, there is always a tendency on 
the part of those who are examining the budget, ``Well, what 
difference would it make if you just slip it another year?'' 
And frankly, we--at least in my judgment, I think we are in a 
satisfactory position today, I would describe it to you.
    But I don't think we have a lot of room for error in 
further slippage in funding in the years ahead. And so I think 
I am comfortable to come to you with this budget that we will 
be able to get the job done or our successors will be able to 
get the job done eight and 10 years from now. But we will not 
be able to, even in tight times, reduce these budgets in the 
years out that will be required to get the job done.
    Mr. Ehlers. Thank you. And I encourage that I am 
particularly concerned about additional expenses coming along 
or inadequate funding, because we have to go forward on it, and 
that will hurt your--the rest of your research program, because 
you are going to have to take that money to put into a 
satellite program.
    Mr. Smith wanted 60 seconds for a question, and then we 
will go back to the panel.
    Mr. Smith. Wouldn't it be nice, Mr. Ehlers, if Michigan, 
you, and I could just keep these four witnesses and just get 
everything out of them and also relay to them some of our 
interests? Dr. Marburger, yesterday, of course, we met with 
Administrator O'Keefe. How was the--and I have got--had two 
kids that worked with the JPL. They have been trying to 
convince me over the last 10 years that unmanned space flight, 
for 90 percent of the research would be much more effective and 
efficient. How is the Administration going to proceed to 
evaluate the right balance between manned and unmanned space 
flight, and how much of that research could be done on the 
ground in terms of a tight budget that we are looking at and a 
greater effectiveness for our effort?
    Dr. Marburger. Well, I can't give you a ratio off the top 
of my head, but that is certainly an important factor of NASA 
planning is to find an appropriate balance and appropriate 
roles for manned and unmanned research. We do both of them now. 
There certainly is going to continue to be review of the long-
range plan for space exploration. There is an appropriate role 
for humans in space. It is a hazardous environment. We have to 
make sure that the missions that humans are involved in are 
best possible--they take the best possible use of these very 
important missions. And I believe that there is a planning 
mechanism in place. NASA is doing that. We are watching it. But 
as far as giving details at this point, I think that is 
premature.
    Mr. Smith. Just in conclusion, Mr. Chairman, thank you. 
NASA is somewhat biased, it would seem to me. It seems to me 
that the science community must be part of the kind of 
information that is needed to get the right balance.
    Dr. Marburger. That is true. And they do have access to 
external expertise.
    Mr. Ehlers. Thank you, Mr. Smith. Just a minute or two if 
any of you wish to comment on my earlier statements, I would be 
happy to entertain those. Mr. Card, you look like----
    Mr. Card. Sure. Well, I would just like to say and give 
greetings to both of you from your Michigan colleague, 
Secretary Abraham. And I certainly hope the Committee 
recognizes the--that the hydrogen program, and I accept your 
comments that we don't want a central planning exercise. And 
certainly the program is designed to allow industry to help 
direct us where we want to go with the program. But it 
represents a major acknowledgment and commitment to our future 
energy supply. And I just want to call attention again to the 
Committee that the oil issue is why you are seeing a hydrogen 
program and coal and nuclear and renewables and the other 
energy sources. So when the President announced the program, 
both in the State of the Union and later last week, he 
recognized that between that and the ITER program was an 
acknowledgment that we need to find new energy sources to deal 
with the end of the century. So that would be my comment. Thank 
you.
    Mr. Ehlers. Just a quick comment on that. Be real careful 
about relying too much on the industry. I have a great deal of 
respect for them, but this infrastructure system, the easiest 
thing for them to do is precisely what they are doing now, and 
that is planning to put reformers on the automobiles and 
continue to pump gasoline into the cars, because that is the 
easiest approach now. The infrastructure is there. I am saying 
we have to really rethink what the infrastructure should be if 
we are going to reduce the dependence.
    Mr. Card. And I just want to acknowledge the Secretary just 
had a meeting of major oil executives in Houston and gave a 
speech to them on that very subject, and I think the industry 
understands that our desire is to have--to put hydrogen in 
vehicles and not something else.
    Mr. Ehlers. Yeah. Thank you. Dr. Marburger.
    Dr. Marburger. Yes, and I would like to just add a word 
about the very big picture of funding for basic science. This 
committee has been very supportive of it. I just want to point 
out that basic science, it covers a very wide spectrum of 
activities. And there is a dynamic that is occurring in science 
right now that draws attention to certain areas and makes them 
very high priority for national investments. And this 
Administration will continue to attempt to discover priority 
areas and address the needs in those areas. There is 
nervousness about arbitrary formulas. I have--I said it last 
year, and I will say it again this year that it is really 
important to--in a time when there are lots of demands on 
public resources to be very conscious about what our criteria 
are, what our priorities are, and take care of the highest 
priority areas and fill in as we can the ones that are lower 
priority. I think that is what this budget is all about. And I 
look forward to working to continue to identify priority 
programs and funding them adequately.
    Mr. Ehlers. And I appreciate your comments and your work. 
Let me simply--just to give an example for the military, in the 
1930's, work was done in stimulated emissions radiation, which 
in the '50's, resulted in the laser. The atomic clock was 
developed based on research in the '40's, and that was 
developed in the '50's. Both of those enable our precision 
bombing today whether using GPS, that is based on the atomic 
clock, or using laser-guided weapons based on the laser, 
obviously. No one in the 1930's, '40's, '50's, even the '60's 
and '70's, ever thought that either of those would result in a 
huge military advantage for our country. And that is why it is 
so difficult to set priorities. And the essence of basic 
research is that if you knew what you were going to find, it is 
not basic. Basic research is really exploring the future that 
you can't see and recognizing it is going to have implications.
    Thank you all very, very much for being here. You have been 
an excellent panel, very sage advice for us. I appreciate your 
presentations. The meeting is adjourned.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John H. Marburger, III, Science Advisor to the President; 
        Director, Office of Science and Technology Policy

Questions submitted by Chairman Boehlert

Q1. LThe Administration has identified increased funding for the 
National Science Foundation (NSF), and the physical sciences in 
particular, as being significant budget priorities. With the completion 
of final appropriations for fiscal year 2003, the increases requested 
for federal science and technology programs are much smaller than was 
indicated in your testimony before the Science Committee on February 
13. For example, the 9 percent increase touted for the National Science 
Foundation is only slightly more than a three percent increase relative 
to the fiscal year 2003 appropriation.

    LDoes the Administration believe that NSF should receive a 
significant increase above last year's appropriated amount? Will the 
Administration submit an amended budget request for R&D programs?

A1. The Administration will not change the 2004 budget based on the 
program or agency levels included in the 2003 Omnibus bill. The 
President's 2004 Budget was developed within a framework that set a 
proposed total for discretionary spending in 2004, and each agency and 
program request reflected the Administration's relative priority for 
that operation within that total. While we recognize that Congress may 
believe there is a need to reorder and adjust some of these priorities, 
the Administration intends to work with Congress to stay within the 
2004 top-line amount, with the possible exception of addressing threats 
to the Nation's security. With regard to NSF specifically, the 
President's 2004 budget continues to provide a strong investment in 
excess of previously appropriated levels, reflecting this 
Administration's commitment to funding research.

Q2. LThe events of September 11, and subsequent computer viruses and 
worms have highlighted the vulnerability of our nation's critical 
infrastructure to attacks upon our computer networks. Congress 
responded by enacting P.L. 107-305, the Cyber Security Research and 
Development Act. This legislation authorized new computer security 
research programs at the National Science Foundation and the National 
Institute of Standards and Technology.

    LInvestments are also being made at other agencies that participate 
in the interagency national information technology research and 
development program (NITRD).

    LLast year, the Committee asked the Office of Management and Budget 
how much money the Federal Government invested in cyber security 
research and development (excluding cryptography). The question could 
not be answered because cyber security research and development was not 
considered an important enough activity to be accounted for separately 
from other information technology research and development investments. 
How much money does the Administration intend to spend on cyber 
security research and development as part of its fiscal year 2004 
budget, and at which agencies? How will this investment be coordinated?

A2. Investments in cyber security and cyber security R&D are extremely 
important to the Administration. Information on the following is 
currently collected and reported:

        <bullet> Linformation technology (IT) security (from IT project 
        information collected from each agency),

        <bullet> Lnetworking and IT R&D (a coordinated interagency R&D 
        effort), and

        <bullet> Lcritical infrastructure protection R&D (part of the 
        combating terrorism data).

    Finding the intersection between these collections and identifying 
activities relevant to cyber security R&D that fall outside each of 
these efforts is key to getting a clear picture of the total federal 
cyber security R&D investment, but has proven challenging. OSTP and OMB 
are currently working to address these issues and develop a definition 
of cyber security R&D that agencies can use to identify and report on 
their planned FY 2005 activities. Agencies will be asked to quantify 
cyber security R&D funding within their FY 2005 request.
    It is also important to note that federal funding represents only 
part of the picture; the private sector also makes significant R&D 
investments that contribute to cyber security capabilities. By 
continually reassessing the combined investments of all sectors, we can 
take advantage of all developments and applications and better 
understand where future investments should be made. Funding levels can 
provide some perspective, but it is the particular activities funded 
and the effective coordination and application of their outcomes that 
promises to advance the security of our IT systems.
    As you know, coordination of Networking and Information Technology 
R&D (NITRD) investments are handled through the National Science and 
Technology Council (NSTC), and these include most of the efforts 
relevant to cyber security. The NSTC structure is in the process of 
being updated to include a Subcommittee on Infrastructure, under which 
there will be a focus area on R&D related to the protection of critical 
information infrastructure. Agency representatives common to both 
groups will provide an additional level of coordination.

Q3. LIn Under Secretary Card's written testimony submitted to the 
Science Committee for its February 13 budget hearing, he indicated that 
the Department of Energy's (DOE) portion of the Climate Change 
Technology Program (CCTP) comprised $1.6 billion in research and 
development (R&D) programs. During the hearing, Mr. Card added that 90 
percent of the CCTP resides in the Department of Energy. Can you 
provide details on the remaining $200 million in climate technology R&D 
that resides in other agencies?

A3. The FY 2003 budget request included $ 1.625 billion in climate 
change technology R&D funding, including $1.511 billion at DOE. 
Relevant research and development at DOE is in the areas of renewable 
energy ($408M), energy conservation ($588M), carbon sequestration 
($54M), basic science ($35M), energy information ($3M), clean fossil 
energy ($398M), and the Nuclear Energy Research Initiative ($25M). In 
addition, about $108 million was proposed for R&D at EPA, and $6 
million at USDA. More specific program details can be found in the 
Federal Climate Change Expenditures Report to Congress, July 2002.

Q4. LThe President's fiscal year 2004 budget request includes $7 
million for a new Next Generation Computing Architecture program at the 
Department of Energy (DOE). My understanding is that this program will 
explore the question of whether DOE should embark on a program to 
develop vector architecture-based high performance computers, a 
development path quite different than that pursued by other agencies, 
including the National Science Foundation and the National Oceanic and 
Atmospheric Administration. How does DOE's new program fit in with 
advanced computation development activities at other agencies and how 
are these efforts coordinated across the Federal Government?

A4. The Next Generation Architecture program at DOE is a $14 million 
program that will explore technical issues related to high-end 
computing system architectures. The results of this program are 
expected to aid in the design of new generations of systems at DOE as 
well as at other federal departments and agencies with high end 
computing related activities. The program itself is not directly 
intended to address the question of whether or not DOE will undertake a 
particular high performance computing program in the future.
    Among federal agencies, DOE has the second-largest investment in 
high-end computing R&D (after NSF). Traditionally, interagency R&D in 
high-end computing has been coordinated through the High End Computing 
Coordinating Group of the National Science and Technology Council's 
(NSTC's) Networking and Information Technology Research and Development 
(NITRD) Interagency Working Group. This group includes representatives 
from DOE and ten other federal agencies involved in high-end computing 
R&D, and meets on approximately a monthly basis to engage in 
interagency planning and coordination activities.
    A separate interagency group, the High-End Computing Revitalization 
Task Force, has been established, also under the NSTC, for the purpose 
of conducting planning activities that will help guide future R&D 
investments in this area.

Q5. LThe President's budget fiscal year 2004 budget request indicates 
that a total of $3.2 billion is proposed for research and development 
(R&D) to combat terrorism. Of this, over $900 million is requested for 
R&D at the Department of Homeland Security (DHS), and $1.6 billion for 
biodefense R&D at the National Institutes of Health. What agencies and 
what programs account for the remaining $700 million of 
counterterrorism R&D? How will the DHS programs be coordinated with the 
relevant work at other federal agencies? In particular, since a large 
fraction of the DHS R&D is development and applied research, how will 
DHS take advantage of results from the basic research being done at 
other agencies? How will the Office of Science and Technology Policy 
and the Office of Homeland Defense coordinate these activities?
A5.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

Coordination:
    Several mechanisms exist for coordinating Homeland Security R&D 
across agencies. These include:

        <bullet> LCoordination of homeland security R&D across the 
        federal agencies and departments is being done through the 
        National Science and Technology Council (NSTC). The President 
        chairs the NSTC, and membership consists of the Vice President, 
        the President's Science Advisor and Director of OSTP, Cabinet 
        Secretaries and Agency Heads with significant science and 
        technology responsibilities, and other White House officials. 
        OSTP manages the committees of the NSTC. Homeland Security 
        working groups being formed under the NSTC Committee on 
        Homeland and National Security include Radiological and Nuclear 
        Countermeasures; Biological Countermeasures; Social, 
        Behavioral, and Education; Standards; International Issues (to 
        include biometrics); and Infrastructure.

        <bullet> LIn addition, the Homeland Security Council (HSC), 
        which is the successor to the Office of Homeland Security, is 
        organizing several Policy Coordinating Committees to serve as 
        the senior policy and subject matter expert forum for 
        consideration of policy issues affecting homeland security. The 
        Office of Science and Technology Policy (OSTP) is working with 
        the HSC to provide technical expertise as needed.

        <bullet> LA Memorandum of Agreement (MOA) between the 
        Department of Homeland Security and the Department of Health 
        and Human Services commits to bilateral and multi-lateral 
        coordination on research and development. Provisions in this 
        MOA include joint development of an R&D strategic plan, 
        participation in interagency R&D working groups, and routine 
        exchange of senior scientific staff and management/program 
        personnel.

Questions submitted by Representative Ralph M. Hall, Ranking Member of 
                    the Science Committee

Q1. LThe President's FY 2004 NASA budget request projects an almost 
five percent cut in funding for aeronautics technology through FY 2008. 
Given that the budget numbers now include personnel and benefits costs 
in the totals, the projected decline in funding actually allocated to 
aeronautics R&D projects is probably even steeper. This policy decision 
to decrease funding for aeronautics flies in the face of the Aerospace 
Commission's finding that the Nation needs to invest more in 
aeronautics technology. Can you explain why the Administration has 
decided to do this?

A1. NASA's aeronautics research investments should not be judged solely 
on year-to-year funding trends for NASA's overall aeronautics budget. 
NASA's aeronautics budget supports a large number of research programs 
and projects in varying stages of development. The trend in the overall 
aeronautics budget can mask actual program increases and previously 
planned decreases within this total. As described below, the FY 2004 
request for NASA funds a number of important program initiatives and 
increases that are consistent with priorities identified in the 
Aerospace Commission report. More importantly, as NASA Administrator 
Sean O'Keefe has pointed out in prior testimony, the most important 
measure of NASA's aeronautics research investments is not the dollar 
amount going into these programs but the utility of the research 
products coming out of them.
    The FY 2004 budget request for NASA's Aeronautics Technology 
programs is $959 million, a one percent increase (+$12 million) from 
the 2003 budget request. Within this total, a number of key programs 
are supported consistent with the priorities identified in the 
Aerospace Commission report, including investments in technologies to: 
improve aviation safety and security ($169 million), modernize the air 
transportation system ($217 million), and develop the breakthrough 
technologies necessary to enable the next generation of air vehicle 
systems ($574 million). Within these amounts, there are a number of 
important initiatives and increases, which are also consistent with 
priorities identified in the Aerospace Commission report. These 
include:

        <bullet> L$27 million to enable the transition of technologies 
        into the future National Airspace System;

        <bullet> La $15 million increase for the Quiet Aircraft 
        Technology program to develop technologies that can help reduce 
        jet engine and aircraft noise; and

        <bullet> L$21 million to develop technologies that can help 
        protect aircraft and the airspace system from criminal and 
        terrorist attacks while dramatically improving the efficiency 
        of security.

    NASA investments in these technology areas represent a balanced 
approach to long-term, high-risk, high-payoff research and in both 
nearer-term and longer-term research focused on public good issues.
    It should also be noted that the overall budget decreases shown for 
FY 2005 through FY 2008 can be primarily attributed to the Airspace 
Systems program, within which two major projects are planned for 
completion. The Advanced Air Transportation Technologies (AATT) project 
will be completed in FY 2004 and the Virtual Airspace Modeling & 
Simulation (VAMS) project will be completed in FY 2007.

Q2. LIn your testimony, you point out that the budget request provides 
$100 million for FAA ``to maintain its focus'' on safety and 
environmental (noise & emissions) research. This proposal cuts the 
budget for these activities by 21 percent from the FY 2003 request and 
34 percent below the FY 2002 appropriations level. Explain the 
rationale and justification for cuts of this magnitude for research 
activities that are central to the future safety and competitiveness of 
the U.S. air transportation sector.

A2. The $100 million budget for FAA research, engineering, and 
development maintains its strong commitment to safety at this agency. 
While it is true that budget reductions totaled 21 percent from the FY 
2003 request, it is not true that research activities related to 
enhancing safety and the environment have been compromised.
    The Administration recognizes that research efforts are critical to 
the reduction of aviation accident rates. In fact, the Aviation System 
Safety program has been increased by four percent from $42.3 million to 
$44.0 million. The Environment and Energy program request was also 
increased, from $7.55 million to $7.975 million. Another clear example 
of the FAA focus on safety is illustrated by the $1.5 million increase 
(to $20.9 million) in weather research safety.

Q3. LIn your testimony you mention that the National Science and 
Technology Council will be reviewing management aspects of research 
funding including an investigation of the changing business model for 
research. What exactly are the characteristics of the ``changing 
research environment'' that you cite as being in need of 
``modernization''?

A3. OSTP and others are keenly aware that much has changed about the 
practice of scientific research over time. Researchers in an increasing 
number of fields are requiring ever more complex and expensive tools to 
carry out their work. Furthermore, many of the most compelling 
questions facing science today can only be tackled by larger groups of 
researchers working across traditional disciplinary boundaries. The 
purpose of the Subcommittee on Research Business Models is to advise 
and assist OSTP and the NSTC on policies, procedures and plans relating 
to business models for the performance and management of federally 
sponsored scientific research. The Subcommittee will facilitate a 
strong, coordinated effort across federal agencies to identify and 
address important policy implications arising from the changing nature 
of scientific research noted previously. The Subcommittee will also 
examine the concomitant influence these changes have had or should have 
on business models and business practices for the conduct of scientific 
research sponsored by the Federal Government and carried out by 
academic, industrial, and government entities.
    The NSTC Subcommittee on Research Business Models is co-chaired by 
Dr. Constance Atwell of the National Institutes of Health and Dr. 
Rodney Brown of the U.S. Department of Agriculture. Initially, the 
subcommittee will focus on policy issues related to three broad areas: 
(1) defining common language and streamlining procedures and 
regulations among the research funding agencies, (2) alignment of 
funding mechanisms with scientific opportunities, and (3) investigating 
how the changing nature of scientific research in academia and 
government laboratories affect the cost of research.

Q4. LYou point out in your testimony that in 2004 all federal R&D 
managers must demonstrate the extent to which their programs meet the 
tests of relevance, quality, and performance. What guidelines and 
metrics are available to assist R&D managers in matching programs 
against these broad criteria? For basic research programs, for example, 
what would be reasonable metrics for assessing performance?

A4. Metrics for measuring R&D program performance form only one part of 
the overall effort begun under the President's Management Agenda to 
improve the effectiveness of the Federal Government's research and 
development investments. The framework provided by the R&D investment 
criteria seek to bring information about three fundamental aspects of 
R&D--relevance, quality, and performance--into the process for making 
budget decisions. The criteria outlined in last year's joint OSTP-OMB 
guidance for interagency R&D provided guidelines in the broad sense, 
but specific guidelines and especially metrics must be determined in 
the context of each type of research program.
    For most research programs, this was the first year of 
implementation of the investment criteria. A number of agencies are 
recasting their strategic plans to tie more directly to the R&D 
criteria, and others are revising their research performance goals to 
be both clearer and more ambitious.
    OSTP remains involved in the effort to improve the management and 
effectiveness of the Federal Government's research and development 
programs. OSTP has established an interagency working group to discuss 
implementation of the investment criteria. As part of that effort, OSTP 
commissioned the RAND Science & Technology Policy Institute to 
undertake a project this year that will assist agencies and OMB by 
seeking out and documenting short case studies of the ``best 
practices'' or mechanisms used to evaluate relevance, quality, and 
performance of federal R&D programs. The results are intended to enable 
agencies to learn from one another with the ultimate goal of improved 
R&D program management and effectiveness.
    Direct assessment of performance of basic research programs is 
notoriously difficult, due to the long time horizons for research 
payoffs and the uncertainty of results from cutting edge research. 
Therefore, in approaching the assessment of basic research programs we 
took an approach of leaning heavily on the judgments of independent 
review boards as they assess the way the research programs are 
structured, managed and overseen. This allows a fresh view of the 
program by technical experts at an arm's length from the program.
    OSTP guided the development of a small number of sensible 
performance metrics for the basic research programs in the General 
Science & Technology function (Function 250). These metrics, though not 
all inclusive, indicate that large construction projects should not 
exceed more than 10 percent of cost or schedule baselines, that 
scientific facilities should deliver at least 90 percent of scheduled 
operating hours, and that at least 80 percent of research funds should 
be awarded using a competitive, peer-reviewed mechanism.

Q5. LPlease explain OMB's Program Assessment Rating Tool (PART), which 
was developed for evaluation of federal science agencies' programs. Did 
OSTP contribute to the development of PART?

A5. The Program Assessment Rating Tool (PART) is a questionnaire 
designed to provide a consistent approach to rating programs across the 
Federal Government. The PART is a diagnostic tool that helps develop 
evidence-based assessments and evaluations of programs across a wide 
range of issues related to performance including program purpose and 
design, strategic planning, management and results and accountability. 
The questions are designed to reflect familiar concepts and incorporate 
existing practices managers and program examiners utilize to assess 
program performance. The formalization of performance evaluation 
through this process is intended to develop defensible and consistent 
ratings of programs for the FY 2004 budget and beyond.
    The questions are written in a Yes/No format (except for one 
section, in which there are four options for responses) and require 
users to provide a brief narrative explanation of the answer including 
any relevant evidence to substantiate the answer. Responses should be 
evidence-based and the worksheet requires that the explanation and 
evidence of the answer be provided. The completed PART worksheets and 
summaries are available to the public on the OMB website (http://
www.whitehouse.gov/omb/budget/fy2004/pma.html). Unless otherwise noted, 
a Yes answer should be definite and reflect a very high standard of 
performance. Hard evidence of performance may not be readily available 
for all programs. In these cases, assessments will rely more heavily on 
professional judgment. No one question in isolation will determine the 
performance of a program. In fact, reviewers have the option of 
skipping,questions that are not relevant to a particular program.
    PARTs were tailored to seven types of federal programs. Research 
and development was one of those seven program types. While OSTP was 
not involved with the development of questions that were common to all 
seven PARTS, OMB based the R&D PART in large measure on the R&D 
Investment Criteria that OSTP worked with OMB to develop. OSTP has been 
asked for comments for the 2005 revisions to the PART, along with all 
federal agencies and the public.

Q6. LWhat is the relationship between PART and GPRA?

A6. The PART builds on the GPRA framework. The PART incorporates 
information about program design and purpose along with program and 
financial management into the GPRA framework of strategic plans, 
performance plans, and performance reports.
    The PART requires OMB and agencies to choose performance measures 
that meaningfully reflect the mission of the program, not merely ones 
for which there are data. The measures are intended to reflect a sense 
of program priorities and therefore will likely be few in number. As a 
general approach, measures should reflect desired program outcomes and 
be limited in number; however, there may be instances where a more 
narrow approach is more appropriate and output measures are acceptable. 
The discussions on performance measures are one of the most valuable 
aspects of the PART process.
    The existing Government Performance and Results Act (GPRA) 
performance measures served as starting point, although in many cases 
they needed to be revised significantly or new measures needed to be 
developed to meet PART standards, in particular its focus on outcomes. 
New measures developed while completing the PART should be included in 
agency strategic and performance plans.

Q7. LWhat role does the PART evaluation have in determining agencies' 
funding levels? Please provide examples from the FY04 budget submission 
of the way in which PART or other metrics developed for evaluation of 
R&D programs have shaped funding requests or program directions.

A7. Funding decisions in the FY 2004 budget request were shaped with 
the assistance of both the PART and the R&D investment criteria, 
especially for applied energy research programs and projects at the 
Department of Energy. The results of these evaluations resulted in 
shifting funding from activities supporting technologies that are near 
commercialization, such as clean coal demonstration projects, to long-
term, high-risk R&D, such as research on new ways to store large 
amounts of hydrogen in small spaces. This hydrogen research will help 
advance the introduction of fuel cell vehicles. In another case, the 
investment criteria were used to determine that the Advanced Petroleum-
Based Fuel program supplants private investments that would otherwise 
be made to achieve the clean air requirements of EPA's regulations. The 
FY 2004 budget proposes significantly reduced funding for this program.

Q8. LSixteen Democratic Members of the Science Committee sent a letter 
to President Bush on February 6th expressing concern over the perceived 
lack of independence of the Space Shuttle Columbia Accident 
Investigation Board and asking him to take steps to rectify the 
situation. At the February 12th joint hearing on the accident, a number 
of Republican members indicated that they share these concerns.

    a. LHas the President asked your opinion on this issue?

    b. LWhat, if anything, would you recommend that the President do in 
response to the bipartisan concerns over the Accident Investigation 
Board charter and membership?

A8. Immediately following the February 1 Columbia accident, NASA 
Administrator Sean O'Keefe established the Columbia Accident 
Investigation Board (CAIB) to provide an independent panel of experts 
to investigate the cause of the accident. The CAIB was established in 
accordance with the contingency action plan that NASA had updated prior 
to the Columbia launch, as it does prior to each launch of the Space 
Shuttle or International Space Station expedition crew. Retired U.S. 
Navy Admiral Harold Gehman was appointed as chair of the CAIB.
    Since the establishment of the Gehman Board, Administrator O'Keefe 
has modified the charter of the CAIB on three occasions--February 6, 
February 12, and February 18--without prompting by the White House. 
These modifications to the charter have been made to ensure the 
independence of the Board, the presence of the right expertise on the 
Board, and freedom of the Board to draw upon whatever resources may be 
necessary from within and outside of NASA to complete the 
investigation.
    With regard to my communications with the President, on the day of 
the Columbia accident, I briefed the President, along with Dr. 
Condoleeza Rice and Secretary Tom Ridge, about the accident, the 
initial stages of the debris recovery efforts, and the initiation of 
NASA's contingency action plan. Since then, I have spoken to him on a 
number of occasions about the Columbia investigation. I have complete 
confidence in Admiral Gehman, his staff, and his independence in 
conducting this investigation and believe that any further changes to 
the CAIB, its charter, or its membership should be determined by 
Admiral Gehman, and I have communicated this to the President.

Q9. LWhat changes will you make to the Administration's plans for the 
Nation's space program in response to the loss of the Space Shuttle 
Columbia? If you don't yet know, have you set up a process to make that 
determination? If so, what is the process and when will it be complete?

A9. It is too early to assess what the impact of the Columbia accident 
will be on our nation's activities in space. We will await the findings 
and recommendations of the Columbia Accident Investigation Board (CAIB) 
before making any decisions regarding changes to the Space Shuttle, 
International Space Station, and other space programs. At this time, no 
formal process has been established to review CAIB's recommendations.

Q10. LThere have been press reports that the U.S. government is in 
discussions with Russia regarding Russian support for the Space Station 
while the Shuttle fleet is grounded. Is that true? If so, what is being 
proposed?

A10. NASA has been engaged in discussions with its international 
partners, including Russia, regarding how best to maintain and support 
the International Space Station (ISS) until the Space Shuttle fleet is 
able to return to flight. At a February 27 Multilateral Control Board 
(MCB) meeting, the international partners reached consensus on reducing 
the ISS expedition crew from three to two, consisting of one Russian 
and one American. U.S. astronauts Edward Lu and Michael Foale are 
currently in Russia training as a prime and backup at the cosmonaut 
training facility, Star City, along with cosmonauts Yuri Malenchenko 
and Alexander Kaleri. Consensus was also reached on adding one Progress 
flight in each of 2003 and 2004. NASA is in discussion with its 
international partners regarding seeking a partnership solution with 
respect to any additional resources that may be required to maintain 
the Station in orbit while the Space Shuttle fleet is grounded.

Q11. LThe Administration has been criticized for having applied 
ideological litmus tests and for not having written conflict-of-
interest policies for nominees to scientific advisory panels. What role 
does OSTP play in establishing rules and guidelines for the selection 
of individuals to serve on scientific advisory panels for federal 
agencies? What criteria should be applied to the selection of such 
individuals in addition to their scientific and technical credentials?

A11. OSTP does not play a role in establishing rules and guidelines 
that federal agencies use in the selection of members of scientific 
advisory panels. We believe that individuals' scientific and technical 
credentials must be of the highest calibur in order to carry out the 
critical assignment of ensuring that public funds are invested wisely 
in areas and projects that meet the most stringent test of merit.

Q12. LSome universities have reported problems with foreign graduate 
students being able to obtain visas to enter the U.S. This has occurred 
with new students and with enrolled students attempting to return to 
the U.S. after brief visits home. Are you aware of these problems, and 
does your office have any interactions with the Department of State to 
help ensure the visa approval process is not unnecessarily impeding 
university-based research?

A12. Yes, I am well aware of the problems, and OSTP has been and 
continues to work with State, FBI, CIA and other relevant agencies to 
address the problems of the visa delays for students, scientists and 
researchers. OSTP is working actively to eliminate two sets of 
backlogs, one on Condor cables and one on Mantis cables. Condor cables 
are generic reviews and background checks to screen for an applicant's 
ties to terrorism. The backlog on Condor cables grew over the summer of 
2002 and impacted students trying to enter the U.S. to begin the Fall 
semester. On September 4, 2002, OSTP and the Office of Homeland 
Security (now the Homeland Security Council (HSC) ) met with the 
relevant agencies to surface inefficiencies and improve the screening 
process. As a result, a backlog of over 10,000 visa applications was 
reduced, and the Condor reviews are on track to be completed within 30 
days unless the visa applicant requires additional screening.
    Mantis cables are substantive reviews and background checks to 
screen S&T-related applicants for potential violations of 
nonproliferation and export control laws based on a ``Technology Alert 
List.'' The State Department vastly expanded its Technology Alert List 
last August, 2002, and included a number of course work categories that 
are provided by universities, such as chemical engineering, 
biochemistry, microbiology, architecture, housing, urban design and 
others. The State Department reports that their action raised the 
volume of Mantis cables from 2,000 in CY 2001 to over 14,000 Mantis 
cables in CY 2002. The Mantis program has been the primary bottleneck 
impacting visa delays for scientific conferences, students returning 
from the December holiday, H1Bs returning from trips overseas, 
government-scientist meetings and other science and technical research-
related visa problems. Although the nonproliferation department at 
State coordinates the technical reviews, FBI and CIA checks are also 
required on these visa applications. On January 29, 2003, OSTP and HSC 
met with the relevant agencies to surface problems in the Mantis visa 
screening process and to encourage State and FBI to improve the 
timeliness and efficiency of visa processing. OSTP and HSC are having 
ongoing meetings with State and FBI to work on these issues, and we 
have specifically asked them to review the entire backlog of cases and 
ensure that all applications are being handled as efficiently as 
possible. As a matter of policy, OSTP does not intervene in individual 
visa cases.

Q13. LOverall, what has been the effect on the ability of U.S. 
universities to obtain foreign graduate students of efforts to more 
closely monitor foreign students for homeland security needs? What is 
the current status of the implementation of SEVIS for tracking foreign 
students?

A13. The effect on universities to obtain international students is not 
entirely clear. A survey by the American Association of Universities 
and the NAFSA Association of International Educators, published on 
November 14, 2002 showed that the number of enrollments of 
international students at U.S. universities had increased and that the 
number of scholars on J-visas had declined. Students from some 
countries (i.e., China) were impacted more than others. What is unknown 
is the extent to which increases in university enrollments in 
Australia, the United Kingdom, or a student's home country is 
attributed to the (actual or perceived) fear of new security measures.
    The current status of the SEVIS tracking system is that as of March 
1, responsibility for SEVIS has transitioned to the Department of 
Homeland Security, Border and Transportation Security Directorate. At 
the time of transition, 4,121 schools and 1,200 J-programs had been 
cleared to use SEVIS (almost 100 percent of J-programs). In Regulation 
67FR-76256, published 12.11.2002, INS promised to finish adjudicating 
all schools by January 30, if they completed the application process by 
November 15. New SEVIS school applications continue to roll in at the 
pace of 20-50 per day. These are adjudicated on a rolling basis. There 
are also some schools whose applications were incomplete, who bounced 
checks, or have not yet responded to INS requests for additional 
information. The total number of applications submitted in various 
stages and which are continuing to be processed as of today is 1,600. 
The next major challenge for the SEVIS program will be completing the 
batch upload process for schools reporting existing international 
students through SEVIS. All international students (F, M and J visa 
holders) are to be registered through SEVIS by August 1, 2003.

Q14. LPlease describe how the agencies' requests for observing systems 
and science data management are coordinated. What is OSTP's role in 
coordination?

A14. Some observing systems (climate, oceans, earth, etc.) and related 
data management activities are coordinated through a variety of 
interagency mechanisms. For example, the Climate Observing System is 
being developed and coordinated by the 13-agency Committee on Climate 
Change Science and Technology Integration. The Ocean Observing System 
is being handled the congressionally mandated National Ocean Research 
Leadership Council. Efforts to establish a broader Earth Observing 
System are being led by the National Science and Technology Council. 
OSTP plays a major role in each of these activities--providing policy 
guidance and budgetary review in collaboration with the Office of 
Management and Budget. Other observing systems (e.g., observations that 
occur at NSF LTER sites and observations related to seismic and 
volcanic activity) require less interagency coordination or OSTP 
involvement.
                   Answers to Post-Hearing Questions
Responses by Samuel W. Bodman, Deputy Secretary, U.S. Department of 
        Commerce

Questions submitted by Chairman Sherwood Boehlert

Q1. LThe combined National Oceanic and Atmospheric Administration and 
Department of Defense budget request for the National Polar-Orbiting 
Environmental Satellite System (NPOESS) for fiscal year 2004 is $560 
million, which is about $50 million less than the program's budget 
planning document states is required this year. What alterations to the 
program are expected given the reduced funding request? Will the 
decrease in expected funding change the number or specifications for 
the sensors? Please provide a specific list of the sensors that are 
currently planned and what function each will perform. Will the first 
satellite be ready for launch in 2009, which is already a postponement 
from the original plan?

A1. The FY 2003 President's Budget Request of $474.5 million ($237.3 
million for the Department of Commerce/NOAA (DOC/NOAA) and $237.2 for 
the Department of Defense (DOD) ) supported the following NPOESS-
related launch dates:

        <bullet> LCY 2005 launch of the NPOESS Preparatory Project 
        (NPP), a risk-reduction mission for NPOESS; and

        <bullet> LCY 2009 for the launch of the first NPOESS satellite, 
        C-1.

    The FY 2004 President's Budget Request is $544.7 million, of which 
DOC/NOAA's portion is $276.7 million, and DOD's portion is $268.0 
million. This FY 2004 request supports:

        <bullet> LCY 2006 launch of NPP; and

        <bullet> LCY 2009 launch of the first NPOESS satellite, 
        followed by launch of the second NPOESS satellite in CY 2011.

    The FY 2004 President's Budget Request was submitted before receipt 
of the FY 2003 enacted amounts. Therefore, FY 2004 program planning was 
based on the FY 2003 budget request, revised funding profiles after the 
award of the NPOESS prime contractor, and a thorough review of the 
satellite systems and user requirements. The FY 2003 Omnibus 
Appropriation for the NPOESS program was less than was requested by the 
President. The overall loss in funding was $28.893 million to the 
combined program, of which NOAA's reduction was $23 million. The NPOESS 
Integrated Program Office is currently reviewing the impacts on the 
overall program schedule.
    At this time, we do not anticipate any decreases in satellite 
capability, neither in number nor performance of sensors. The only 
addition in the proposed sensor package was the addition of the aerosol 
polarimeter, which was determined to be necessary after the submission 
of the FY 2003 President's Budget.

Planned Sensors:

Visible/Infrared Imaging Radiometer Suite (VIIRS):
    Three orbits, high precision, near constant resolution, multi-
spectral imagery (22 ``colors'').

        <bullet> LImagery* \1\
---------------------------------------------------------------------------
    \1\ * Note: Environmental data types with Key Attributes which 
would require replacement of a satellite if a sensor becomes unable to 
perform.

---------------------------------------------------------------------------
        <bullet> LSea*, ice and land surface temperature

        <bullet> LAerosol particle size and optical thickness

        <bullet> LSurface albedo

        <bullet> LCloud cover, layers, particle size, optical 
        thickness, height, and pressure/temperature of tops

        <bullet> LOcean color/chlorophyll

        <bullet> LPrecipitable water and suspended matter

        <bullet> LSea ice characterization

        <bullet> LSurface type and vegetative index
Conically-scanning Microwave Imager and Sounder (CMIS):
    Three orbits, imagery through clouds and sounding.

        <bullet> LSea surface winds*

        <bullet> LSoil moisture*

        <bullet> LCloud base height and ice/liquid water

        <bullet> LAtmospheric pressure, moisture and temperature 
        vertical profiles (low resolution)

        <bullet> LSea, ice and land surface temperature through clouds

        <bullet> LPrecipitation type and rate

        <bullet> LSnow cover and depth

        <bullet> LAtmospheric total water content

        <bullet> LSurface type and sea ice characterization
Cross-track Infrared and Microwave Sounding Suite (CrIMSS):
    Pair of sounding instruments on two orbits (comprised of the Cross-
track Infrared Sounder (CrIS) and the Advanced Technology Microwave 
Sounder (ATMS) ).

        <bullet> LAtmospheric pressure, moisture* and temperature* 
        vertical profiles (high resolution)
Ozone Mapping Profiler Suite (OMPS):
    Single orbit of ultraviolet down-looking and horizon-viewing 
instruments.

        <bullet> LOzone total column map and vertical profile (Treaty 
        Requirement)
Space Environmental Sensing Suite (SESS):
    Collection of instruments to measure ionospheric and 
electromagnetic space conditions.

        <bullet> LAuroral boundary, energy deposition and imagery

        <bullet> LElectric and geomagnetic fields

        <bullet> LElectron density and neutral density profiles

        <bullet> LEnergetic ions and medium energy charged particles

        <bullet> LSupra-thermal-auroral particles

        <bullet> LIn-situ plasma temperature and fluctuations

        <bullet> LIonospheric scintillation (in-situ)
Global Positioning System Occultation Sensor (GPSOS):
    Ionospheric sounding instruments on one orbit.

        <bullet> LElectron density profile

        <bullet> LIonospheric scintillation (horizon)
Earth Radiation Budget Sensor (ERBS):
    Single orbit to record balance of reflected and emitted energy. 
Used to help model the Earth's energy balance to understand climate.

        <bullet> LDownward radiance, long- and short-wave

        <bullet> LNet heat flux

        <bullet> LNet solar radiation, top of atmosphere

        <bullet> LOutgoing long-wave radiation, top of atmosphere
Total Solar Irradiance Sensor (TSIS):
    Continuously measures energy from the sun from a single orbit. Used 
to help model the sun's energy input to the Earth. With the EBBS, helps 
understand Earth's energy balance to understand climate.

        <bullet> LSolar irradiance
Altimeter (ALT):
    Single highly precise radar altimeter.

        <bullet> LOcean wave characteristics

        <bullet> LSea surface height/topography (used to see if the 
        ocean is rising)

        <bullet> LWind stress
Aerosol Polarimetry Sensor (APS):
    Single sensor. Measures the distribution and shape of small 
particles suspended in the air. This gives indications as to source--
natural or man-made.

        <bullet> LAerosol optical thickness, particle size and 
        refractive index

        <bullet> LCloud particle size and distribution
    In addition, some satellites carry the following instruments:
Search and Rescue Satellite Aided Tracking (SARSAT) (all satellites)
ARGOS Data Collection System (ADCS) (two orbits)
Survivability Sensor (SS) attack warning sensor (all satellites)

    Three orbital planes are polar sun-synchronous orbits with local 
ascending node times (equatorial crossing from south to north) of 1330, 
1730 and 2130 hours.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

    All satellites can accommodate all instruments. The configuration 
launched is determined at the time of call-up depending on the 
operational needs of the environmental satellite data using community.

Q2. LThe events of September 11, and subsequent computer viruses and 
worms have highlighted the vulnerability of our nation's critical 
infrastructure to attacks upon our computer networks. Congress 
responded by enacting P.L. 107-305, the Cyber Security Research and 
Development Act. This legislation authorized new computer security 
research programs at the National Institute of Standards and Technology 
(NIST). What portion of the fiscal year 2004 budget request for NIST 
will be devoted to implementing this Act and what is your schedule for 
implementation?

A2. P.L. 107-305 authorizes new funding for computer and network 
security in order to bolster the Nation's ability to respond to threats 
from cyber attacks and against the computer and communications networks 
on which our finance, transportation, health and emergency services 
systems depend. The Department understands the need for the Nation to 
secure its information systems and the Administration supported 
enactment of the Cyber Security Act.
    Although the FY 2004 budget request does not specifically fund all 
of the activities authorized by the Cyber Security Research and 
Development Act, the request does make a significant $25 million 
investment in critical infrastructure protection--cyber security 
research and development. With this funding, NIST will continue to 
improve cyber security and critical infrastructure security by raising 
awareness of the need for cost-effective security, engaging in 
voluntary standards activities, developing standards and guidelines, 
and providing national leadership for security evaluation and testing.
    Through its work in information security standards, testing and 
research, NIST will also continue to help strengthen the security of 
commercial IT products, which provide the communications and 
information processing backbone of our nation's infrastructures. NIST's 
efforts enhance the security of products and support users' confidence 
in their systems and networks, thus enabling more widespread and secure 
infrastructures supporting homeland security, e-government and e-
commerce. In addition, funding is requested for the development and 
implementation of improved standards, technology and practices for fire 
safety and security, retrofit and design of structures. Funding is also 
requested to provide standard methods for measurements of biometric 
identification systems in compliance with the USA PATRIOT ACT.

Questions submitted by Ralph M. Hall, Ranking Member of the Science 
                    Committee

Q1. LYour written testimony mentioned how resources have been shifted 
from various lower priority programs and that the Department's 
resources are directed to the areas having the greatest impact and best 
coordination to meet national needs. What are the criteria and 
decision-making processes used by the department in determining the 
priority of a program? Could you also provide details of how you assess 
a program's impact and coordination to meet national If needs?

A1. In determining the Department's priorities for FY 2004, Secretary 
Evans and I have consulted closely with leaders of other federal 
science and technology agencies to ensure that the Department's 
resources are directed toward areas where we can have the greatest 
impact on national needs. We have also met with constituents of 
individual programs from the research community and private industry 
and received first-hand accounts of program successes and impact. The 
Department's entire budget request of $5.4 billion supports the key 
priorities that Secretary Evans and I developed with the Commerce 
leadership team and used to guide our budgetary decisions: fostering 
the Nation's economic growth; securing our homeland and enhancing 
public safety; upgrading the Department's facilities, infrastructure, 
and safety; improving and streamlining the Nation's fishery management 
system to better meet commercial, recreational, and conservation 
objectives; and implementing the Administration's Climate Change 
Research Initiative (CCRI) to reduce present uncertainties in climate 
science, and support policy and management decisions to benefit public 
safety and quality of life.
    Key components of our budget request support these over-arching 
priorities. For example, NIST conducts world-class research on 
measurements, standards and technology that other agencies and the 
private sector depend on to enhance productivity, facilitate trade and 
improve the quality of life. Improvements to NIST's safety operations 
and laboratories at Boulder, Colorado, and Gaithersburg, Maryland, are 
long overdue. We believe that it is essential to focus resources on the 
Department's critical infrastructure needs so that NIST can continue to 
meet its important mission.
    Climate change research is another top priority. The President has 
said repeatedly that we must harness the power of science and 
breakthrough technologies. We are working with our federal agency 
partners to build a focused science program to improve the information 
available to policy-makers. The President's CCRI led to the creation of 
a new interagency framework to enhance coordination of federal agency 
resources and research activities. Thirteen federal agencies are 
working together under the leadership of a Cabinet-level committee, 
headed by Secretary of Commerce Evans, Secretary of Energy Abraham, and 
Office of Science and Technology Policy (OSTP) Director Marburger, to 
improve the value of U.S. climate change research. Even in this time of 
difficult budget decisions, the President is committed to fully funding 
climate research.

Q2. LIn testimony before the Science Committee last year, you stated 
that TA had issued a number of reports and held numerous roundtables. 
How have the recommendations of these report and roundtables been 
implemented, particularly with a focus on the outcomes of TA work? For 
example, last year your testimony indicated that you had hosted the 
first in a series of roundtables bringing together federal officials 
and corporate R&D leaders to examine how the Federal Government can 
best help the private sector while deploying our own resources most 
strategically. In a subsequent hearing, Under Secretary Bond told us 
about TA leading a series of discussions in innovation in America at 
the start of the 21st century. The results of these roundtables were to 
result in TA proposing new initiatives and policies to maintain U.S. 
leadership. What are these new initiatives and polices and how are they 
being implemented by the Administration?

A2. The Technology Administration's Office of Technology Policy (OTP) 
has been very productive over the past two years. After producing an 
average of 3.5 reports annually from 1997 through 2001, OTP produced 11 
reports in 2002 (with still more in research or production for 2003). 
Likewise, OTP outreach to the innovation community (industry, 
universities, labs) increased significantly, in daily meetings as well 
as more formal roundtables and conferences. Many of these efforts 
highlighted facts and trends important for policy-makers, while others 
offered more specific recommendations or suggestions. The Innovation in 
America series proved particularly enlightening and triggered interest 
from multiple companies, universities and nations.
    Similarly, over the past two years, OTP has provided valuable 
recommendations and guidance to leaders and organizations across the 
Executive Branch. OTP's input and partnership are sought regularly 
across the Commerce Department (including the Office of the Secretary), 
in policy shops throughout the White House (such as NEC, CEA, OSTP) and 
by outside organizations, such as the President's Council of Advisors 
on Science and Technology (PCAST). OTP leadership is routinely asked to 
participate in private sector discussions, conferences and events (more 
than 120 in 23 states last year), bringing the expertise and knowledge 
gleaned from their policy work and reports. The Innovation in America 
series informed and impacted OTP and Commerce Department policy 
recommendations on issues including federal R&D funding, workforce 
preparation and training, intellectual property protection, broadband 
usage, spectrum, tax and trade policies, liability and regulatory 
reforms, advanced education technologies, and e-government, among 
others.
    As you know well, policy is usually the product of multiple inputs. 
While OTP routinely advises Commerce Department and White House 
leaders, it would be inaccurate to credit this one shop with specific 
policies, decisions or initiatives. Nevertheless, OTP's inputs have led 
to outcomes across multiple efforts by this Administration--indeed a 
majority of technology policy decisions and positions benefited from 
OTP's participation. To offer a few examples:

        <bullet> LOTP's hydrogen fuel cell research (resulting in the 
        attached report) was instrumental in building the case for the 
        hydrogen fuel cell initiative announced by the President in the 
        State of the Union Address.

        <bullet> LOTP's support for the PCAST Technology Transfer 
        Working Group drew heavily on information supplied by 
        roundtable participants and appears likely to impact PCAST 
        recommendations.

        <bullet> LOTP was and remains a leading participant in crafting 
        and managing the Digital Freedom Initiative recently announced 
        by the Secretary.

        <bullet> LThe Economic Development Administration (EDA) has 
        praised OTP's leadership on regional technology-led economic 
        development as instructive to EDA's mission and efforts, while 
        private sector associations report that its data helps economic 
        development practitioners.

        <bullet> LFollowing on the comments of many roundtable 
        participants regarding advanced information infrastructure, OTP 
        has led Administration efforts on understanding and encouraging 
        broadband demand, including broadband and business productivity 
        and digital rights management.

        <bullet> LOSTP, NSF and PCAST have credited OTP's work, 
        analysis and support on nanotechnology and the National 
        Nanotechnology Initiative.

        <bullet> LOTP's Summit on the Use of Advanced Technologies in 
        Education and Learning (in partnership with the Department of 
        Education) led to creation of a report entitled, 2020 Visions: 
        Transforming Education and Training Through Advanced 
        Technologies. This report is offered by over 50 web sites in 
        over 10 foreign countries and appears likely to spawn an NSTC 
        working group.

Q3. LThe Administration proposes to eliminate the Advanced Technology 
Program and the Manufacturing Extension Partnership, which were once 
considered important components of the Nation's technology policy 
efforts. Would you please outline the Administration's technology 
policy and programs that support this policy(s)?

A3. In June 2002, the President released his technology agenda 
entitled, ``Promoting Innovation and Competitiveness.'' The report 
listed three technology priorities:

        <bullet> LPromoting innovation, by fostering the development 
        and deployment of broadband, strengthening research and 
        development funding, and implementing landmark education reform 
        legislation, including significant improvements in math and 
        science education;

        <bullet> LSupporting entrepreneurship, by removing competitive 
        barriers overseas, reforming the U.S. high tech export control 
        system, and reducing the tax burden on successful 
        entrepreneurs; and

        <bullet> LEmpowering citizens, by expanding the federal 
        commitment to e-government, promoting assistive technology, and 
        strengthening privacy protections.

    The report is attached for the Committee's reference and can also 
be located at http://www.whitehouse.gov/infocus/technology/
tech<INF>-</INF>factsheet.pdf.

Q4. LThe Administration has frequently justified eliminating funding 
for the Manufacturing Extension Partnership Centers by stating that the 
original intent of the legislation was to limit federal funding to 
Centers to six years. This was regardless of the fact that Congress had 
amended the statute to eliminate the six-year limitation. The 
legislation package for the Technology Administration and the National 
Institute of Standards and Technology that the Administration sent to 
Congress on 30 September 2002 contained many amendments to NIST 
programs, including a ``number of improvements to the Advanced 
Technology Program and the Manufacturing Extension Partnership 
Program.'' However, among all these improvements, the Administration 
did not include limiting funding to MEP Centers to six years. If this 
was an important factor in the Administration's decision to eliminate 
funding for MEP Centers after six years, why wasn't it included in your 
legislative proposals for the program?

A4. The President's Fiscal Year 2004 request for National Institute of 
Standards and Technology (NIST) programs included a prioritization of 
funding in a very difficult budget. The highest NIST funding priorities 
have been given to the world-class laboratory programs and 
infrastructure construction to provide for state-of-the-art facilities. 
Consequently, these funding limits did not allow for the MEP to fully 
fund all of its centers. Preference for the limited funding was given 
to those centers less than six years old.
    The reason that the legislative package submitted by the Technology 
Administration and NIST did not include a legislative proposal 
``sunsetting'' funding to centers is that such language is not 
necessary. The language contained in the statute (15 USC278k(c)(5) ) 
states, ``After the sixth year, a Center may receive additional 
financial support under this section.. . .'' This statutory language 
gives the Secretary discretionary authority to fund or not to fund the 
centers after the sixth year. The Administration has proposed to 
exercise its discretion, and not fund centers past their sixth year.

Q5. LLast year the President signed into law the Cyber Security R&D Act 
(P.L. 107-355). This Act significantly increased funding for cyber 
security research programs to be implemented through NIST. Although 
much has been made about improving the security of the Nation's 
information infrastructure, the budget request does not include any 
funding for these research activities. Why does computer security seem 
to be such a low priority in the NIST budget request?

A5. The Administration understands the need for the Nation to secure 
its information systems and thus signed into law the Cyber Security R&D 
Act. In FY 2003, the President requested and received appropriations 
for two new NIST initiatives in support of computer and information 
security. The Computer Security Expert Assist Team and the Wireless 
Technologies, Computer Security Checklists and Guidelines will 
strengthen our cyber security programs. The FY 2004 Budget Request 
proposes an increase of $3 million to accelerate NIST's quantum 
information program. This program, which is led by two Nobel Laureates, 
has the potential to revolutionize cryptography and secure 
communications.
    Although the FY 2004 Budget Request does not specifically fund the 
activities authorized by the Cyber Security Research and Development 
Act, the request does make a significant $25 million investment in 
critical infrastructure protection--cyber security research and 
development. With this funding, NIST is improving cyber security and 
critical infrastructure security by raising awareness of the need for 
cost-effective security, engaging in voluntary standards activities, 
developing standards and guidelines, and providing national leadership 
for security evaluation and testing. Through its work in information 
security standards, testing and research, NIST will also continue to 
help strengthen the security of commercial IT products, which provide 
the communications and information processing backbone of our nation's 
infrastructures. NIST's efforts to enhance the security of products 
support users' confidence in their systems and networks, thus enabling 
more widespread and secure infrastructures supporting homeland 
security, e-government and e-commerce. In addition, funding is 
requested for the development and implementation of improved standards, 
technology and practices for fire safety and security, retrofit and 
design of structures. Funding is also requested to provide standard 
methods for measurements of biometric identification systems in 
compliance with the USA PATRIOT ACT.

Q6. LThe computer security lab at NIST should play an important role in 
improving the security of federal computer systems, and the 
Administration has repeatedly stated the need to improve federal 
computer security. However, NIST has habitually been under-funded, and 
this year's budget request looks no different. What are the reasons for 
not strengthening NIST's capabilities? There are also reports that 
information technology security research at the Department of Homeland 
Security will receive a significant funding increase. Could you explain 
the interaction and synergy that will occur between DHS and NIST's 
computer security division?

A6. NIST envisions cooperation with DHS in the cyber security field 
both via their Science and Technology Directorate as well as with the 
Directorate for Information Analysis and Infrastructure Protection. We 
hope that we will be able to identify numerous areas of mutual 
collaboration as NIST will be able to bring to the table its long-
standing competencies in many key areas, including: cyber security, 
SCADA (systems control and data acquisition) security, voluntary 
consensus standards/specifications development, and conformance 
testing. We believe all of these will be of great benefit to support 
the mission of DHS. We take our work in support of homeland security to 
include cyber security most seriously and, in fact, homeland security 
has been identified as one of our focus areas in NIST's strategic 
planning process.
    NIST plays a unique role in the Nation's broader homeland security 
and national security strategy: NIST provides the measurements, 
standards, and tests to ensure that national security and homeland 
security technologies can be developed, manufactured, tested, 
implemented, and where appropriate, certified. NIST has served this 
role in national and homeland security for nearly 100 years. Agencies 
slated to join DHS have looked to NIST for decades for such measurement 
and standards support to fulfill their missions.
    For example, NIST already works very closely with DHS through the 
Science and Technology Directorate to help DHS develop their homeland 
security standards strategy and to provide specific technical 
measurements and standards support across a broad range of 
technologies, from CBRNE detection to emergency responder 
communications interoperability to cyber security, among other areas.
    While DHS is in the early stages of developing its standards 
strategy and practices, it seems clear that DHS will rely heavily on 
NIST to help provide the measurements and standards infrastructure 
supporting the development and implementation of homeland security 
technology solutions. Furthermore, the recommendations and guidelines 
for improving the security of federal information systems developed by 
NIST, under responsibilities outlined in the E-Government Act of 2002, 
will support DHS's operational need to secure its own systems.

Q7. LWhat provision does the FY 2004 budget request make for managing 
and archiving the data collected from the climate research activities 
for agencies under your department? Also, describe the budget's impact 
on the three major data centers operated by the National Environmental 
Satellite, Data and Information Service.

A7. NOAA has placed a priority on managing and archiving the vast 
amount of data collected from our climate research activities. NOAA's 
Data Centers and its activities to improve data archive, access, and 
assessment activities are designed to enhance NOAA's capability to 
accelerate climate deliverables, reduce uncertainty and aid in 
decision-making at all levels in both the federal and civilian sector. 
These activities implement the climate portion of the NOAA Strategic 
Plan for FY 2003-FY 2008.
    The FY 2004 Budget Request of $59.4 million for NOAA's Data Centers 
will maintain support for the current requirement for environmental 
data management. However, the requirement to manage increased data to 
meet the new and challenging requirements for climate data and 
services, necessary to support economic, educational, homeland 
security, science and transportation needs, increases exponentially. In 
response to this growing requirement for scientific stewardship of 
these data, the President's FY 2004 Budget Request includes funding for 
a critical step in meeting the increased data archiving and access 
requirements placed on NOAA from current Earth Observing System (EOS) 
missions, NPP and NPOESS at $3.0 million for EOS Archive and $3.6 
million for Comprehensive Large Array-data Stewardship System (CLASS).
    NOAA had presented a plan to begin to address the data management 
issues raised in the House Science Committee, Subcommittee on 
Environment, Technology, and Standards. Unfortunately, the FY 2003 
Omnibus Appropriations did not support the President's request for $3.0 
million for the EOS Archive, and reduced the President's request for 
CLASS by $0.7 million. This has resulted in a delay in NOAA's data 
management program schedule and increase in the delivery risk to 
accommodate the need for climate data from NOAA's Data Centers.

Q8. LNOAA has begun defining the next generation of satellite systems 
for weather tracking and forecasting. What steps are being taken to 
incorporate requirements for the collection of climate-quality data for 
the support of the Nation's global change research efforts into the 
instruments to be carried aboard these new satellites, while at the 
same time supporting the operational requirements of the National 
Weather Service?

A8. While NOAA's current satellite sensors were designed primarily for 
application to weather forecasting and short-term phenomena, extensive 
consideration has, and continues to be given in both the development of 
the space and the ground components of the next generation of NOAA's 
polar and geostationary satellite systems. There are a number of 
actions being undertaken to incorporate climate requirements for future 
satellite sensors that will satisfy both weather and climate 
requirements.

        <bullet> LStringent Requirements Management Programs, designed 
        to formally interface with users and address satellite-based 
        environmental observations, are being used to identify, 
        document and assess specific climate-related requirements for 
        both the future National Polar-orbiting Operational 
        Environmental Satellite System (NPOESS) and GOES-R systems. 
        Through this process, and complemented by dedicated climate 
        workshops, conferences, and meetings, climate requirements from 
        all NOAA Line Offices; other federal agencies, including the 
        interagency Climate Change Science Program (CCSP) and the 
        Committee on Environment and Natural Resources (CENR) Task 
        Group on Earth Observations, and direct users in the climate 
        community are being incorporated. These requirements fall into 
        the categories of observational requirements (i.e., key 
        parameters to be observed), instrument requirements (i.e., 
        calibration, long-term stability) and system requirements 
        (i.e., satellite overlap, orbit stability).

        <bullet> LThese climate requirements are entered into the 
        preliminary design of all future platforms and instruments, as 
        done with the weather requirements, to be assessed through 
        numerous trade studies against technical and program cost 
        capabilities and cost benefit analyses.

        <bullet> LThese requirements are then included in the final 
        instrument and full space and ground system contracts to insure 
        all accurate observation, transmission, data processing, 
        archiving and user availability requirements are addressed.

        <bullet> LThe key climate parameters to be observed include: 
        (1) Solar irradiance, energy radiation balance and clouds 
        (total solar irradiance, spectral solar irradiance, outgoing 
        long wave radiation, net incoming solar radiation, and 
        cloudiness), (2) atmosphere (temperature, water vapor, ozone, 
        aerosols, precipitation, and carbon dioxide), and (3) the 
        surface (vegetation, snow cover, sea ice, sea surface 
        temperature, ocean winds and ocean color). Observation of these 
        climate parameters do not conflict with and in most cases do 
        not increase those parameters required of the operational 
        weather services. Rather, they are a subset of the multitude of 
        atmospheric, ocean and land observations already required for 
        weather and ocean operations.

        <bullet> LHowever it is the detection of the slow changes in 
        these environmental parameters associated with climate change 
        that places more stringent requirements on instrument accuracy, 
        stability and precision that most current sensors do not meet. 
        To make full use of future sensors for the climate application, 
        these requirements are also being taken into consideration 
        during mission and sensor design and in pre- and post-launch 
        testing and characterization.

        <bullet> LSpecifically within the next generation polar-
        orbiting program, NPOESS, calibration, stability, and precision 
        requirements for NPOESS instruments, documented in the 
        Integrated Operational Requirements Document (IORD), were 
        increased to make them ``climate class.'' These changes mean 
        that the calibration of the instruments is very carefully 
        established from the day the instrument is ``born'' throughout 
        its life in space and that the calibration is traced back to a 
        national standard. The instrument is also stable--it does not 
        change measurement with time (e.g., a 10 degree measurement 
        today will mean the same thing that it did five years ago and 
        five years in the future). These two characteristics are also 
        important for the cross correlation of instruments from one 
        satellite to the next. Precision means that we know precisely 
        what we are measuring. These requirements are included in the 
        instrument contracts and in the contract for the whole system, 
        since they drive a series of test and calibration/validation 
        requirements. These more stringent requirements, while critical 
        for quality climate measurements, also improve the accuracy and 
        application of those same observations needed for weather and 
        ocean operations.

        <bullet> LNPOESS is also planning to fly a dedicated, climate-
        specific Aerosol Polarimeter Sensor (APS), better able to 
        measure precise aerosol properties (about 10 parameters). These 
        measurements are critical to understanding human and natural 
        impacts on regional and global climate but are also used 
        extensively in weather operations in areas of air quality, 
        Earth radiation, volcanic plume detection and tracking and 
        aircraft operations.

        <bullet> LSpecifically within the development of the next 
        generation NOAA geostationary satellites, GOES-R, climate 
        requirements are being identified through the NESDIS satellite-
        based Requirements Management Process for assessment in five 
        system developments: three instruments, one spacecraft and one 
        ground system. Like the NPOESS program, in addition to 
        identifying the climate-related observables, the stringent 
        instrument calibration, long-term stability and precision 
        requirements are being incorporated for future trade and cost 
        analyses.

        <bullet> LDue to its high temporal coverage, the geostationary 
        platform is well suited to determine the diurnal component of 
        chaotic processes like clouds and precipitation, which play a 
        large part in the Earth's energy and water budget. Long-term 
        trends and changes in the powerful diurnal cycle can be 
        measured reliably only by a consistently calibrated time-series 
        of daily processes over decades. At the same time this data 
        aids short-term forecasting and warning operations by allowing 
        more accurate locating of potential severe weather areas.

        <bullet> LAdvanced Data Collection Systems planned for both 
        NPOESS and GOES-R will continue the function on current NOAA 
        satellites to collect data from buoys, ships, aircraft, and 
        other remote platforms that feed the near realtime databases 
        used for short-term forecasting and warnings but also 
        contribute to the long-term record of environmental 
        observations used for climate analyses.

    NESDIS is also currently pursuing several avenues toward improving 
its use of weather satellites for climate monitoring: 1) increasing its 
investment in the instrument calibration area, a capstone issue for 
climate data sets; 2) developing a unified instrument monitoring system 
to provide information on satellite instrument calibration and 
performance; 3) with the advice of the National Academy of Sciences, 
NESDIS is developing a plan for utilizing the observations taken by the 
operational satellites to generate high quality climate data records 
(CDRs) that meet the needs of climate data users; and 4) NESDIS is 
currently developing plans for scientific data stewardship (SDS) of 
remote sensing observations for climate: These plans include the 
development of separate climate processing and monitoring systems, and 
the formation of Sentinel Climate Teams to oversee observing system 
performance, generation of climate data records, data quality, and 
archiving issues.
    These activities implement the NOAA Program Review Team's 
recommendations to ensure end-to-end management requirements-based 
development of NOAA's programs.

Q9. LDescribe the life-cycle data management plans for the observing 
systems NOAA intends to deploy during the next decade. How does the 
plan assure that sufficient resources will be devoted to the collection 
of appropriate metadata and to the long-term support for archiving of 
the data sets collected during the operating life of the new observing 
systems?

A9. The NOAA Program Review Team has recommended that NOAA centrally 
plan and integrate all observing systems, with acquisition and 
responsibility for operations and maintenance of systems to be 
determined on a case-by-case basis. The plan is currently being 
developed from the overall NOAA observing architecture baseline. All 
current and short-term activities, as well as validated requirements, 
have been implemented into the current baseline. All future observing 
systems will be assessed for validated requirements, alignment with the 
overall architecture, and plans for utilization of the data. This 
includes ensuring all archive data are in compliance with metadata 
standards, as well as meeting archive, access, and retention standards. 
A cross-cutting team, led by NESDIS, will conduct periodic reviews of 
all observing systems within the framework architecture. The NOAA 
observing architecture team has begun the analysis and mapping of 
resources to observing platforms. This comprehensive review will allow 
the NOAA team to assess and recommend any changes necessary to the 
current allocation of resources to ensure appropriate resources are 
matched to best support the success of the overall observing systems 
support structure.
    Data from these observing systems will be archived in the NOAA Data 
Centers as outlined in the biennial report on the status and challenges 
for NOAA's environmental data systems. Over the past few years, NOAA 
has been implementing a plan to address the entire life cycle of data--
from observation and initial data capture to final disposition--
implementing an end-to-end data management approach. This includes the 
development of an architecture for an integrated, national, 
environmental data access and archive system that incorporates end-to-
end data management functions.
    NOAA's life cycle data management program considers the following:

        <bullet> LObserving platforms (i.e., satellites, land stations, 
        ships, aircraft, buoys) and instrument/sensor characteristics;

        <bullet> LData processing at the sensor platform and on the 
        ground;

        <bullet> LMetadata creation;

        <bullet> LData capture and delivery systems;

        <bullet> LData validation and calibration procedures;

        <bullet> LArchive procedures and media migration;

        <bullet> LData reprocessing to maintain the currency of the 
        data set and to allow new uses of data;

        <bullet> LData uses and limitations;

        <bullet> LScientific data stewardship; and

        <bullet> LDissemination and user access, as appropriate for the 
        data set.

Question submitted by Representative Jerry F. Costello

Q1. LCan you please provide a copy of the analysis that was done that 
led to the National Profiler Network termination in the FY04 Budget 
Request?

A1. 

        <bullet> LThere was not an analysis done when the 
        Administration made the decision to terminate the profiler 
        network.

        <bullet> LThe Administration has proposed to deactivate 32 
        radar wind profilers of the NOAA Profiler Network (NPN), 
        located in the central U.S., and a central command and 
        processing center (the Profiler Hub) in Boulder, Colorado, for 
        a savings of $4.15 million (M) per year. Homeland Security and 
        other budget priorities have forced this cost-saving measure.

        <bullet> LThis decision was prompted, in part, by the 
        expectation that 30 of the systems would have to be upgraded to 
        transmit at a new frequency, at a cost of $13.5M, a major 
        expense. This is no longer as immediate an issue. A new 
        European Union GPS satellite constellation, called Galileo, has 
        been planned for deployment starting in 2006. International 
        Search and Rescue (SARSAT) equipment will be on all of the new 
        satellites. Since the present profiler frequency is very near 
        that used by the SARSAT equipment, the profilers stop 
        transmitting whenever the current six SARSAT-equipped 
        satellites pass over. Loss of data caused by these overpasses 
        is insignificant. However, with many more satellites in orbit 
        after Galileo is fully deployed, the profilers would 
        essentially be turned off almost all of the time unless their 
        frequency is changed. Since the Administration made its 
        decision, it has now been learned that the Galileo program will 
        be delayed at least a couple of years beyond 2006.

[GRAPHIC[S] NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Rita R. Colwell, Director, National Science Foundation

Questions submitted by Chairman Boehlert

MAJOR RESEARCH EQUIPMENT AND FACILITIES CONSTRUCTION

Q1. LThe President's fiscal year 2004 budget request represents a 
significant improvement over prior year requests with regard to 
directorate breakdown, full life-cycle costs, and prioritization of the 
``new start'' projects in the Major Research and Facilities 
Construction (MREFC) account. However, the budget does not include the 
criteria used to rank these projects and the relative value these 
criteria were given in establishing the prioritized list. This 
information is required to be annually submitted to Congress before any 
funds can be obligated from the MREFC account. Please provide us with 
this information. Also, please clarify how new projects will be 
reviewed and ranked, how they will be incorporated into the existing 
prioritized list, and when and how the revised list will be transmitted 
to Congress.

A1. In the FY 2004 budget request, $202.33 million in funding is 
requested for seven ongoing MREFC projects. No funds were requested for 
new start projects. This is consistent with current National Science 
Board policy, which requires that NSF give first priority to projects 
that have been started but not completed. The FY 2004 budget request 
identified three new starts for initiation in FY 2005 and FY 2006. In 
priority order, these are:

        LScientific Ocean Drilling in FY 2005;

        LRare Symmetry Violating Processes in FY 2006; and

        LOcean Observatories in FY 2006

    This specific set of new starts can be viewed within the broader 
context of how NSF identifies, reviews, selects and prioritizes large 
facility projects (i.e., the process that NSF used to prioritize these 
three new projects).
The Broader Context
    In identifying new facility construction projects, the science and 
engineering (S&E) community, in consultation with NSF, develops ideas, 
considers alternatives, explores partnerships, and develops cost and 
timeline estimates. By the time a proposal is submitted to NSF, these 
issues have been thoroughly examined.
    Upon receipt by NSF, large facility proposals are first subjected 
to rigorous external merit review, focusing on the criteria of 
intellectual merit and the broad (probable) impacts of the project. 
Only the highest rated proposals--i.e., those that are rated excellent 
on both criteria--survive this process and are recommended to an MREFC 
Panel comprised of Assistant Directors and Office Heads, serving as 
stewards for their fields and chosen for their breadth of 
understanding, and chaired by the Deputy Director.
    The MREFC Panel uses a two-stage process. First, it selects the new 
start projects it will recommend to the Director for NSF support in a 
future NSF budget, based on a discussion of the merits of the science 
and engineering within the context of all research and education that 
NSF supports. Second, it places these recommended new start projects in 
priority order.
    In selecting projects for future support, the Panel considers the 
following criteria:

        <bullet> LSignificance of the opportunity to enable frontier 
        research and education.

        <bullet> LDegree of support within the relevant S&E 
        communities.

        <bullet> LReadiness of project, in terms of feasibility, 
        engineering cost-effectiveness, interagency and international 
        partnerships, and management.

    Using these criteria, projects that are not highly rated are 
returned to the initiating directorates, and may be reconsidered at a 
future time after the questions raised by the panel have been 
addressed. The Panel then places highly-rated projects in priority 
order. This process is conducted in consultation with the NSF Director. 
The MREFC Panel and the Director use the following criteria to 
determine the priority order of the projects:

        <bullet> LHow ``transformative'' is the project? Will it change 
        the way research is conducted or change fundamental S&E 
        concepts/research frontiers?

        <bullet> LHow great are the benefits of the project? How many 
        researchers, educators and students will it enable? Does it 
        broadly serve many disciplines?

        <bullet> LHow pressing is the need? Is there a window of 
        opportunity? Are there interagency and international 
        commitments that must be met?

    These criteria are not assigned relative weights, because each 
project has its own unique attributes and circumstances. For example, 
timeliness may be crucial for one project and relatively unimportant 
for another. Also, while a specific project may not broadly serve many 
disciplines, it may be the sine qua non of certain areas of science. 
Additionally, the Director must ensure the following have been 
addressed: the impact of a proposed facility on the balance among 
scientific fields, the importance of the project with respect to 
national priorities, and possible societal benefits.
    In August the Director presents the MREFC priorities, including a 
discussion of the rationale for the priority order, to the NSB, as part 
of the budget process. The NSB reviews the list and either approves or 
argues the order of priority. As part of its budget submission, NSF 
presents this rank-ordered list of projects to OMB. Finally, a 
prioritized list of projects is submitted to Congress as part of the 
President's request.
The Specific Case
    The three new start projects cited in the FY 2004 budget request 
are considered highly meritorious by the S&E community, the NSF and the 
NSB.
    The Scientific Ocean Drilling (SOD) Project was ranked as the 
highest priority because delaying initiation of the project until FY 
2006 would greatly impact the existing community of researchers, and 
because of the significant level of complementary international effort 
and planning already underway. This project will charter and modify a 
drill ship that will work in a new scientific program (Integrated Ocean 
Drilling Program (IODP) ), in concert, and complementary to, a deep 
drilling vessel being constructed and operated by Japan. Some of the 
drilling to be done from the SOD vessel will be used to guide and plan 
drilling from the Japanese vessel, which is scheduled to begin 
operations in 2007. Additional international members who help finance 
our existing ocean drilling program are prepared to join the new 
program, but will have trouble maintaining and committing their 
financial contribution if drilling from the SOD vessel is delayed until 
2007. At present, the Japanese vessel has been constructed and is 
undergoing outfitting. If the U.S. does not meet its commitment, there 
will be no conventional drill ship capabilities for use in the IODP, 
and critical studies of climate change and the ocean biosphere will be 
jeopardized.
    The two remaining new start projects, Rare Symmetry Violating 
Processes (RSVP) and Ocean Observatories, were judged to be of equal 
value, but for different reasons. RSVP ranked second, primarily for 
reasons of balance across scientific fields and timeliness. RSVP is 
very well designed, well reviewed, and addresses important scientific 
questions that have the potential to transform our basic understanding 
of the universe. There are, as with SOD, performance and cost risks 
associated with delays. The host laboratory, Brookhaven National 
Laboratory, would be forced to lay-off key staff and then rehire and/or 
replace them following an extensive shut-down of beams planned for use 
by RSVP; and, the international collaborators may have difficulty 
maintaining (as SOD will) the large financial contributions currently 
committed to RSVP, on order of $10 million (U.S.). Nevertheless, these 
considerations do not outweigh the funding and stewardship issues 
represented in SOD. If initiated in FY 2006, RSVP can still be 
implemented successfully and make major contributions to science.
    The Ocean Observatories project includes an expanded network of 
coastal observatories; several relocatable deep-sea observatories based 
around a system of buoys; and a regional, deep water observatory 
consisting of interconnected sites on the seafloor that span several 
geological and oceanographic features and processes. It will enable a 
large group of researchers to perform ocean science in new ways. It was 
ranked third among the new start projects because it is not as urgent 
as SOD or RSVP, and again, for reasons of balance across scientific 
fields.

CYBER SECURITY RESEARCH AND DEVELOPMENT ACT

Q2. LThe events of September 11, and subsequent computer viruses and 
worms have highlighted the vulnerability of our nation's critical 
infrastructure to attacks upon our computer networks. Congress 
responded by enacting P.L. 107-305, the Cyber Security Research and 
Development Act. This legislation authorized new computer security 
research programs at the National Science Foundation (NSF). What 
portion of the fiscal year 2004 budget request for NSF will be devoted 
to implementing this Act and what is your schedule for implementation? 
The Act also makes NSF the lead federal agency for cyber security 
research and development. How do you intend for NSF to carry out its 
role of ensuring that there is an adequate and coordinated program in 
this field?

A2. The FY 2004 budget request for NSF includes $51.18 million for 
programs that directly support the Cyber Security Research and 
Development Act. In FY 2003, NSF is actively implementing the Act 
within its available resources.
Schedule for Implementation:
    NSF is already implementing elements of the Act in FY 2003 at a 
level of $26.18 million and this positions NSF to plan for an 
investment level of $51.18 million in FY 2004. NSF workshops are being 
held with a focus on implementing P.L. 107-305.
    The Computer and Information Science and Engineering (CISE) 
Activity is targeting research and education efforts that further the 
development and understanding of trustworthy cyber systems, in areas 
such as data and application security, networking security, embedded 
and hybrid systems and operating systems and compilers. A significant 
part of this effort will be funded by reallocating funds from programs 
such as operating systems and compilers, database systems and 
networking research.
    NSF is expanding its efforts in cyber security. The Foundation has 
leading national experts on staff in this area. NSF has an internal 
working group that meets regularly to coordinate and plan NSF efforts. 
NSF has already set in place practices to assure that awardees will be 
aware of requirements in Sec. 16 of the Act (Grant Eligibility and 
Compliance with Immigration Laws).
Coordination Among Federal Agencies:
    NSF actively consults with other agencies through several venues.

        <bullet> LNSF staff co-chair the High Confidence Software and 
        Systems area of the Networked Information Technology Research & 
        Development (NITRD) coordination activity that coordinates 
        research among 12 agencies.

        <bullet> LNSF actively participates in the interagency Infosec 
        Research Council, which is an informal group that meets monthly 
        on information security matters. Participants include 
        representatives from DARPA, DOD, DOE, NIST, FAA, the Nuclear 
        Regulatory Commission, and others.

        <bullet> LNSF staff participated recently in a review of NSA 
        R&D programs for information assurance.

        <bullet> LNSF staff are playing an active role in the National 
        Security Telecommunications Advisory Committee's R&D exchange 
        to facilitate discussion of cyber and software issues.

        <bullet> LThe NSF Assistant Director for CISE has been a 
        principal on the Critical Infrastructure Protection committee.

        <bullet> LNSF's CISE directorate has been sponsoring workshops 
        that include academic, industry and government personnel who 
        are active in cyber security research.

        <bullet> LWorking with the State Department has also led to 
        discussion on common research interests with the European 
        Union.

    The coordination groups mentioned above are all avenues for 
participating agencies to become aware of the programs of other 
agencies; this coordination promotes synergy and reduces duplication, 
filling gaps in important research areas, and increasing awareness of 
research among agencies that can be utilized to improve results at 
other agencies.

Questions submitted by Representative Ralph M. Hall

CYBER SECURITY

Q1. LLast year the President signed into law the Cyber Security R&D Act 
(P.L. 107-355), which authorized significantly increased funding for 
cyber security research, education, and faculty development programs to 
be implemented at NSF. To what extent does the FY 2004 budget request 
implement the provisions of the statute, and what can you say about the 
priority we may expect to see for such activities at NSF in future 
budgets?

A1. Cyber security is a priority for NSF and effort is focused in the 
Computer and Information Science and Engineering Activity. NSF agrees 
with the findings of P.L. 107-305 and among federal agencies, is well 
positioned to undertake the basic research and related education 
activities necessary to address these growing concerns.
    For research activities, NSF has requested $35.0 million in FY 
2004. Approximately $27.0 million is allocated to cyber security 
research addressing Sec. 4(a) of the Act. An estimated $8.0 million 
will support multidisciplinary groups and Information Technology 
Centers in the Information Technology Research (ITR) program under the 
medium and large awards categories; the funded centers are selected 
with criteria that address Sec. 4(b).
    NSF has also requested $16.18 million specifically for capacity 
building in cyber security in the Scholarships for Service program; 
that program supports programs at 15 colleges and universities in 
accord with Sec. 5(a) of the Act.
    Related to Sec. 5(b) of the Act, NSF's Advanced Technology 
Education (ATE) program, which targets 2-year institutions, provides 
over $3.0 million in computer technology projects each year. As 
computer security is increasingly introduced in curricula, in FY 2004 
at least $500,000 will be devoted to awards with a strong focus on 
cyber security training and with security awareness and practices 
incorporated in their projects.
    Graduate Research Fellowships are open to support for students 
seeking research training in cyber security areas, fully implementing 
Sec. 5(d).
    NSF has a number of active awards that address the urgent national 
need for the training of students and development of faculty in cyber 
security areas as authorized in Sec. 5(e) of the Act. For example, NSF 
has innovative programs that integrate faculty development and 
development of new college curricula for tribal, minority and other 
institutions. Indiana University of Pennsylvania is supporting faculty 
and curriculum development in Pennsylvania, West Virginia and Ohio. An 
award to the Naval Postgraduate School is supporting a two year series 
of workshops in information assurance targeted to college level 
educators. The University of Idaho is supported as a Research 
Experiences for Undergraduates site, which will focus on intrusion 
detection and system protection for networked systems; the project will 
engage 42 students in research experiences over its duration. These, 
and other awards, address the demand for cyber security capacity 
building through proven strategies and will be further developed to 
assure responsiveness to Sec. 5(e) of the Act. NSF is currently 
examining activities for capacity building and will report to the 
Committee in the near future.
    NSF's ITR priority area continues to evolve and cyber security will 
be a critical element. NSF will address the demand for cyber security 
research with a portfolio of individual, group and small center awards 
that address a range of fundamental studies that research new 
approaches to security through interdisciplinary projects that can 
explore and test security concepts in realistic settings.

GENDER EQUITY & PERSONS WITH DISABILITIES

Q2. LThe FY 2004 budget proposal for the Program for Gender Equity is 
cut by five percent and the budget for the Program for Persons with 
Disabilities is flat. There is wide agreement on the importance of 
attracting more individuals from groups currently under-represented in 
science and engineering, particularly through efforts to turn on young 
people to science and technology. Recent NSF assessments of these two 
programs found both to be valuable and effective. What then is the 
rationale for these funding decisions?

A2. The NSF has and will continue to maintain the strength of its 
program emphasis on attracting individuals from groups currently under-
represented in science and engineering. In fact, this issue is 
increasingly being addressed in programs throughout the Foundation.
    One example of an increase in funding that specifically focuses on 
women is ADVANCE. Over the past three budget cycles the ADVANCE budget 
has grown from $9 million in 2001 to $17.14 million in 2003. The 
development of ADVANCE, a program that complements the Program for 
Gender Equity, ensures that support for improving gender representation 
is now spread throughout the Foundation. ADVANCE supports projects that 
address the organizational factors that have inhibited women's progress 
up the ladder of academic science and engineering careers. Through 
awards for individual researchers, for leadership teams, and for 
institutional change, ADVANCE seeks to build on the Foundation's 
investment in and commitment to gender equity in order to engage the 
widest breadth of intellectual talent available to the Nation.
    The budget for the Program for Persons with Disabilities (PPD) 
allows NSF to provide continuity to currently funded centers. 
Furthermore, the PPD program has developed a national infrastructure 
that more regionally responds to the needs of persons with 
disabilities. While there has been success with the current large 
center model that has as a complement one or more additional smaller 
centers, it was felt a national regional structure would be more 
reflective of the growing need across the country.
    Because it is not a new program, but rather an alternative approach 
to a current construct, the budget will sustain the regional centers, a 
series of new planning grant sites, and focused research sites. Each 
site is working to develop best practices in addressing issues for 
individuals with disabilities.

STIPENDS FOR GRADUATE STUDENTS

Q3. LNSF has been increasing the size of stipends for graduate 
fellowships and traineeships and is proposing to raise the stipend to 
$30,000 per year in this budget request. What has been the effect on 
numbers of applications for fellowships and traineeships as a result of 
increasing stipends, and in particular, the effect on the number of 
applications from individuals from under-represented groups? Have you 
assessed the effectiveness of your outreach efforts to increase 
applications from minorities following termination of the Minority 
Graduate Fellowship Program? That is, what factors seem most effective 
for increasing minority applications? (EHR)

A3. Over the past five years (1998-2003), the graduate stipend has 
increased from $15,000 to $27,500 in three NSF Programs: NSF Graduate 
Research Fellowships Program (GRF), Integrative Graduate Education and 
Research Traineeship Program (IGERT), and NSF Graduate Teaching Fellows 
in K-12 Education (GK-12).
    Dramatic increases in the number of applications and proposals have 
occurred in GRF and IGERT, respectively. The GRF Program reviewed 5,233 
applications in 1998 and 8,199 in 2003, a 57 percent increase. The 
largest increases in applications have occurred when the stipend has 
been increased significantly, as has been the case in the past three 
years. The number of applications from under-represented minorities 
(URMs) has also increased in number over the past three years, from 516 
in 2000 to 820 in 2003. These numbers are also beginning to compare 
favorably with the last three years of the Minority Graduate Fellowship 
Program (MGF): 697 applicants in 1998, 762 applicants in 1997, and 869 
applicants in 1996.
    IGERT experienced a very significant increase in pre-proposals 
between 2002 and 2003: 254 to 425, a 67 percent increase. To increase 
the current 10 percent minority representation in Trainee 
participation, the program has awarded a grant to enhance recruitment 
and mentoring components for all 100 IGERT sites. The goal is to 
increase the participation to 20-25 percent minorities. The GK-12 
program has experienced a steady number of letters of intent for 2001 
and 2002.
    After the Minority Graduate Fellowship Program (MGF) ended, NSF 
dramatically increased its outreach efforts. Two notable effects have 
resulted. First, the trend since 1995 (which includes the last few 
years of MGF) of decreasing portion of applications from URMs has 
ended. The URM portion of applications has leveled off for the past two 
years and NSF expects increasing proportions in upcoming years. Second, 
since 1998, the success rate for URM applicants has risen to a level 
not far below the overall rate. The URM portion of applications has 
been approximately 11 percent for the past few years and NSF expects 
its outreach will result in increasing portions in upcoming years. As a 
comparison, in 1993, 17 percent of GRF applicants (virtually all MGF 
applicants) were URMs. Since 1998, when it was 5.9 percent compared to 
18.8 percent overall, the success rate for URM applicants has risen, 
and in 2003, it surpassed the overall success rate for the first time. 
The URM success rate/overall success rate for the past five years of 
the consolidated competition is: 1999: 13.6/18.8, 2000: 17.2/18.4, 
2001: 12.3/16.2, 2002: 10.1/13.7, 2003: 13.7/11.6. We feel that the 
rapid increase in URM success rate is in part attributable to 
increasing outreach and improvements in the review process that 
encourage a more compete evaluation of each application.
    The factors that seem most effective for increasing minority 
applications and increasing their success in the GRF program are: a) 
disseminating information about the program to potential applicants and 
to institutions that don't traditionally participate in the program, b) 
sharing information with these potential applicants about writing 
applications that reflect their abilities, and c) targeting faculty in 
their roles as mentors, references, and providers of undergraduate 
research opportunities. The program is paying particular attention to 
these factors in its outreach to Minority Serving Institutions. One 
sign of progress is that two of the 2002 GRF awardees are currently 
affiliated with a Historically Black College or University that never 
hosted any GRFs previously. The GRF program is also working with other 
NSF programs to develop further strategies that increase the success 
rate of URM applicants.

GRADUATE RESEARCH ASSISTANTS

Q4. LDoes NSF have a goal for the proportion of fellowships and 
traineeships relative to graduate research assistantships, which are 
funded under individual research grants? Does NSF have a policy of 
encouraging universities to provide graduate assistantship stipends 
roughly in line with fellowship and traineeship stipends?

A4. NSF does not have a goal regarding the proportion of fellowships 
and traineeships relative to graduate research assistantships. NSF 
supports about 4500 students on its three graduate programs, IGERT, GK-
12 and Graduate Research Fellows. Individual investigators determine 
the number of graduate research assistants through their research 
grants. Currently, the number of those students supported is about 
21,000-22,000.
    NSF does not have a specific policy regarding stipend levels for 
graduate research assistants. The stipend levels for graduate students 
in our fellowship programs are meant to attract the best U.S. citizens 
to science, technology, engineering, and mathematics, and have been 
successful in doing so. Applications to the Graduate Research 
Fellowship program have risen in direct proportion to the increasing 
stipend level for the last three years. Although there is no direct 
link between the stipend levels for our graduate students and those on 
research grants, NSF anticipates that the research community takes NSF 
stipend levels into consideration in determining their own salary 
structure for graduate students.

POSTDOCTORATE SUPPORT

Q5. LNSF has established an NSF-wide Working Group on Postdocs to 
provide coordination of NSF support for postdocs and the identification 
of agency-wide policies and requirements. What progress has been made 
in developing NSF policies for postdoc support and should we expect 
these policies to draw upon the comprehensive recommendations of the 
2000 National Research Council report, ``Enhancing the Postdoctoral 
Experience''? Are there reasons NSF should not institute terms and 
conditions in its grants to regulate the treatment of postdocs 
consistent with NSF-wide policies?

A5. It is estimated that NSF will support approximately 6,060 postdocs 
in FY 2003. About 200 of these postdocs are supported through targeted 
postdoc fellowship programs, with the remainder supported on research 
grants. For the postdoc programs, NSF has explicit requirements 
regarding the postdoc financial and career development support as 
stated in the individual program announcements. These program 
requirements address issues raised in the NRC Report Enhancing the 
Postdoc Experience and draw on the recommendations of that report. In 
addition, the NSF Postdoc Working Group is considering several issues 
concerning postdoc compensation and other support to inform planning 
for the FY 2005 budget.
    For those postdocs supported on research grants, the submitting 
institution requests the postdoc salary and benefit package, and 
develops the plan for the postdoc career development. Although these 
aspects of the postdoc support are subject to merit review by peer 
reviewers as well as by NSF staff, there are variations by institution 
consistent with their policies and practices.

        LIn summary, NSF is addressing issues raised in the NRC and 
        other reports to improve the postdoc experience through 1) 
        merit review of proposals with increased emphasis on the 
        Broader Impact review criteria, 2) development of NSF postdoc 
        programs that further address issues raised in these reports, 
        3) development of national models of exemplary practices for 
        postdoc experiences, and 4) planning for the FY 2005 budget.

CYBERINFRASTRUCTURE

Q6. LThe FY 2004 budget request includes $20 million for a new 
Cyberinfrastructure subactivity in the computer science directorate. 
Please relate this request to the recommendations of the recent report 
of the blue ribbon advisory committee on cyberinfrastructure. In 
particular, the blue ribbon committee recommends an infusion of more 
than $1 billion per year for NSF, including fundamental and applied 
research to advance cyberinfrastructure and acquisition and operation 
of advanced facilities for the research community. What aspect of the 
blue ribbon committee's recommendations does this new budget proposal 
address? In general, has NSF accepted the recommendations of the blue 
ribbon panel and will we see future budget proposals in line with the 
recommendations?

A6. The Advisory Committee on Cyberinfrastructure, sometimes referred 
to as the blue ribbon panel on cyberinfrastructure, has reported its 
findings and recommendations in ``Revolutionizing Science and 
Engineering Through Cyberinfrastructure'' available on the World Wide 
Web at http://www.cise.nsf.gov/evnt/reports/
FRONTMATTER<INF>-</INF>all.pdf. NSF views this report as an important 
document formulating a vision for cyberinfrastructure, justifying the 
investment through the ability to conduct new kinds science and 
engineering, and defining innovative means for scientists and engineers 
to fully exploit the opportunities provided by the availability of 
state-of-the-art sensors, massive data resources, and visualization. 
The committee sought the advice of a very broad group of leading 
scientists and engineers across the nation and found consensus on the 
importance and value of cyberinfrastructure investments.
    NSF plans for cyberinfrastructure are to build on recent and 
current investments in Terascale facilities, and to integrate these 
with other investments in Partnerships for Advanced Computational 
Infrastructure (PACI), Advanced Networking Infrastructure, and other 
activities. In FY 2003, the Terascale facilities will begin operating 
as a single distributed facility with five main sites for computation 
connected by a high-performance network backplane. In 2003 NSF will 
connect additional existing resources, such as computers, disciplinary 
databases, or leading edge scientific visualization facilities to the 
Terascale system. The FY 2003 awards will focus on making existing 
resources accessible to the full Terascale user community. Sharing of 
resources, interoperability of data, and new shared capacities for 
research and education will begin to demonstrate the potential of 
cyberinfrastructure to support new types of scientific and engineering 
analysis, permit a wider community of U.S. scientists and engineers to 
access the most advanced resources, and demonstrate the validity of the 
cyberinfrastructure report vision. A tighter integration of existing 
PACI facilities and network infrastructure investments with the 
Terascale facility is also expected.
    In FY 2004, NSF has requested $20 million for cyberinfrastructure 
investments. NSF will build on investments made in FY 2003 and consider 
development of new resources to become part of the emerging 
cyberinfrastructure. The investments of 2003 and 2004 will be 
consistent with the report insofar as NSF is beginning to explore the 
range of cyberinfrastructure opportunities.
    Beyond FY 2004, NSF expects that the budget for cyberinfrastructure 
will grow and be closely coordinated across all of the directorates. As 
cyberinfrastructure grows, funding requirements will increase, 
particularly in development of new resources such as sensors nets, 
shared visualization and scientific collaboration capabilities, 
innovative software resources to support new techniques for modeling 
and simulation, inter-operable database resources, and research 
enablers for new capabilities in cyberinfrastructure.

PLANT GENOME RESEARCH AND THE DEVELOPING WORLD

Q7. LThe recently enacted NSF authorization law includes an 
authorization for basic genomic research related to crops grown in the 
developing world. Within NSF's proposed plant genome research 
activities for FY 2004, are there any plans to support work related to 
this new authority, and if not, can we expect to see provision for such 
research in future budget requests?

A7. As authorized in H.R. 4664, Sec. 8, 3C, the Plant Genome Research 
Program is to support research on crops grown in the developing world. 
Since all crop plants are genetically similar, information and research 
tools developed in one plant species can be applied to all crops 
including those grown in the developing world. For example, projects 
supported by NSF have identified genes involved in plants' responses to 
environmental stress such as salinity, drought and frost. Moreover, 
genes important for plants' resistance to major plant pathogens are 
being identified. This information and these research technologies can 
be and are being applied by U.S. scientists to improve crops grown in 
the developing world. In addition, NSF supports genomic research on 
rice, sorghum, corn and potato, some of the most important crops in the 
developing world.
    Taking advantage of the outcomes from the NSF supported research, 
U.S. investigators are collaborating with scientists in developing 
countries to translate the basic research findings into improved crop 
production in the developing world. NSF encourages these networking/
coordination efforts by supporting workshops and research 
collaborations. Specific examples include:

        (1) LA Plant Genome grantee helped the International Rice 
        Research Institute in the Philippines to set up a lab to use a 
        novel method, which rapidly identifies genetic mutations of 
        agronomic importance, and will help breeders improve rice;

        (2) LNSF supported an international Musa (banana and plantains) 
        genomics workshop, which led to the establishment of the Global 
        Musa Genomics Consortium with members from Africa, Central and 
        South America, and India;

        (3) LNSF supported researchers from the University of 
        Wisconsin, Madison are collaborating with scientists from 
        CIMMYT, the International Maize and Wheat Improvement Center in 
        Mexico, on the study of the evolution of the maize genome; this 
        research will help scientists identify agronomically beneficial 
        traits in maize, which is leading to hardier crops; and

        (4) LNSF supported PIs working on various cereal crops are 
        involved in the U.S. A.I.D. sponsored activities to develop the 
        Cereal Genome Initiative and are providing opportunities for 
        international collaborations with scientists in developing 
        countries.

    NSF is in contact with the U.S. A.I.D. to coordinate our efforts to 
increase capacity for plant genome research in developing countries. In 
FY 2004, the NSF Plant Genome Research Program plans to encourage 
inclusion of training of scientists from developing countries in 
proposals submitted to the Program.

NSF BUSINESS ANALYSIS

Q8. LThe FY 2004 budget proposal for the NSF Salaries and Expenses 
account includes a request of $42.7 million for information 
infrastructure acquisitions, an amount that is 70 percent above the FY 
2003 request for this purpose and 160 percent above the FY 2002 
appropriations level. NSF has entered into a three-year, $12 million 
review of NSF's business processes and supporting human capital and 
enabling technologies. One outcome is to be an integrated enabling 
technologies plan. Why does this large budget growth for information 
infrastructure for internal NSF operations precede the completion of 
the enabling technologies plan? Why do you believe that the 
technologies you are acquiring will be consistent with the 
recommendations from the management study?

A8. The National Science Foundation (NSF) is moving in step with--not 
ahead of--the Business Analysis. All planned information technology 
investments are consistent with the goals and strategies outlined in 
the NSF Administration and Management Strategic Plan. NSF's Chief 
Information Officer (CIO) and the Director of the Division of 
Information Systems, who also serves as the Deputy CIO, are 
participating actively in the current Business Analysis and are leading 
that part of the Analysis focusing on the Technologies and Tools needed 
to make improvements in agency business processes possible. The CIO is 
primarily responsible for defining NSF's information technology (IT) 
strategy, plans and developing the annual IT budget. The Budget Request 
for FY 2004 and subsequent years will remain closely aligned with the 
results of the Business Analysis and with the enabling technologies 
plan as it evolves. The CIO and Deputy CIO serve on the Business 
Analysis Steering Committee to assure integration and coordination of 
near-term plans and investments with longer-term study recommendations. 
Bi-weekly meetings with the Technology study sub-team, monthly meetings 
of Business Analysis leads, and frequent Steering Committee meetings 
are management processes established to assure effective integration 
and coordination of study activities and information infrastructure 
investments. Interim deliverables are required (by design) throughout 
the study and are being used to guide and prioritize near-term 
information infrastructure investments. This iterative development 
approach for the enabling technologies plan results in a series of 
interim deliverables, near-term opportunities and priorities, and plans 
that are refined to increasing levels of detail and specificity 
throughout the study. The initial technology framework and suite of 
interim deliverables will be used to guide investments and allow the 
deployment of high priority infrastructure improvements and 
capabilities while a more detailed plan and architecture are formulated 
over the three year study.
    Another key factor ensuring alignment between NSF's requested IT 
investments and the results of the on-going Business Analysis is that 
NSF has placed great emphasis on developing an overall Enterprise 
Architecture, which is captured in the Business Analysis. The 
Enterprise Architecture is consistent with NSF's goals and operational 
priorities and is designed to support changing business practices and 
associated workforce needs, as well as technology advances.
    New investments are planned and evaluated within the context of the 
Enterprise Architecture. Documentation of the current Enterprise 
Architecture is currently underway and interim deliverables are being 
used as a framework to identify and evaluate near-term investments in 
applications and infrastructure.
    Consistent with the NSF Administration and Management Strategic 
Plan, planned investments in the FY 2004 Request continue NSF's 
investment in the next generation of electronic grants and human 
capital capabilities. These requirements were identified in the initial 
phases of the Business Analysis and are highlighted in the NSF 
Administration and Management Strategic Plan. The Request also provides 
resources to transition to the new government-wide mandated electronic 
government initiatives such as e-Grants, e-Payroll, and e-Human 
Resources. One internal e-Grants service that is being implemented is 
the Electronic Jacket, which is being used to learn how to evolve from 
a paper-based automated environment for internal processing of 
proposals and awards to a role-based, integrated and information-based 
workflow approach. This is a path finding project to highlight 
requirements and technical approaches for the longer-term and end-to-
end Proposal Review and Award Management Information System (PRAMIS) 
initiative that is being defined as part of the Business Analysis 
study.
    The FY 2004 Request includes prudent infrastructure investment to 
support increased operating costs and day-to-day IT services. Proposal 
receipt is up 28 percent in FY 2003 (to date) from the same time last 
year. Help Desk call volume for university customers and NSF staff is 
averaging 8,000 calls per month and is continuing to increase. 
Additional investments in technology applications, data center, and 
network resources are needed to sustain these increases and support an 
effective electronic workflow. Following several years of level 
funding, the Foundation's basic IT infrastructure is badly in need of 
upgrading, with some critical servers and equipment that have been in 
service for as long as six years or more. In a fully electronic 
environment, redundancy and backup for critical services (such as 
Internet Service, major systems and network servers) are required to 
assure consistent, reliable service. NSF's modernization plan includes 
critically needed investments to replace and establish redundancy for 
web and application servers, network servers, e-mail servers and 
storage capacity. In addition, infrastructure investments include costs 
to maintain a balanced security program, operational security, 
including 247 intrusion detection services, penetration tests, 
disaster recovery tests and additional security controls. All of these 
investments are needed to meet current service requirements and provide 
a more stable foundation for future capabilities that will be 
identified through the Business Analysis study.
    Careful planning and integration of near-term planning with the 
longer-term study is already resulting in more informed decision-making 
and investments. The Request level reflects our commitment to a multi-
year strategy for improving the IT infrastructure and providing the 
tools needed to support today's electronic business processes and 
tomorrow's requirements emerging from the Business Analysis.

COST SHARING POLICY

Q9. LNSF recently clarified its cost sharing policy for research awards 
to make clear that any reduction of 10 percent or more of the cost 
proposed for a grant must be accompanied by a corresponding reduction 
in the scope of the project. The purpose of the new rule is to prevent 
NSF program officers from informally pressuring applicants into high 
levels of cost sharing in order to receive an award. What steps have 
you taken to ensure that this directive is enforced? Are committees of 
visitors formally instructed to look into this when they review grant 
folders?

A9. The National Science Board revisited NSF's cost sharing policy in 
the Fall of 2002 and these discussions resulted in a revision to the 
NSF cost sharing policy. This revision was implemented by Important 
Notice 128, Revision of the NSF Cost Sharing Policy, dated January 24, 
2003 and the policy takes effect on April 1, 2003. The Important Notice 
can be accessed electronically at: <http://www.nsf.gov/bfa/dga/policy/
docs/in128.pdf>. NSF has taken several steps to ensure that both 
internal staff and the external community are aware of and understand 
the impact of this important change.
    The principles established in Important Notice 128 will be 
incorporated in upcoming revisions to NSF proposal and award policy 
documents. New program solicitations that contain cost sharing 
requirements will be carefully reviewed for compliance with the revised 
policy prior to issuance. In addition, a comprehensive set of 
Frequently Asked Questions (FAQs) has been developed on the revised 
cost sharing policy <http://www.nsf.gov/bfa/dga/policy/docs/
csfaqs03.pdf>. These FAQs are posted on the NSF web site for use by the 
external community, and a separate set available on the internal web 
site includes questions that are pertinent for use by NSF staff. As 
additional questions are posed by NSF staff and the grantee community 
regarding the revised policy, the FAQs will be updated accordingly.
    Important Notice 128 makes it very clear that, unless a program 
solicitation specifically requires cost sharing, proposers should not 
include cost sharing amounts on Line M of the proposal budget; and, if 
the solicitation does require it, they should not exceed the cost 
sharing level or amount specified in the solicitation. In order to more 
fully ensure the concept of cost sharing as an eligibility rather than 
a review criterion, the FastLane system is being modified to mask the 
cost sharing line item on the budget from peer reviewers during the 
review process.
    In addition to disseminating the revised policy via various 
electronic forums, NSF staff will also be discussing the revised policy 
in a number of external outreach events scheduled for this Spring. In 
order to ensure that NSF staff understand and are well versed in the 
revised cost sharing policy, the Division of Grants and Agreements has 
been conducting outreach with program staff at Divisional Staff 
meetings to discuss application of the new cost sharing policy to NSF 
programs. While NSF is confident that the steps outlined above will 
provide both NSF staff and the external community with the information 
they need to understand and abide by the revision, NSF also has an e-
mail alias (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="23404c5057504b42514a4d44634d50450d444c55">[email&#160;protected]</a>) to which one can submit details if a 
particular program is not in compliance with the revised cost sharing 
policy. This alias is monitored by the NSF Policy Office staff and all 
messages are held in the strictest confidence. The matter is looked 
into and, if necessary, the cognizant Division Director or Assistant 
Director is contacted to resolve the incidence of noncompliance. NSF 
will continue to evaluate compliance with the revised policy after it 
takes effect in April 2003, but have confidence that the mechanisms 
will address issues related to implementation and enforcement of the 
cost sharing policy.

EARTHSCOPE, HIAPER, NEON AND GLOBAL CHANGE

Q10. LNSF's budget request is calling for a ``60 percent increase in 
major research equipment and facilities construction,'' including 
EarthScope, the High-performance, Instrumented, Airborne Platform for 
Environmental Research (HIAPER), and the National Ecological 
Observatory Network (NEON). How are these new observing facilities/
networks coordinated with other climate and other global change 
research observing systems, and how do they contribute to U.S. 
commitments to build observing systems to identify climate and other 
global changes? Have the requirements for the instruments to be 
deployed in your proposed observing systems been evaluated to assure 
that they will provide data of sufficient quality to support the 
Nation's broader global change research efforts in addition to the 
needs of the scientists proposing the particular experiments?

A10. EarthScope will enable the study of solid earth systems and does 
not have components that are designed to address the climate and global 
change observing systems. However, scientists interested in the study 
of atmospheric water vapor and ionospheric total electron content have 
begun to utilize existing continuous Global positioning System (GPS) 
data, such as that to be generated by the extensive GPS network planned 
for EarthScope. The EarthScope GPS data will be state-of-the-art and 
will be openly accessible to all users.
    The need for new, airborne research platforms was established in 
the late 1980s. The High-performance, Instrumented, Airborne Platform 
for Environmental Research (HIAPER) project has been designed to fill a 
niche in the national airborne science fleet, with HIAPER's operational 
characteristics developed in consultation with the national and 
international community to insure that scientific requirements would be 
met. NSF is a key partner in three interagency committees on airborne 
science and aircraft policy, facilitating coordination of research 
activities with partner agencies. NSF observing facilities, including 
HIAPER when it becomes operational, have and will continue to support 
interagency and international programs in weather and climate research.
    Initial instruments developed for HIAPER will be based on the 
results from a workshop, attended by approximately 200 researchers from 
around the world. The workshop identified the highest priority science 
issues and instruments will be developed to address these issues, at 
least to the level of funding available. Although the construction of 
HIAPER includes development of a base suite of instruments, 
instrumentation for HIAPER will continue to be developed throughout the 
operational life of the platform to meet specific science requirements, 
providing the flexibility to ensure that HIAPER is always positioned to 
meet emerging research needs.
    The NEON network of research observatories will complement other 
efforts to study climate and global change by providing, through 
interdisciplinary research infrastructure and protocols, evidence of 
the nature and pace of biological change. Examples of biological change 
that could be addressed with NEON include (a) biogeochemical 
imbalances, (b) dynamics of carbon cycles, (c) emerging infectious 
diseases, (d) potential for and impact of invasive species, (e) 
dynamics of increases or decreases in biological diversity and in 
ecosystem functions, and (f) causes and consequences of coupled human-
natural system dynamics. Several workshops have spoken to the issue of 
assuring that NEON data is of appropriate kind and quality to be 
pertinent to climate/global change research in general, although 
details are appropriately finalized through formal proposals and a 
rigorous peer review process.

MANAGEMENT OF DATA FOR THE NEW OBSERVING SYSTEMS

Q11. LDescribe the life-cycle data management plans for each of the new 
observing systems NSF proposes to deploy over the next decade. How does 
the plan assure that sufficient resources will be devoted to the 
collection of appropriate metadata and to the long-term support for 
archiving of the data sets collected during the operating life of the 
new observing systems?

A11. The consortia that will construct the EarthScope facility has 
developed an extensive life-cycle data management plan, including 
community-generated requirements for metadata and long-term data 
storage. These NSF-supported consortia have been in existence for more 
than 15 years and are committed to continue their highly successful 
permanent data storage and open access indefinitely. They are aided in 
this task by rapid advances in information technology, which make data 
storage and retrieval more efficient and less costly each year.
    Responsibility for HIAPER data management falls to several 
organizations. For routine instruments, on-board HIAPER data management 
is the responsibility of HIAPER's operator, the National Center for 
Atmospheric Research (NCAR) and the University Consortium for 
Atmospheric Research (UCAR). The Research Aviation Facility at NCAR 
collects, maintains and archives data from instruments in its stable, 
and UCAR's Joint Office for Science Support collects, maintains and 
archives data from a broader suite of instruments. Data from 
researcher-supplied instruments is generally maintained and archived by 
the researcher at his or her home institution. The great majority of 
instruments that will fly on the HIAPER platform will be developed by 
individual researchers to address specific needs.
    Through NEON workshops, the community has stressed that each 
observatory must conduct quality assurance/quality control (QA/QC) of 
the scientific data collected as an integral part of the observatory. 
Proposals for NEON sites will have to include a detailed description of 
data gathering, quality and management, while the NEON Coordinating 
Unit will assure a system wide quality in data storage, management and 
accessibility. Information technology is by far the key component that 
binds together and empowers NEON and will be closely scrutinized by the 
community through the peer review process. Every workshop has included 
a strong emphasis on the critical importance of adequate metadata, or 
data quality and characteristics. Support for long-term archiving of 
data and metadata will be provided through NEON management and 
operations budgets.

Question submitted by Representative Nick Smith

CENTERS FOR LEARNING & EDUCATION IMPROVEMENT CENTERS FOR PLANT GENOME & 
                    GENE EXPRESSION

Q1. LThe National Science Foundation Authorization Act of 2002, P.L. 
107-368, contains specific program authorizations for centers for 
research on learning and education improvement, and for plant genome 
and gene expression research centers. What are your plans to move 
forward on these initiatives?

A1. In response to Section 11 (Establishment of Centers for Research on 
Mathematics and Science Learning and Education Improvement) of Public 
Law 107-368, NSF will, with respect to the newly authorized Science of 
Learning Centers (SLC) program, combine new tools, new methods, and 
collaborations across disciplines to explore: (1) the process of 
learning; (2) the context in which learning is situated; and (3) the 
technologies that will improve learning, access to learning and 
research on learning. Comparable in significance and scope of 
activities to NSF's hallmark Science and Technology Centers and 
Engineering Research Centers, SLCs will build on standing research 
programs across the Foundation, integrating across the frontiers of 
multiple science and engineering disciplines. Thus, the science of 
learning emerges from the intersections of diverse disciplines across 
the biological, cognitive, computational, mathematical, physical and 
social sciences, engineering and education. Areas include 
psychological; social and pedagogical aspects of learning; biological 
bases of learning; feedback networks such as molecular recognition; 
machine learning; learning technologies; and mathematical analyses and 
modeling of all of these.
    The program will support large-scale, multidisciplinary and multi-
institutional centers that serve as national resources to extend the 
frontiers of knowledge on learning and create the intellectual, 
organizational, and physical infrastructure needed for the long-term 
advancement of learning research. Built around a unifying research 
focus, each SLC will incorporate a diverse, multidisciplinary 
environment involving appropriate partnerships with academia, industry, 
international partners, all levels of education and other public and 
private entities.
    The FY 2004 request for this program is $20.0 million, providing 
funds for three to four centers (at approximately $3.0 million to $5.0 
million per year) and for 20 or more catalyst projects, which are 
smaller, partnership-building and proof-of-concept collaborative 
research activities that could eventually develop into centers. They 
are funded for up to two years at up to $250,000 total, with up to 
$50,000 additional for international collaborative activities. 
Following extensive input from within the Foundation and guidance from 
NSF management and the National Science Board, we are now ready to 
implement the program.
    In Section 8 (Specific Program Authorizations) of the 
reauthorization bill, NSF is directed to support regional plant genome 
and gene expression research centers that conduct research and 
dissemination activities. Since its inception, the Plant Genome 
Research program has supported plant genome virtual centers. Virtual 
centers (centers without walls) consist of investigators from multiple 
institutions with diverse backgrounds and expertise. All virtual center 
awards are required to integrate research and education. Plant genomics 
research provides an ideal environment to expose young people to the 
biology of the 21st century. In addition, most of these center awards 
focus on gene expression studies.
    Examples of Plant Genome Research Centers, which focus on gene 
expression studies, include:

        <bullet> L``A protein Interaction Database for Rice Protein 
        Kinase'' at University of Nebraska/University of Missouri/
        University of Florida/University of Arizona/University of 
        California at Davis;

        <bullet> L``Functional Genomics of Hemicellulose Biosynthesis'' 
        at Michigan State University/University of California at 
        Riverside; and

        <bullet> L``Comparative Genomics of Cotton'' at Iowa State 
        University/University of Georgia/University of Arizona.
                   Answers to Post-Hearing Questions
Responses by Robert G. Card, Under Secretary for Energy, Science, and 
        Environment, U.S. Department of Energy

Questions submitted by Representative Ralph M. Hall, Minority Ranking 
                    Member

HYDROGEN BUDGET

Q1. LThe Administration demonstrated a commitment to a hydrogen economy 
through increased funding for the FreedomFuels and FreedomCAR programs. 
How much of the increase is new money in the Department budget as a 
whole, as well as within the recipient programs EERE, Fossil, and 
Nuclear? How much is transferred from existing energy efficiency 
programs? How did nonhydrogen programs fare in the FY04 budget?

A1. Of the $1.7 billion committed to the FreedomCAR partnership and the 
President's Hydrogen Fuel Initiative over the next 5 years, $720 
million is ``new'' money (i.e., above the otherwise assumed baseline). 
The total DOE FY 2004 budget request for the FreedomCAR and Hydrogen 
Fuel Initiatives totals $272.8 million, including:

        <bullet> L$165.5 million for EERE's Hydrogen, Fuel Cell, & 
        Infrastructure Technology program

        <bullet> L$91.5 million for FreedomCAR & Vehicle Technologies 
        program

        <bullet> L$11.5 million for Office of Fossil Energy

        <bullet> L$4 million for Office of Nuclear Energy

        <bullet> L$0.7 million for DOT's Research & Special Programs 
        Administration

    The FY 2004 Budget includes increases over EERE's FY 2003 budget 
request in the following amounts and program areas: $48.1 million for 
Hydrogen Technology, $20 million for Fuel Cell Technology, and $16.6 
million for Vehicle Technologies activities that support the PreedomCAR 
partnership ($3.0 million for Vehicle Technologies on a net basis).
    EERE funding from FY 2003 to FY 2004 is relatively flat. EERE's FY 
2004 Budget Request for every non-hydrogen R&D program except Biomass 
and Industrial Technologies remains nearly level with its FY 2003 
Congressional Appropriation. Funding for Biomass R&D was shifted in 
light of complementary funding in the 2002 Farm Bill, as well as 
termination of large-scale gasification activities that are largely 
within industry's capability. Reductions in Industrial Technologies R&D 
result from recognition that the industrial sector is the most energy 
efficient sector of our economy, and industries, particularly energy-
intensive industries, have the economic incentive and are succeeding in 
their attempts to be more energy efficient. The Administration's R&D 
investment criteria helped guide our investment decisions.

Q2. LWhile the Administration's unveiling of the FreedomFuels/
FreedomCAR program is commendable, is it wise to fund this research at 
such a high level so early in the game, especially if it comes at the 
cost of reduced funding in almost all other R&D efforts?

A2. The FY 2003 budget request represents a balanced and prioritized 
R&D portfolio. This request focuses more efforts on longer-term and/or 
higher risk R&D with substantial potential benefits for the taxpayer 
investments.
    Reducing our dependence on imported oil is one of our top 
priorities among Energy Efficiency and Renewable Energy programs. Over 
the last year, the Department worked with industry, academia, and other 
stakeholders to develop a hydrogen roadmap--a realistic, cost-effective 
plan to achieve the President's vision. The budget identifies specific 
technology goals and milestones which we will use to evaluate the 
technology development progress.

Question submitted by the House Committee on Science

Program Assessment Rating Tool

Q3. LHow does the FY 2004 budget request reflect the department's 
performance according to OMB's much touted investment criteria called 
the Program Assessment Rating Tool, or PART? Please refer to specific 
examples from the budget that show both an increase and decrease in 
funding, and a reorganization due to performance in the PART system.

A3. This Administration is moving forward aggressively to integrate 
performance into the budget process. The Program Assessment Rating Tool 
(PART) contributed significantly to the FY 2004 budget formulation 
effort. The Department has worked closely with OMB to arrive at the 
ratings, which were factored into budget decisions.
    We have provided additional funding to several programs who have 
scored well, such as the National Nuclear Security Administration's 
International Nuclear Materials Protection & Cooperation program, which 
received an Effective rating. We have also redirected some programs who 
did not do as well, such as the Fossil Energy Oil and Gas programs. 
However, a low score does not necessarily mean a reduction of funding. 
An example of this is the Environmental Management program where this 
Administration, using PART, identified a program that was not as 
productive or as cost-effective as it should be, and we have taken 
action to change this. In fact, the funding for this program was 
increased as part of our turnaround strategy. While reorganization 
options are being considered within the Department, none are directly 
related to PART results.

Questions submitted by Representative Ralph M. Hall, Minority Ranking 
                    Member

Q4. LWhat programs will be transferred to the Office of Electric 
Transmission and Distribution? What are the problems this new office is 
expected to resolve in the Transmission and Distribution areas? Will 
distributed generation and transmission reliability R&D continue to be 
funded at their current levels? Are there other newly created offices 
with a substantial R&D component?

A4. The Office of Electric Transmission and Distribution initially will 
contain the following programs: High Temperature Superconductivity, 
Transmission Reliability, Distributed Integration, Electric Storage and 
Electricity Restructuring. In addition, the office will do electricity 
policy modeling and analysis, coordinate with the Power Marketing 
Authorities and oversee the regulation of electricity exports and the 
permitting of international electric transmission lines. Of course, 
other programs and functions may be added later.
    The mission of the new office is to lead a national effort to 
modernize and expand America's electricity delivery system to ensure 
economic and national security. In the near term, modeling and analysis 
of the grid, introduction of new systems operational tools for 
industry, and facilitation with FERC and the States on advancing the 
electricity market will be the primary objectives of the new office. In 
the longer term, the office will continue to work with industry to 
develop technologies that promise public benefits and that the private 
sector would not undertake without Federal support, consistent with the 
Administration's R&D investment criteria.
    As part of the formation of the new office, the Department is 
working with industry to develop a transmission and distribution vision 
and technology roadmap. These documents will help identify key 
technical challenges and the role of industry and government in 
addressing them. We anticipate that the documents may inform future 
budget decisions. In FY04 we request $3 million to initiate a 
transmission response initiative.
    In forming the new office, DOE wanted to co-locate electricity R&D 
with policy and market analysis to improve synergies in the 
Department's response to the nation's critical needs for electricity 
planning. We are not aware of other offices implementing this strategy.

Q5. LWhat programs or types of programs have been targeted in this 
year's massive cut in biomass and biorefinery R&D? What was the 
reasoning behind the large cuts in biomass R&D? What kind of 
interagency coordination is going on between DOE and the Department of 
Agriculture where other biomass and biorefinery programs are authorized 
to ensure the development of this potential energy resource?

A5. Funding allocations within the federal R&D portfolio reflect 
Administration priorities, program performance, program alignment with 
the Administration's R&D investment criteria, potential public 
benefits, and other factors, including efficiencies realized by 
combining all biomass research under one program and bringing to 
completion research on some technologies that ate ready to be 
commercialized. One example of a terminated biomass activity is 
industrial gasification. Industrial gasification activities under the 
Interior Appropriation will not be funded in FY 2004 because the R&D is 
at a stage where industry can pursue it without further federal 
support.
    In addition, the 2002 Farm Bill makes mandatory funding available 
to USDA so that USDA and DOE can jointly pursue the technological 
challenges to making biorefineries commercially viable. In FY 2003, 
under a joint solicitation required by the Biomass R&D Act of 2000, 
USDA will award up to $16 million and DOE up to $5 million for cost-
shared R&D work identified in the Act. USDA's focus is on environmental 
performance, economic viability, and feedstock production. DOE's focus 
is on faster and cheaper conversion of biomass to fuels and other bio-
based products, and on syngas clean-up and conditioning. In addition, 
the two agencies have been collaborating and/or coordinating on 
numerous activities such as the sustainability analysis of corn stover 
harvesting and conversion to ethanol.
    Finally, various earmarks reduced the coherence of the biomass and 
biorefinery program and significantly constrained the ability of our 
scientists and engineers to move these important technologies forward. 
Thus, when the tough choices were made about funding the most important 
research for our Nation's energy security, environmental, and economic 
goals, the focus was shifted to other areas where there could be 
greater R&D effectiveness.
    Nevertheless, the Department recognizes the tremendous potential of 
a well-focused biomass R&D program to develop biorefinery technologies 
that can produce fuels, power, and high-value chemicals and other 
products and is working to move this R&D forward.

International Thermonuclear Experimental Reactor

Q6. LThe Secretary recently announced our re-commitment to ITER with a 
total of $500 million over eight years for the U.S., $12 million of 
which is requested for FY 2004. What activities will be undertaken in 
FY 2004 to restart our participation on the collaboration on ITER? Can 
you give us a rough timeline as to what the annual request would be 
over the proposed eight-year period?

A6. The requested $12 million will be used for preparatory work before 
the construction project begins and is, therefore, not part of the U.S. 
contribution to the construction project.
    We will be orienting both science and technology activities toward 
support of the ITER preparations. The science activities include both 
specific operating time on the DIII-D and Alcator C-Mod facilities, to 
address physics questions of importance to ITER, as well as theory and 
computation supportive of ITER operation. The technology activities 
include direct participation in the ongoing work of the ITER 
International Team located at Garching, Germany and Naka, Japan which 
is focused on improving and completing the design as part of the 
interaction with regulatory authorities. It also includes some tasks at 
home in support of this work.
    Assuming a construction start in FY 2006 and no delays associated 
with either the formal agreements, establishment of the necessary 
international ITER legal entity, or obtaining the license to begin the 
construction, the first construction funds would be sought for FY 2006. 
The annual funding profile will be subject to the outcome of the 
negotiation, as the allocation of component responsibilities to each 
party would affect the schedule for those components and associated 
costs. In addition, our contribution will need to incorporate 
contingency, in accordance with standard DOE practices, as well as 
escalation. And some components will require R&D before industrial 
contracts could be placed. Therefore, it is premature for me to predict 
the annual funding request for the U.S. contribution at this time.

Climate Research Activities

Q7. LWhat provision does the FY 2004 budget request make for managing 
and archiving the data collected from the climate research activities 
supported by your department?

A7. Data management activities are incorporated in the Climate Change 
Research subprogram budget. Data include the Atmospheric Radiation 
Measurement observations, seeking to understand the role of clouds in 
climate change, and the carbon cycle observation from the AmeriFlux 
network that seeks to understand and quantify the net exchange of 
carbon between the atmosphere and major terrestrial ecosystems in North 
America. All data are quality assured, archived, and made available to 
the public.

Question submitted by Representative George R. Nethercutt

Q8. LThe DOE has set a goal of 2015 for the completion of the R&D phase 
of the FreedomCAR hydrogen car initiative. Please explain the 
groundwork you are laying now to allow a smooth federal exit of 
hydrogen funding and how industry is likely to pick up where federal 
R&D leaves off?

A8. The Department will fund national laboratories and universities and 
co-sponsor industry research and development to overcome the high risk, 
``critical path'' barriers. These barriers include hydrogen production 
efficiency and cost, hydrogen storage, fuel cell cost, hydrogen 
delivery cost, and lack of approved codes and standards. Following 
validation (through system demonstration and/or analysis) of research 
targets established in each area, the federal role in research would be 
ramped down.
    If industry makes a positive commercialization decision by 2015, it 
will be industry's responsibility to make investments in automotive 
manufacturing, sales and service, and hydrogen production and delivery 
infrastructure. Government policies or incentives could be evaluated to 
accelerate vehicle and refueling infrastructure.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
